<html>
<title> - TERRORIST THREAT INTEGRATION CENTER (TTIC) AND ITS RELATIONSHIP WITH THE DEPARTMENTS OF JUSTICE AND HOMELAND SECURITY</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



 
 TERRORIST THREAT INTEGRATION CENTER (TTIC) AND ITS RELATIONSHIP WITH 
            THE DEPARTMENTS OF JUSTICE AND HOMELAND SECURITY

=======================================================================

                             JOINT HEARING

                               BEFORE THE

                       COMMITTEE ON THE JUDICIARY

                                AND THE

                          SELECT COMMITTEE ON 
                           HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 22, 2003

                               __________

                             Serial No. 64

                      (Committee on the Judiciary)

                           Serial No. 108-19

                (Select Committee on Homeland Security)

                               __________

         Printed for the use of the Committee on the Judiciary 
             and the Select Committee on Homeland Security


    Available via the World Wide Web: http://www.house.gov/judiciary
                        and http://hsc.house.gov


                               __________


                        U.S. GOVERNMENT PRINTING OFFICE

88-544                          WASHINGTON : 2004
_____________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing
Office Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800
Fax: (202) 512-2250  Mail: Stop SSOP, Washington, DC  20402-0001





                     COMMITTEE ON THE JUDICIARY

            F. JAMES SENSENBRENNER, Jr., Wisconsin, Chairman
HENRY J. HYDE, Illinois              JOHN CONYERS, Jr., Michigan
HOWARD COBLE, North Carolina         HOWARD L. BERMAN, California
LAMAR SMITH, Texas                   RICK BOUCHER, Virginia
ELTON GALLEGLY, California           JERROLD NADLER, New York
BOB GOODLATTE, Virginia              ROBERT C. SCOTT, Virginia
STEVE CHABOT, Ohio                   MELVIN L. WATT, North Carolina
WILLIAM L. JENKINS, Tennessee        ZOE LOFGREN, California
CHRIS CANNON, Utah                   SHEILA JACKSON LEE, Texas
SPENCER BACHUS, Alabama              MAXINE WATERS, California
JOHN N. HOSTETTLER, Indiana          MARTIN T. MEEHAN, Massachusetts
MARK GREEN, Wisconsin                WILLIAM D. DELAHUNT, Massachusetts
RIC KELLER, Florida                  ROBERT WEXLER, Florida
MELISSA A. HART, Pennsylvania        TAMMY BALDWIN, Wisconsin
JEFF FLAKE, Arizona                  ANTHONY D. WEINER, New York
MIKE PENCE, Indiana                  ADAM B. SCHIFF, California
J. RANDY FORBES, Virginia            LINDA T. SANCHEZ, California
STEVE KING, Iowa
JOHN R. CARTER, Texas
TOM FEENEY, Florida
MARSHA BLACKBURN, Tennessee

             Philip G. Kiko, Chief of Staff-General Counsel
      Perry H. Apelbaum, Minority Chief Counsel<greek-l>F0486 deg.
                 SELECT COMMITTEE ON HOMELAND SECURITY

                 CHRISTOPHER COX, California, Chairman
JENNIFER DUNN, Washington            JIM TURNER, Texas
C.W. BILL YOUNG, Florida             BENNIE G. THOMPSON, Mississippi
DON YOUNG, Arkansas                  LORETTA SANCHEZ, California
F. JAMES SENSENBRENNER, Jr.,         EDWARD J. MARKEY, Massachusetts
    Wisconsin                        NORMAN D. DICKS, Washington
BILLY TAUZIN, Louisiana              BARNEY FRANK, Massachusetts
DAVID DREIER, California             JANE HARMAN, California
DUNCAN HUNTER, California            BENJAMIN L. CARDIN, Maryland
HAROLD ROGERS, Kentucky              LOUISE McINTOSH SLAUGHTER, New 
SHERWOOD BOEHLERT, Illinois              York
LAMAR SMITH, Texas                   PETER A. DeFAZIO, Oregon
CURT WELDON, Pennsylvania            NITA M. LOWEY, New York
CHRISTOPHER SHAYS, Connecticut       ROBERT E. ANDREWS, New Jersey
PORTER J. GOSS, Florida              ELEANOR HOLMES NORTON, D.C.
DAVE CAMP, Michigan                  ZOE LOFGREN, California
LINCOLN DIAZ-BALART, Florida         KAREN McCARTHY, Missouri
BOB GOODLATTE, Virginia              SHEILA JACKSON LEE, Texas
ERNEST J. ISTOOK, Jr., Oklahoma      BILL PASCRELL, Jr., New Jersey
PETER T. KING, New York              DONNA M. CHRISTENSEN, Virgin 
JOHN LINDER, Georgia                     Islands
JOHN B. SHADEGG, Arizona             BOB ETHERIDGE, North Carolina
MARK E. SOUDER, Indiana              CHARLES A. GONZALEZ, Texas
MAC THORNBERRY, Texas                KEN LUCAS, Kentucky
JIM GIBBONS, Nevada                  JAMES R. LANGEVIN, Rhode Island
KAY GRANGER, Texas                   KENDRICK B. MEEK, Florida
PETE SESSIONS, Texas
JOHN E. SWEENEY, New York

                  John Gannon, Majority Staff Director
               David H. Schanzer, Minority Staff Director



                            C O N T E N T S

                              ----------                              

                             JULY 22, 2003

                           OPENING STATEMENT

                                                                   Page
The Honorable Howard Coble, a Representative in Congress From the 
  State of North Carolina, and Chairman, Subcommittee on Crime, 
  Terrorism, and Homeland Security, Committee on the Judiciary...     1
The Honorable F. James Sensenbrenner, Jr., a Representative in 
  Congress From the State of Wisconsin, and Chairman, Committee 
  on the Judiciary (given by Mr. Coble)..........................     1
The Honorable Christopher Cox, a Representative in Congress From 
  the State of California, and Chairman, Select Committee on 
  Homeland Security..............................................     2
The Honorable Jim Turner, a Representative in Congress From the 
  State of Texas, and Ranking Member, Select Committee on 
  Homeland Security..............................................     5
The Honorable Robert C. Scott, a Representative in Congress From 
  the State of Virginia, and Ranking Member, Subcommittee on 
  Crime, Terrorism, and Homeland Security, Committee on the 
  Judiciary......................................................     7

                               WITNESSES

Mr. John O. Brennan, Director, Terrorist Threat Integration 
  Center (TTIC)
  Oral Testimony.................................................     9
  Prepared Statement.............................................    11
Mr. Larry Mefford, Executive Assistant Director, Counterterrorism 
  and Counterintelligence, Federal Bureau of Investigation, U.S. 
  Department of Justice
  Oral Testimony.................................................    13
  Prepared Statement.............................................    14
Mr. Bill Parrish, Acting Assistant Secretary for Information 
  Analysis, Directorate of Information Analysis and 
  Infrastructure Protection, U.S. Department of Homeland Security
  Oral Testimony.................................................    15
  Prepared Statement.............................................    16
Mr. Jerry Berman, President, Center for Democracy and Technology
  Oral Testimony.................................................    18
  Prepared Statement.............................................    19

                                APPENDIX
               Material Submitted for the Hearing Record

Prepared Statement of the Honorable James R. Langevin, a 
  Representative in Congress From the State of Rhode Island......    81
Responses from John O. Brennan, Director, Terrorist Threat 
  Integration Center (TTIC), to post-hearing questions...........    82
Response from Eleni P. Kalisch, Assistant Director, Office of 
  Congressional Affairs, Federal Bureau of Investigations, U.S. 
  Department of Justice on behalf of Larry Mefford, Executive 
  Assistant Director, Counterterrorism and Counterintelligence, 
  Federal Bureau of Investigation, U.S. Department of Justice, to 
  post-hearing questions.........................................   125


 TERRORIST THREAT INTEGRATION CENTER (TTIC) AND ITS RELATIONSHIP WITH 
            THE DEPARTMENTS OF JUSTICE AND HOMELAND SECURITY

                              ----------                              


                         TUESDAY, JULY 22, 2003

                  House of Representatives,
                                Committee on the Judiciary,

                                  and

                     Select Committee on Homeland Security,
                                                    Washington, DC.
    The Committees met, pursuant to call, at 1:05 p.m., in Room 
2118, Rayburn House Office Building, Hon. Howard Coble 
presiding.
    Mr. Coble. [Presiding.] Good afternoon, ladies and 
gentlemen. The joint hearing of the Judiciary and Homeland 
Security Committees will come to order. Chairman Sensenbrenner 
may or may not appear. He had other duties to attend to, but he 
may be here imminently. And, I underwent facial surgery 
yesterday, so I may have to depart before too long. So don't 
take my departure as lack of interest in this subject. Now, I 
will try to come back. I appreciate all of you being here.
    In the wake of the terror--this will be Mr. Sensenbrenner's 
opening statement:
    In the wake of the terrorist attacks of September 11, 2001, 
at the height of the shock and horror, the American people 
asked who? Who would attack so many innocent people so 
viciously?
    The who was answered rather quickly as names, pictures, and 
affiliations replaced speculation. Then the American people 
asked why? Why would anyone do this? The answer was somewhat 
more complicated then determining who, but eventually it was 
answered--having historical and political roots combined with 
pure hatred and a wanton disregard for human life.
    Eventually, the American people asked how? How could the 
most industrialized, technologically advanced Nation in the 
world, with an unmatched military might, fall prey to what 
essentially amounted to a band of thugs, mostly in their 
twenties, armed with box cutters? And how could we not see it 
coming?
    As we convene this hearing today, just a month away from 
the 2-year anniversary of those attacks, we are still examining 
how. As Congress attempted to answer how this could have 
happened, it became apparent that our national intelligence 
apparatus had serious deficiencies. After numerous 
congressional hearings, briefings, and reviews, including the 
Joint Intelligence Committee inquiry, serious shortcomings were 
identified.
    The shortcomings covered all phases of intelligence, 
including its collection, analysis, and dissemination. In 
general terms, terms you have certainly heard by now, there was 
a failure to connect the dots. The world changed on September 
11, 2001, and the mission and structure of our Government--
including our law enforcement agencies, intelligence agencies, 
and military forces--are changing to meet the threats of this 
new world.
    As a result, our Nation's laws are evolving. With the 
passing of the PATRIOT Act, law enforcement and intelligence 
officials can more freely share information. Many agencies have 
reinvented themselves since the events of September 11th, the 
response to specific performance relating to criticism leveled 
at them.
    With so many changes, we must occasionally pause and 
conduct a pulse check and evaluate how our new organizational 
creations, technologies, and procedures are performing. We must 
ensure that these structural changes are real and produce 
positive results that allow our intelligence and law 
enforcement communities to effectively connect the dots.
    By not connecting the dots, a picture does not emerge; but 
connecting the dots in the wrong order produces a result that 
is just as useless. Congress and the Administration must work 
together to ensure that our attempts at making those 
connections are logical and unified.
    One new creation that evolved from the need to coordinate 
intelligence information was the Terrorist Threat Integration 
Center, known by its acronym TTIC. TTIC was announced by 
President Bush during his State of the Union address on January 
28, 2003, with instructions to the FBI, CIA, the Department of 
Homeland Security, and the Department of Defense to merge and 
analyze all threat information in a single location.
    During our hearing today, the Judiciary Committee and the 
Select Committee on Homeland Security will examine how the 
center is working, the impediments that may prevent successful 
implementation, and its relationship with law enforcement and 
information collection.
    Furthermore, the witnesses need to address concerns some 
have raised about the future evolution that TTIC might yield. 
Additionally, I would like to examine where there might be some 
unnecessary duplication of effort, realizing fully that as a 
general principle, the more eyes reviewing intelligence 
information the better.
    I look forward to hearing from your panel today, and now 
yield to the distinguished gentleman from California, Mr. Chris 
Cox, who chairs the Select Committee on Homeland Security.
    Chairman Cox. Good afternoon. Thank you, Mr. Chairman. I 
would like at the outset to thank the Chairman of the full 
Committee, Mr. Sensenbrenner, for arranging this hearing in 
which the Homeland Security Committee is participating jointly, 
and to thank my friend, the Chairman of the Judiciary 
Subcommittee on Crime, Terrorism, and Homeland Security, Mr. 
Coble, for joining me in arranging this very important hearing 
today.
    It is important because between our main witnesses today, 
the organizations represented have a central role in the war on 
terrorism. Just as important, this joint hearing is necessary 
because multiple Committees of the Congress must tackle this 
matter of mutual interest in a constructive and cooperative 
way.
    I believe we are showing here how we can work together for 
the good of the country. That is important, because even with 
the creation of the Homeland Security Committee in the House of 
Representatives, both the FBI and the CIA lie chiefly within 
the jurisdiction of the Judiciary and the Intelligence 
Committees.
    So I join Chairman Sensenbrenner, who cannot be with us at 
the moment, in welcoming all of our witnesses this afternoon. 
Each of our Committees has a good reason for wanting to hear 
about TTIC. TTIC is a creation of four principal agencies, 
including the Department of Homeland Security and the FBI. The 
Administration's intent was that each agency participant in 
TTIC would be an equal partner. Representatives of two of those 
equal partners are with us today. Each agency partner in TTIC, 
including the Department of Homeland Security and the FBI, 
contributes its personnel, assigns them to the TTIC, and funds 
them and their activities.
    Each pays its costs. They are not reimbursed. More 
importantly, each of TTIC's agency participants brings its 
authorities to TTIC. Without them, TTIC would have none, 
because TTIC itself has no basis in law. It was not created by 
statute. It has no authority that is not borrowed from its 
agency participants. In the private sector, TTIC would probably 
be called a joint venture. Several different entities have come 
together to get a particular job done. It is a shared activity 
that is one of a variety of new post-9/11 partnerships that 
seek to match information to needs. We are achieving this 
regardless of traditional bureaucratic boundaries.
    The stated purpose of TTIC is to bring together and analyze 
all terrorist threat-related information available to the 
United States Government. That is a tall order, but just one 
part of the Department of Homeland Security's own threefold 
objective: First, to prevent terrorism; second, to protect our 
Nation, its population, and critical infrastructure; and, 
third, since anything else would be irresponsible, to prepare 
to respond if we are unsuccessful in the first two objectives, 
because, to prepare for what was once unthinkable is a good way 
to avoid reliving it.
    That brings me to our larger interest. The Select Committee 
on Homeland Security is the House Committee for ensuring that 
the Department of Homeland Security reaches its full 
statutorily mandated potential. This is our 20th hearing. Most 
of our hearings in one way or another have touched on the 
Department's analytic responsibilities. This is because the 
Department's Directorate of Information Analysis and 
Infrastructure Protection is at the very heart of nearly all of 
the Department's activities, from cyber security to border 
protection, to awarding first responder grants.
    It enables them, focuses them, prioritizes them. It makes 
them relevant to the protection of the United States citizens 
and the prevention of terrorism in the United States. Good, 
timely, and relevant information analysis enables us to act 
intelligently to protect our most vulnerable critical 
infrastructure, much of which is private-sector owned. Last 
week's hearing of our full Committee also made clear that it is 
good analysis of the most relevant information that will enable 
first responders to plan and train to meet the threats most 
likely to put the communities they protect at risk, and that 
will enable them to meet those threats.
    We saw an even more pointed demonstration of the need for 
an expert and independent in-house analytical cadre of the 
Department of Homeland Security recently when we considered 
H.R. 2122, the ``Project BioShield Act of 2003.'' That 
legislation requires the Secretary of Homeland Security to 
determine on an ongoing basis which chemical, biological, 
radiological, and nuclear agents around the world constitute a 
material threat to the population of the United States. This 
will require a standing in-house capability to analyze all 
terrorist threat-related information available to the U.S. 
Government. Any such information that could translate into a 
risk that the American homeland, our people, our critical 
infrastructure, and our core interests could be attacked would 
be relevant for this purpose. The Homeland Security Act itself 
requires that the Department have direct access to all such 
information, including specifically raw; that is, unanalyzed, 
unprocessed, intelligence information.
    If the Department of Homeland Security fulfills its 
statutory mandate, it will be efficient and effective in 
meeting its responsibilities under the BioShield legislation. 
Nothing must be allowed to get in the way of this. But just 
yesterday the Washington Post reported that, ``The intelligence 
unit of the 4-month-old Department of Homeland Security is 
understaffed, unorganized, and weak-willed, diminishing its 
role in pursuing terrorists.'' If there is any truth in this 
report, it is our job on this Committee and in this Congress to 
make sure that the situation changes without delay; because 
this is not about oiling the clattering wheels of the Federal 
bureaucracy, it is about protecting the American people, our 
country, and our core interests from those whose declared 
intention is to destroy them.
    We have seen what they can do. And if we had to draw just 
one lesson from the tragic 9/11 attacks, it would be that we 
did not have all of the information that we needed and that 
what we did have did not get where it was needed, when it was 
needed.
    Congress and the President acted immediately. Enactment of 
the Homeland Security Act of 2002 crushed the bureaucratic 
barriers that had, until then, been able to obstruct the flow 
of terrorist threat-related information from where it was 
obtained to wherever it was actually needed. It created a new 
Department of Homeland Security whose core responsibility is to 
consolidate, analyze, and act upon all of the information the 
U.S. Government has about terrorist-related threats, 
vulnerabilities, and risks.
    For the first time, our law treats all of the intelligence 
information that taxpayer dollars have purchased as assets of 
the whole Government, not of the host of individual agencies 
that may or may not talk to each other. That is critical 
because our prime objective is to detect, deter, and prevent 
terrorist attacks on our homeland, not to clean up after them.
    Our task now is to make sure that the vision of the 
Homeland Security Act quickly becomes reality. As we move 
forward, we must remember that the Department of Homeland 
Security is as much a part of the President's program as it is 
a statutory creature of our own. To ensure that the Department 
reaches its full potential as quickly as possible is part of 
the President's program. It is good and it is necessary, and we 
will continue to do our part. This hearing is one more step.
    Today, we want to hear that the Department of Homeland 
Security is fully and unequivocally committed to bringing its 
Directorate of Information Analysis and Infrastructure 
Protection to its full statutorily mandated capabilities. We 
need to know that the Department of Homeland Security is 
engaged in a systematic program to build up its analysts' 
cadre, and to give its analysts cutting-edge tools so that they 
can conduct the independent analysis the Homeland Security Act 
requires them to do.
    We want to be persuaded that TTIC is a force multiplier for 
its member agencies, helping them to meet their own 
responsibilities more effectively. We want to make sure TTIC 
isn't impeding the Department from reaching its objectives, 
that TTIC is not, for example, trying to hire the same analysts 
that the Department of Homeland Security needs, and that TTIC 
is not a filter through which some but not all terrorist 
threat-related information is allowed to reach the Department's 
analysts.
    We are also interested in knowing why it is more 
appropriate for the director of this new center to report to 
the Director of Central Intelligence rather than, say, to the 
Attorney General or the Secretary of Homeland Security. We need 
to be reassured that TTIC will not itself engage in any 
collection activities whatsoever, as that would be to engage 
our foreign intelligence agencies in domestic collection 
activities. That has been a sad chapter of our history that 
must remain closed.
    And we all want to rest assured that mixing all kinds of 
information and databases in an entity answerable only to the 
Director of Central Intelligence carries with it no risk to our 
civil liberties and to our privacy, because part of the point 
of fighting terrorism is not to surrender our way of life.
    I want once again to thank Chairman Sensenbrenner, Chairman 
Coble, my Ranking Member, and each of our witnesses for joining 
us this afternoon, and for their work in promoting the 
Department's success.
    I would like, finally, to remind Members how we will 
proceed today. First, Chairman Coble will take the gavel for 
half an hour. Then I will take the gavel for half an hour. 
Members will have 5 minutes each to question the witnesses. We 
will recognize Members in the order they arrived today, 
alternating between majority and minority. I regret that we do 
not have time for every Member of both full Committees to make 
an opening statement or presumably even to ask questions, but 
the combined full Committee format requires that we save our 
time for questions. We hope Members will, nevertheless, submit 
statements to be included in the record of this hearing.
    With that, Chairman Coble, I yield back.
    Mr. Coble. I thank the gentleman. And we have a vote on. 
But at this time the chair recognizes the distinguished 
gentleman from Texas, Mr. Jim Turner, the Ranking Member of 
Homeland Security.
    Mr. Turner. Thank you, Mr. Chairman. Today's joint hearing 
of the Homeland Security and the Judiciary Committees considers 
one of the most important steps that we must take to protect 
our homeland; that is, gathering, understanding, and sharing 
information about terrorists intending to attack America.
    Following the September 11 attacks, we learned that the 
agencies of the Federal Government such as the FBI and the CIA 
had information about some of the hijackers in their files. 
Although we can never know for sure, it is possible that had 
the bits of information scattered throughout the agencies been 
brought together and properly analyzed, we might have had a 
chance to thwart the attacks.
    It is clear that in order to prevent another attack we must 
make full use of the information available to our Government on 
terrorist threats. It must be clear to everyone with a 
counterterrorism role, whether they serve at the Federal, State 
or local level, where to report terrorist threat information so 
that it can be analyzed in one center. If it is not clear, it 
will be too easy for a key piece of information to be lost and 
ignored again.
    It is also critical that we have full participation of 
State and local officials in the sharing of information. Even 
if the Federal Government does its job right, it will be of 
little use if information is not shared with local and State 
officials who serve their communities where terrorists could be 
active.
    Information sharing always must be a two-way street. State 
and local law enforcement are in a position to observe unusual 
activity and provide information that can prevent a potential 
attack. Information they provide should not fall into a Federal 
black hole; it must be shared, analyzed, and when appropriate, 
acted upon.
    In order for the information sharing to work, officials at 
the local, State and Federal level must have a clear 
understanding of their respective roles and responsibilities. 
At this very moment, terrorists could be plotting another 
attack. But who is in charge of making sure that critical 
information doesn't fall through the cracks? Right now there is 
more confusion than clarity. For example, the Homeland Security 
Act states that the Department of Homeland Security will 
access, analyze, and assess terrorist threats to the homeland. 
The White House fact sheet announcing the Terrorist Threat 
Integration Center states that the Center will perform the same 
functions.
    This same fact sheet states that the Center will maintain 
an up-to-date database of known and suspected terrorists. Yet a 
recent General Accounting Office report indicates that the 
Department of Homeland Security had taken the responsibility 
for maintaining a terrorist watch list. And to date, we 
continue to have a multitude of watch lists.
    Surely almost 2 years after September 11, 2001, we can come 
up with one consistent terrorist watch list. Senate hearings 
held on the Terrorist Threat Integration Center indicated that 
the Center, the FBI, and the Department of Homeland Security 
all had some responsibility for information sharing with State 
and local officials. We cannot afford to have this confusion 
about counterterrorism responsibilities within our Government.
    The statutory mandate given to the Department of Homeland 
Security by the Congress and the role and responsibilities 
granted to the Threat Integration Center by the President 
result in a system where there is unclear division of 
responsibility and, therefore, no clear basis for 
accountability.
    We want to know from the witnesses today who is in charge 
of notifying local law enforcement of a threat to their 
communities. We want to know who will be creating a unified 
terrorist watch list and distributing it to our embassies, our 
airport security officials, our Border Patrol and others. We 
want to know who is responsible for receiving information from 
local law enforcement and making sure that other agencies are 
provided access to it.
    We want answers to these questions, because if these 
functions fail and terrorists are successful again, we all will 
be accountable to the American people. Regardless of who is 
responsible for performing these functions, the job must get 
done. One thing we do know, the robust intelligence unit 
envisioned by the Homeland Security Act does not exist today.
    The Office of Information Analysis is not yet equipped and 
staffed to do the job. This is particularly concerning, because 
it is the only entity in the Government charged with analyzing 
threats and comparing them to our vulnerabilities. This is the 
function that the Department of Homeland Security was given by 
the Congress. That function is the same as the brain is to the 
human body. It is the nerve center. It is where the direction, 
the focus, the priorities on the war on terrorism must be 
determined. And if we do not have a clear plan on where the 
terrorist information should be reported and who is responsible 
for analyzing the information, we run a grave risk of missing a 
key piece of information that could prevent the next September 
11. This is simply not acceptable.
    I am very pleased that we have the high-ranking officials 
before us from the Terrorist Threat Integration Center, the 
FBI, and the Department of Homeland Security. And I hope today 
they will be able to shed some light upon these very troubling 
issues. Thank you, Mr. Chairman.
    Mr. Chabot. [Presiding.] Thank you. The gentleman's time 
has expired. There is a vote on the floor. So we will be in 
recess, and I encourage Members to come back promptly after 
this vote so we can continue. We are in recess.
    [recess.]
    Mr. Chabot. The Committee will come back to order.
    I now recognize the gentleman from Virginia, Mr. Scott, who 
will make an opening statement on behalf of the Ranking Member 
of the Judiciary Committee, Mr. Conyers. Mr. Scott is 
recognized.
    Mr. Scott. Thank you, Mr. Chairman. And I appreciate you 
holding the joint Committee hearing between the Committee on 
the Judiciary and the Select Committee on Homeland Security. 
Coordination between the various intelligence and law 
enforcement entities is the focal point of the hearing. So I am 
pleased that we are applying the principles in our joint 
oversight responsibility to this issue.
    There is no question that we must have more coordination 
between our intelligence entities, foreign and domestic, and 
between intelligence and law enforcement operations at the 
international, national, State and local level, as well as with 
our governmental and private-sector partners in our efforts to 
prevent and respond to terrorism.
    It was on September 11, 2001, that we just saw how vital 
ongoing collection and quick assessment and dissemination of 
intelligence can be.
    These incidents clearly showed that there were shortcomings 
in our intelligence systems. Through the enactment of the USA 
PATRIOT Act and establishment of the Homeland Security 
Department, we eliminated many of the traditional barriers to 
collection, collation, and dissemination of intelligence. The 
Terrorist Threat Integration Center, the TTIC, is designed to 
coordinate and strengthen our ability to efficiently and 
effectively analyze and disseminate intelligence data.
    While I am very much in support of what it is supposed to 
do, I am concerned about the implications on civil liberties, 
and I would also be interested in hearing comments from our 
witnesses on whether it would be better to house this new 
agency at the CIA, Department of Homeland Security, or the FBI.
    Moreover, I am concerned that the proposed placement at the 
CIA avoids the carefully crafted and vitally important civil 
liberties and privacy protection issues that are unique to our 
Nation. Those liberties are much more protected at the 
Department of Homeland Security and the FBI than they are at 
the CIA, and that is one of the reasons I have that concern.
    So, Mr. Chairman, I look forward to the testimony of our 
witnesses and working with you to ensure that our intelligence 
gathering, assessment, and dissemination systems perform in the 
most efficient and effective way in preventing and addressing 
terrorism as well as protecting our rights and freedoms.
    Thank you, Mr. Chairman.
    Mr. Chabot. Thank you very much.
    We will now introduce the distinguished panel that we have 
before us this afternoon. Our first witness today is Mr. John 
Brennan, Director of the Terrorist Threat Integration Center, 
or TTIC. He began his career as an intelligence officer in 1980 
with the Central Intelligence Agency's Directorate of 
Operations as a career trainee. Throughout his career, Mr. 
Brennan has held numerous intelligence posts, including as head 
of terrorism analysis in the DCI's Counterterrorist Center 
between 1990 and 1992. He has also served as the CIA's daily 
intelligence briefer at the White House in 1994 and 1995, and 
as DCI Tenet's chief of staff from 1999 to 2001. On March 26, 
2001, Mr. Brennan was appointed Deputy Executive Director of 
DCI and served in that capacity until he was named to be the 
first Director of TTIC on March 12, 2003. We welcome you here 
this afternoon, Mr. Brennan.
    Our next witness is Mr. Larry Mefford, Executive Assistant 
Director of Counterterrorism and Counterintelligence in the 
Federal Bureau of Investigation. Mr. Mefford was just appointed 
to this by Director Mueller on July 17, 2003. Mr. Mefford 
joined the FBI in 1979, after serving as a law enforcement 
officer in Reno, Nevada. He has 30 years experience managing 
counterterrorism, criminal and crisis management matters. At 
FBI headquarters he oversaw the establishment of the FBI's 
Cyber Division, assisted in the interagency weapons of mass 
destruction contingency planning efforts, and authored the 
FBI's plan to address a chemical or biological terrorist 
incident. We welcome you here this afternoon.
    Our third witness is William Parrish, who became the Acting 
Assistant Secretary for Information Analysis in the Information 
Analysis and Infrastructure Protection Directorate, IAIP on 
July 3rd. He is a retired U.S. Marine Corps colonel with more 
than 29 years of leadership experience and a proven record of 
achievement in antiterrorism training and operations planning. 
He served as senior advisor to the Secretary of Homeland 
Security for combatting terrorism and served as the senior 
Homeland Security representative to the Terrorist Threat 
Integration Center. In February of 2003, Assistant Secretary 
Parrish was reassigned from U.S. Customs to the Office of the 
Secretary for Homeland Security. While serving in U.S. Customs 
he established the first Office of Antiterrorism on October 23, 
2001. We welcome you here as well.
    And our final witness this afternoon is Jerry Berman, 
President of the Center for Democracy and Technology, or CDT. 
The CDT is a Washington, D.C.-based Internet public policy 
organization. Mr. Berman founded the organization in December 
1994 to address free speech, privacy, Internet governance, and 
architecture issues affecting democracy and civil liberties on 
the global Internet.
    Thank you all for testifying. We have written statements 
from each witness on this panel, which I ask unanimous consent 
to submit into the record in their entirety, and we would ask 
that each witness please limit their oral statement to 5 
minutes. We actually, as you know, have a lighting system here. 
The yellow light will indicate that you have 1 minute to go, 
and when the red light comes on, if you can wrap up fairly 
promptly there, we would appreciate it.
    And we will begin with you this afternoon, Mr. Brennan.

            STATEMENT OF JOHN O. BRENNAN, DIRECTOR, 
              TERRORIST THREAT INTEGRATION CENTER

    Mr. Brennan. Thank you, Mr. Chairman. It is a privilege to 
appear before this joint Committee today to talk about the 
Terrorist Threat Integration Center, TTIC. I would like to say 
a few words in my opening statement about the Terrorist Threat 
Integration Center, many of which have already been stated here 
by the distinguished Members.
    As was stated, the United States faces a very serious 
terrorist threat to its interests both at home and abroad. Al-
Qaeda and other terrorist organizations are trying to do 
serious damage to our people and to our facilities, whether it 
be overseas at the many embassies and installations we have, as 
well as at home. If we are going to counter this threat, the 
U.S. Government must use all available resources and 
capabilities, and use all available knowledge if we are to stop 
repeat attacks such as we saw on September 11, 2001.
    By statute, most notably the National Security Act of 1947, 
as amended, and the Homeland Security Act of 2002, there is a 
shared responsibility within the U.S. Government for dealing 
with the terrorist threat to U.S. Interests. In reality, no 
single department or agency has sufficient authority or 
capability to deal with the terrorist threat alone. It is this 
shared responsibility within the Government, as well as the 
need to combine capabilities and authorities in an integrated 
framework, that TTIC was established on 1 May of this year.
    TTIC is an innovative joint venture comprising at this time 
over 100 officers from partner agencies. Those partner agencies 
include the Central Intelligence Agency, the Federal Bureau of 
Investigation, the Department of Defense, the Department of 
Homeland Security, and the Department of State. The officers in 
TTIC have full access to the information systems and databases 
of their parent agencies. Their primary responsibility is to 
analyze all threat information available to the U.S. 
Government, to connect the dots if you will, and make their 
findings and analysis available to those outside of TTIC who 
are responsible for preventing and defending against terrorist 
attacks.
    As Director of TTIC, I report to the Director of Central 
Intelligence, but I believe as head of a joint venture that I 
am equally responsible to the Director of the FBI, to 
Secretaries Ridge, Rumsfeld, and Powell.
    The leadership team of TTIC is an ecumenical one, made up 
of senior officers from the partner agencies. TTIC is not a 
separate agency or department. TTIC is not a part of the CIA or 
any other Government department or agency. And TTIC is not 
engaged in any collection activity clandestine operations or 
law enforcement matters, and there is no intention for TTIC to 
become involved in such activities.
    TTIC has a special responsibility to understand how the 
threat of international terrorism endangers the homeland. Thus, 
TTIC officers are in constant contact with the partner 
agencies, sharing analysis and information to help ensure that 
critical pieces of the terrorism puzzle, including those 
uncovered abroad, are made available to the Department of 
Homeland Security and to the Federal Bureau of Investigation.
    The expeditious sharing of threat information, as called 
for in the Homeland Security Act, and which was reinforced by 
the memorandum of understanding signed by the Attorney General, 
Secretary Ridge, and Director Tenet earlier this year, requires 
major changes in how many Government departments and agencies 
do business. The TTIC partner agencies are working hard to 
fulfill these obligations, and a joint program office has been 
formed to ensure close collaboration on the work that must be 
done.
    But there are many challenges. The many challenges involve 
ensuring that information systems are compatible, that security 
protocols are well established, that sources and methods are 
well protected, that declassification processes are 
streamlined, and that privacy rights of U.S. persons are 
carefully safeguarded. It is especially important that we 
address these issues appropriately as we leverage the power of 
computer technology to deal with the overwhelming volume of 
data available to the U.S. Government and when we try to find 
the nuggets that will give us the ability to avoid devastating 
terrorist attacks.
    It is a privilege and a tremendous responsibility to lead 
the TTIC. With less than 11 weeks at the helm, I have already 
witnessed the force multiplier effect of having officers from 
different Government agencies and departments working together 
in an integrated environment, sharing information, insights and 
analysis, and doing their absolute best to ensure the safety of 
Americans everywhere. The American people rightly expect and 
deserve no less.
    I look forward to taking your questions.
    Chairman Cox. [Presiding.] Thank you.
    [The prepared statement of Mr. Brennan follows:]
                 Prepared Statement of John O. Brennan
    Good afternoon, Chairman Sensenbrenner, Chairman Cox, Ranking 
Member Conyers, Ranking Member Turner, and the Members of the Committee 
on the Judiciary and House Select Committee on Homeland Security.
    I appreciate the opportunity to join my colleagues from the 
Department of Homeland Security and the Federal Bureau of Investigation 
to discuss the mutually supporting relationship between the Terrorist 
Threat Integration Center (TTIC) and the Department of Justice/Federal 
Bureau of Investigation (DOJ/FBI) and Department of Homeland Security 
(DHS).
    As the members of the Judiciary and Homeland Security Committees 
well know, international terrorism poses a serious threat to U.S. 
interests, both at home and abroad. Al Qa'ida and other terrorist 
organizations continue to make plans to carry out attacks against U.S. 
citizens and facilities worldwide. While many of these plans have been 
disrupted since the tragic events of 11 September 2001, constant 
vigilance and proactive efforts on the part of many government 
departments and agencies are required to prevent the loss of additional 
U.S. lives in terrorist attacks. In recent years we have learned that 
terrorist threats that initially appear to be directed at overseas 
targets may actually be threats against our homeland, with the reverse 
being possible as well. We need to have all of our efforts--both 
overseas and domestic--working together in a seamless manner. DHS is a 
critical part of that seamless effort; TTIC is as well.
    A key ingredient of the U.S. Government's counterterrorism strategy 
is to ensure that the many government agencies and departments involved 
in the war on terrorism work closely together and share threat 
information and analysis that could be used to prevent terrorist 
attacks. The May 1, 2003 establishment of the Terrorist Threat 
Integration Center is supporting this objective.
    TTIC's mission is to enable full integration of terrorist threat-
related information and analysis. It is a multi-agency joint venture 
that integrates and analyzes terrorist-threat related information, 
collected domestically or abroad, and disseminates information and 
analysis to appropriate recipients. As of today, TTIC has a little over 
one hundred (100) officers drawn from partner agencies, and we 
anticipate a workforce of several hundred by this time next year. As 
established, TTIC has sufficient authority to accomplish this 
overarching mission. It is important to note that TTIC does not engage 
in any collection activities nor does it engage in operations of any 
kind. It is not part of the Central Intelligence Agency. Rather, it is 
a joint venture composed of partner organizations including the 
Departments of Justice/Federal Bureau of Investigation, Homeland 
Security, Defense and State, and the Central Intelligence Agency. As 
Director of TTIC, I report to the Director of Central Intelligence in 
his statutory capacity as head of the Intelligence Community. At the 
same time, as the head of this innovative joint venture of partner 
agencies, I believe I must be responsive to the Director of the FBI and 
to the Secretaries of Homeland Security, Defense, and State. TTIC's 
roles and responsibilities are spelled out in Director of Central 
intelligence Directive (DCID) 2/4, which was effective as of 1 May 
2003. I have provided a copy of this DCID to the Chairmen and Ranking 
Members of your committees.
    When TTIC opened for business, we were fortunate to have seven (7) 
DHS and eight (8) FBI representatives assigned. Over the next year, we 
expect to have approximately forty (40) DHS assignees and thirty (30) 
FBI assignees in TTIC. From the very first day at TTIC, these assignees 
were contributing to the development of terrorist threat-related 
analysis and finished products.
    Current DHS representatives assigned to TTIC include two from the 
Information Analysis and Infrastructure Protection (IA/IP) directorate; 
an analyst each from U.S. Secret Service, Transportation Security 
Administration, and Coast Guard; and two analysts from the Bureau of 
Immigration and Customs Enforcement. Of these DHS representatives, five 
(5) provide direct support to the development of terrorist threat-
related analytic products, while the other two serve as part of the 
TTIC senior leadership team. Bill Parrish has served as the TTIC 
Associate Director for Homeland Security and principal senior conduit 
back to the Department of Homeland Security; as you are aware, he has 
returned to the Information Analysis and Infrastructure Protection 
directorate of DHS and is currently serving as Acting Secretary for 
Information Analysis.
    Current FBI representation at TTIC includes the Principal Deputy 
Director, Jim Bernazzani, nine (9) analysts and two (2) agents. The 
inclusion of agents with extensive field experience in TTIC informs the 
analytic process and helps apply innovative approaches to ``connect the 
dots'' in a more comprehensive manner. FBI officers in TTIC maintain 
close contact with FBI Headquarters elements as well as with FBI field 
offices, as appropriate, on a variety of important international 
terrorism issues.
    In the context of TTIC, embedded DHS and FBI representatives, and 
analysts assigned from the other TTIC partner organizations, have 
exceptionally broad access to intelligence. Within TTIC, there is 
desktop access to all partner agency networks, which are accessible 
only by those who are appropriately cleared and have a need-to-know. 
This extensive access to threat-related intelligence has resulted in 
unprecedented sharing of information among analysts from a variety of 
federal departments and agencies. This type of information sharing is 
critical to the many federal, state, local, and law enforcement 
entities that are responsible for detecting, disrupting, deterring, and 
defending against terrorist attacks. Through regular interaction, TTIC, 
Intelligence Community, DHS, and FBI analysts work hand-in hand to 
understand and substantiate terrorist threat-related information.
    Just as analysts are partnering to address substantive issues, 
TTIC, DHS, and FBI senior leadership are also partnering on various 
initiatives. One such initiative is the establishment of a joint 
program office to implement a systematic approach to inter-agency 
information sharing. The task at hand is to ensure that all obligations 
are met, as detailed in the Homeland Security Act and in the Homeland 
Security Information Sharing Memorandum of Understanding (MOU), signed 
by Secretary Ridge, Attorney General Ashcroft, and the Director of 
Central Intelligence (DCI). On behalf of the DCI, TTIC is facilitating 
efforts within the Intelligence Community--in concert with law 
enforcement activities--to ensure that the Department of Homeland 
Security has access to all information and analytic products required 
to execute its mission. In this endeavor, we must move with alacrity to 
ensure that we are doing everything possible to support the national 
effort to protect our homeland, while balancing the absolute need to 
safeguard the Constitutional liberties of all Americans. These are 
difficult issues, and we are endeavoring to address them in a 
conscientious, yet forward-leaning manner.
    Progress has already been made. As an example, there are currently 
ninety (90) registered DHS users and three hundred sixty two (362) 
registered FBI users of a TTIC-sponsored classified website providing 
terrorism-related information. This website, which has over two 
thousand (2,000) users throughout the government is currently being 
updated to include expanded need-to-know access with rich content 
available at varying classification levels, from Top Secret to 
Sensitive-But-Unclassified. Further, it is being updated in a manner 
that will also enable users to search across disparate data sets in 
many different ways. The website will increasingly include products 
tailored for the needs of state and local officials, as well as private 
industry, such that the DHS and FBI--who are, by mandate, the 
designated conduits of information to state and local representatives, 
and private industry--can readily pass this information along. It is my 
belief that the combination of this increasingly robust website, full 
implementation of the MOU on information sharing, and the application 
of advanced analytic tools in a conscientious manner will allow TTIC, 
DHS, FBI, and the entire terrorism analytic community to stand a far 
better chance of successfully ``connecting the dots'' and taking the 
necessary preemptive actions to prevent future terrorist attacks.
    Another area where we are making progress toward enhanced 
information sharing and streamlined governmental processes is in regard 
to terrorist identities and watchlisting. As you are aware from the GAO 
study released this year, there is a critical need to establish 
uniformity and enhanced access to watchlist information. Through 
coordinated partnership with entities across the Federal government, we 
are converting various existing terrorist identities databases into a 
comprehensive, all-source repository of information.
    In closing, this good news story does not mean that we are without 
significant challenges ahead. But, together we are making progress. I 
would even venture to say that TTIC itself--as an innovative construct 
in the Federal government--is serving as a forcing function for 
progress in addressing long-standing challenges such as inter-agency 
information sharing. After only eleven weeks in existence, TTIC has 
been a lightening rod, attracting hard issues and running them to 
ground through the active collaboration of partner agencies. Together, 
we are defining issues and systematically addressing them with all 
deliberate speed to protect the nation, while dedicating significant 
attention to the protection of civil liberties. We need your help in 
these activities and in finding ways to reconcile the inherent tensions 
therein. We recognize the need for an expanded and ongoing dialogue 
with various interested committees on Capitol Hill. This will enable 
appropriate oversight as well as sufficient latitude for us to be 
effective in supporting the overall national effort to protect America. 
I look forward to our continued dialogue.

    Chairman Cox. Mr. Mefford.

   STATEMENT OF LARRY MEFFORD, EXECUTIVE ASSISTANT DIRECTOR, 
  COUNTERTERRORISM AND COUNTERINTELLIGENCE, FEDERAL BUREAU OF 
           INVESTIGATION, U.S. DEPARTMENT OF JUSTICE

    Mr. Mefford. Yes, thank you, Mr. Chairman. I appreciate the 
opportunity to testify about this very important topic today. 
It is also an honor to share this table with several of our 
partners in this very important initiative, the Terrorist 
Threat Integration System, known as TTIC.
    During a speech at FBI headquarters, President Bush 
emphasized that the FBI has no greater priority than preventing 
terrorist acts against America. I want to ensure that everybody 
clearly understands that in our view TTIC is crucially 
important to the success of our mission in the FBI and that it 
will take us to the next level in being able to prevent another 
terrorist attack on our Nation.
    TTIC's mission is to enable full integration of the 
terrorist threat-related information and analysis, and ensure 
that this threat product is disseminated expeditiously and 
appropriately. TTIC will have no new or independent authority 
to engage in the collection of intelligence. TTIC will assess, 
integrate, and analyze available threat information collected 
domestically and abroad to provide a comprehensive threat 
picture for the Nation.
    TTIC members will continue to be bound by all applicable 
privacy statutes, executive orders and other relevant legal 
authorities for protecting privacy and our constitutional 
liberties. Information technology and handling procedures are 
consistent with the protection of our constitutional liberties. 
The FBI views TTIC as an important resource, an all-source 
vehicle to provide integrated threat analysis to the FBI, the 
Department of Homeland Security, and other Federal intelligence 
and law enforcement agencies, which in turn can quickly share 
that information with State and local law enforcement, who are 
obviously the essential partners in the fight against 
terrorism.
    TTIC analytical products will be shared with FBI joint 
terrorism task forces located in every major metropolitan area 
of the Nation, which include our State and local counterparts. 
The FBI is committed to working with the Department of Homeland 
Security to push this vital information into the hands of those 
who need it most.
    By September of next year, the FBI hopes to complete the 
planned collocation of our counterterrorism operational 
elements into a facility that will also house TTIC. Collocation 
is important in our view to ensure that the cooperation which 
is so necessary for our success today not only continues, but 
grows in the years ahead between, the FBI, CIA, DHS and TTIC.
    The attacks of September 11 demonstrated that terrorism 
knows no boundaries, and neither should the agencies 
participating in TTIC who, when working together, greatly 
enhance the Government's ability to stop future acts and bring 
terrorists to justice.
    In closing, on behalf of the men and women of the FBI, I 
would like to thank each of you for the support that you have 
given us. You have provided us with many new and vital tools, 
and with TTIC I am confident that we carry out our mission to 
protect America.
    Again, I thank you for this opportunity to appear at this 
joint hearing and look forward to responding to your questions.
    Chairman Cox. Thank you very much.
    [The prepared statement of Mr. Mefford follows:]
                  Prepared Statement of Larry Mefford
    Good afternoon Chairman Sensenbrenner and Chairman Cox, I am 
honored to appear at what may be a very historic hearing. I cannot 
recall when a witness from the FBI has testified before a combined 
panel that encompasses over 80 distinguished Members of the House of 
Representatives.
    It is also an honor to share this table with several of our 
partners in this very important initiative--the Terrorist Threat 
Integration Center (TTIC). During a speech at FBI Headquarters, 
President Bush emphasized that the ``FBI has no greater priority than 
preventing terrorist acts against America.'' I want to ensure that 
everyone clearly understands that TTIC is crucially important to the 
success of our mission in the FBI, and it will take us to the next 
level in being able to prevent another terrorist attack on our nation.
    TTIC's mission is to enable full integration of the terrorist 
threat related information and analysis and ensure that this threat 
product is disseminated expeditiously and appropriately. TTIC will have 
no new or independent authority to engage in the collection of 
intelligence. TTIC will access, integrate and analyze available threat 
information, collected domestically and abroad, to provide a 
comprehensive threat picture. TTIC members will continue to
    be bound by all applicable privacy statutes, Executive Orders, and 
other relevant legal authorities for protecting privacy and our 
Constitutional liberties. Information technology and handling 
procedures are consistent with the protection of our Constitutional 
liberties.
    The FBI views TTIC as an important resource--an all-source vehicle 
to provide integrated threat analysis to the FBI, DHS, and other 
federal intelligence and law enforcement agencies, which in turn, can 
quickly share that analysis with state and local law enforcement who 
are essential partners in the fight against terrorism. TTIC analytical 
products will be shared with dozens of FBI Joint Terrorism Task Forces 
around the country which include our state and local counterparts. The 
FBI is committed to working with DHS to push this vital information 
into the hands of those who need it most.
    By September of next year, the FBI hopes to complete the planned 
co-location of our counterterrorism operational elements into a 
facility that will also house TTIC. Co-location is essential in 
ensuring that the cooperation, which is so necessary for our success, 
not only continues but grows in the years ahead between the FBI, CIA, 
DHS and TTIC. The attacks of September 11th demonstrated that terrorism 
knows no boundaries--neither should the agencies participating in 
TTIC--who when working together greatly enhance the government's 
ability to stop future acts and bring terrorists to justice.
    In closing, on behalf of the men and women of the FBI, I would like 
to thank each one of you for the tremendous support you have given us. 
You have provided us with many new and vital tools and with TTIC, I am 
confident that we can carry out our mission to protect America. I again 
thank you for this historic opportunity to appear at this joint hearing 
and I will be happy to respond to your questions.

    Chairman Cox. Mr. Parrish.

   STATEMENT OF BILL PARRISH, ACTING ASSISTANT SECRETARY FOR 
 INFORMATION ANALYSIS, DIRECTORATE OF INFORMATION ANALYSIS AND 
INFRASTRUCTURE PROTECTION, U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Parrish. Good afternoon, Chairman, and I appreciate the 
opportunity to appear before each of you and distinguished 
Members of the Committees. This is my first opportunity to 
appear before our Congress, and I look forward to the 
opportunity to convey what I think is an important message.
    Following changing my uniform and putting on a three-piece 
suit and standing up the Office of Antiterrorism for then the 
U.S. Customs organization, one of the things I quickly learned 
was that there is a very important aspect for agencies to 
understand each other's capabilities. During my tenure there in 
Customs, I saw and what I observed was that Government 
agencies--that once they clearly understood the capabilities of 
another agency and how they could use this information or 
intelligence, that the sharing process became much easier.
    For example, Customs inspectors at our borders having 
access to the watch lists of suspected terrorists allows for 
the collection of information that contributes to the threat 
analysis and assessment process of connecting the dots. I 
continue to emphasize this important aspect in knowing the 
capabilities of other agencies and understanding how they 
support the national effort in combatting terrorism.
    Within the Information and Infrastructure Protection 
Directorate, we have representation from multiple Federal 
agencies, both in the Information Analysis Directorate as well 
as our Homeland Security Operations Center. This exchange of 
information and recognition of the agencies' capabilities has 
significantly enhanced the information flow, both internally 
and externally, of the Department.
    As you know from the legislation which you passed, the 
Information Analysis and Infrastructure Protection Directorate 
is unique among U.S. Intelligence and law enforcement elements 
in the authority, the responsibility, and access to 
information.
    IAIP possesses robust, comprehensive and independent access 
to information relevant to homeland security collected both 
domestically and abroad. Our mission is to obtain the 
intelligence and provide the necessary analysis and assessment 
to ensure appropriate actions are taken to protect against 
terrorist attacks directed to the U.S. homeland.
    The 19 statutory functions listed in the Homeland Security 
Act of 2002 are being implemented, and progress is being made 
daily to further enhance our capabilities within each of those 
functions. The Secretary of Homeland Security has placed the 
highest priority on expeditiously completing the new home for 
IAIP, which, when completed, will give us more personnel and 
the appropriate electronic connectivity.
    I am pleased to report that just recently I walked through 
the new spaces of IA, and tremendous progress has been made. 
However, in the meantime, we have identified procedures to 
ensure we are meeting our tasks and accomplishing our mission. 
Procedures such as employing liaison personnel to other 
agencies, bringing in members of other agencies into IA. I have 
initiated a program, since assuming the position of Assistant 
Secretary for Information Analysis, to coordinate directly with 
analysts of the FBI, TTIC, and other members of the 
Intelligence Community.
    This exchange of personnel and direct access to other 
analysts will provided the face-to-face or voice-to-voice 
connectivity that will provide essential connectivity to ensure 
information is shared until all of our IT systems are in place. 
I am confident that these work-around measures are succeeding 
in ensuring a timely and efficient flow of information both 
into and out of the Department of Homeland Security.
    In preparation for today's hearing, I reflected back on my 
time in Bahrain, where I led 120 of America's finest, U.S. 
Marines from a special antiterrorism unit. We were sent to 
ensure the security posture of the U.S. facilities in Bahrain 
following the dastardly attack at Khobar Towers. As I stood on 
a rooftop at 2 in the morning, talking to a young lance 
corporal, one of my designated marksman, he looked at me and he 
said, ``Sir, how are we doing?'' I responded by saying, ``You 
are doing great, nothing has blown up so far.''
    There is a correlation here. And thanks to you, to your 
staffs, to our Federal agencies, to include the law enforcement 
agencies and the Intelligence Communities of our Government, 
the dedicated State and local authorities, the private sector, 
and the American people in general, we are doing well. But we 
must not become tired nor must we grow weary. The dedication 
and commitment must continue. And, above all, continuous 
prayers for the safety and security of this great Nation.
    Thank you. I look forward to your questions.
    Chairman Cox. Thank you.
    [The prepared statement of Mr. Parrish follows:]
                 Prepared Statement of William Parrish
    Good morning Chairman Cox, Chairman Sensenbrenner and distinguished 
Members of both Committees. I am delighted to appear before you today 
to discuss The Department of Homeland Security's role in the 
President's Terrorist Threat Integration Center.
    Currently, I am the Acting Assistant Secretary for Information 
Analysis in the Information Analysis and Infrastructure Protection 
Directorate (IAIP). Prior to assuming this position on July 3rd of this 
year I was the Senior DHS representative to the Terrorist Threat 
Integration Center (TTIC). In this capacity I served in a senior 
leadership position as the Associate Director for Homeland Security.
    IAIP is unique among U.S. intelligence and law enforcement elements 
in authority, responsibility, and access to information IAIP possesses 
robust, comprehensive, and independent access, to information relevant 
to homeland security, collected both domestically and abroad. Our 
mission is to obtain that intelligence and provide the necessary 
analysis to ensure the appropriate actions are taken to protect against 
terrorist attacks directed at the U.S. homeland. IA has the ability to 
conduct its own, independent threat analysis based on information and 
intelligence drawn from other agencies within DHS, the FBI, the CIA , 
other members of the Intelligence Community, plus state and local law 
enforcement and private sector entities. This enhances IA's ability to 
provide threat assessments to the Infrastructure Protection in support 
of the Department's mission to protect the homeland.
    IA has the specific authority and responsibility for providing 
Federally-collected and analyzed homeland security information to first 
responders and other state and local officials and, as appropriate, 
security managers and other key private sector contacts. As such, IA, 
in coordination with IP, is in the position to effectively manage the 
collection from state and local governments, and private sector 
officials, of crucial homeland security-related information that may 
be, in the first instance, available only to those officials. DHS will 
continue to work closely with other government agencies to make certain 
that those who are on the front lines have the necessary information 
and resources to protect the homeland.
    IA is a central information nerve center of DHS' efforts to protect 
our homeland. IA is responsible for turning the voluminous threat 
information collected every day at our borders, ports, and airports, 
into usable and, in many cases, actionable intelligence. IA provides 
the full-range of intelligence support--briefings, analytic products, 
including tailored analysis responding to specific inquiries, and other 
support--to the Secretary, DHS leadership, the Undersecretary for IAIP, 
and DHS' components.
    IAIP will ensure that homeland security-related intelligence 
information is shared with others who need it as well as support of the 
Secretary's responsibility to administer the Homeland Security Advisory 
System by independently analyzing information supporting decisions to 
raise or lower the national threat level.
    As IAIP's anti-terrorism mission is focused entirely on the 
homeland, some of DHS' work in this area will be carried out in part by 
IA analysts who are full participants in the Terrorist Threat 
Integration Center initiative, and physically located at TTIC.
    Certain IA officers will be located at TTIC, working day-in-day-
out, participating in processing and analyzing terrorist threat-related 
information, developing, shaping, and disseminating TTIC products, 
assessing gaps in the available information, and ensuring that TTIC 
products reach appropriate DHS Headquarters officials, as well as 
appropriate state, local, and private sector officials.
    IA analysts assigned to TTIC will ensure that information gathered 
by DHS (from its own collectors as well as state and local governments 
and the private sector) reaches TTIC and informs its work and, equally 
important, that TTIC's work directly supports DHS's unique mission to 
protect the homeland.
    As provided by Congress and the President, authorities and 
capabilities to deter and disrupt terrorist threats, particularly 
overseas, are shared among a number of departments and agencies and 
such activities often must be undertaken in concert with state, local, 
and foreign governments. Recent experience has shown that terrorist 
groups may attempt to coordinate multiple attacks, both overseas and 
within the United States, and that threats that appear to be directed 
overseas may actually be directed towards the homeland, and vice versa. 
This is an essential element of the utility of the TTIC and the 
partnership of DHS in looking at the correlation of overseas terrorist 
activities and how they could be tied to activities in the homeland. IA 
is a key member of the TTIC team and plays an important role in 
identifying critical pieces of intelligence that must be shared with 
appropriate DHS agencies as well as state, local and private sector 
entities.
    DHS/IP will rely upon the analysis produced by IA, to help 
determine threat vulnerabilities that will assist in establishing 
priorities for protective and support measures of federal, state, and 
local government agencies and authorities, as well as private sector 
entities. In support of its mission, DHS components will identify 
intelligence requirements to IA. IA will submit them to the 
Intelligence Community, law enforcement, and parts of DHS. This process 
will identify vulnerabilities and threats which will allow for 
appropriate protective actions to be taken.
    In addition to the critical role of mapping infrastructure 
vulnerabilities against threats to the homeland, IA also will conduct 
other analysis distinct from that in which IA analysts participate at 
TTIC.

        <bullet> LTailored Analysis. IA Headquarters-based analysts 
        will routinely be tasked to take a different ``cut'' at a 
        similar universe of information as that analyzed at TTIC. For 
        example, TTIC may reach a conclusion about a general terrorist 
        threat to the United States, while DHS Headquarters may want a 
        more targeted and specific analysis directed at how such a 
        threat might affect a particular sector of the U.S. 
        infrastructure. Such threat analysis would be different than 
        that performed at TTIC, but crucial to the overall DHS mission 
        and to our homeland security. Similar tailored analytic 
        products are systematically used by the leaders of other 
        Intelligence Community member Departments and Agencies based on 
        each agency's individual mission.

        <bullet> LCompetitive Analysis. IAIP analysts located at 
        Headquarters will also conduct competitive terrorism threat 
        analysis to that taking place at TTIC. For example, the 
        Secretary may want an independent look at a particular 
        conclusion reached by analysts--including IA analysts--at TTIC. 
        Such competitive analysis not only is sound practice, but it 
        has been for decades a cornerstone of U.S. Intelligence 
        Community analytic efforts.

        <bullet> LRed-Teaming. IA's tailored and, at times, competitive 
        terrorism threat analysis, will take another form as well: 
        ``red teaming.'' IA's analysts will not only look independently 
        at threat data from a traditional analytical perspective, i.e., 
        ``connecting the dots,'' but will also undertake ``red team'' 
        analysis. In this mode, analysts will view the United States 
        from the perspective of the terrorists, seeking to discern and 
        predict the methods, means and targets of the terrorists. The 
        analysis produced as part of this red teaming will then be 
        utilized to uncover weaknesses, and to set priorities for long-
        term protective action and target hardening.

    Everyone is a partner in this new effort and we must work closely 
to be successful. By working together, we can detect and prevent 
potential terrorist attacks and identify protective measures that will 
enhance the security of our homeland.
    Mr. Chairman, and Members of the Committees, this concludes my 
prepared statement. I would be happy to answer any questions you may 
have at this time.

    Chairman Cox. Mr. Berman.

STATEMENT OF JERRY BERMAN, PRESIDENT, CENTER FOR DEMOCRACY AND 
                           TECHNOLOGY

    Mr. Berman. Thank you, Mr. Chairman, for this opportunity, 
and Members, for this opportunity to testify here today. I have 
spent a lifetime in civil liberties advocacy work, working a 
lot on national security issues, including helping to draft the 
Foreign Intelligence Surveillance Act, FBI guidelines, and on 
the PATRIOT Act with Members of the Judiciary Committee and 
other Members of Congress.
    I am here today to express our concern about what is 
transpiring in the organization of TTIC and its relationship to 
the Department of Homeland Security as it affects our civil 
liberties. As you know, the first response to the grave threat 
of terrorism, which we all recognize, was that Congress gave 
our intelligence agencies and law enforcement agencies broad 
new powers under the PATRIOT Act to collect more information, 
to disseminate it widely, and to share criminal law 
enforcement, grand jury and other information. We know what the 
list is--and the business records, medical records, databases--
with mere relevance to an investigation standard.
    After stepping back from that, and Congress passing that, 
it got to the Department of Homeland Security Act, and I think 
took another look, and said the real issue here was not the 
lack of collection authority, but the need for better analysis, 
better integration of information between our agencies. It was 
clear that information they already had hadn't been shared, so 
they coordinated it. It was coordinated under the Department of 
Homeland Security Act.
    And that act did two things. It said that the functions 
which I now hear are being performed by TTIC--and, according to 
Mr. Brennan, are not under any agency--were supposed to be 
performed by the Department of Homeland Security; that they 
were going to do the integration, they were going to do the 
analysis, they were going to look at the raw data, and they 
were going to disseminate it not simply among the agencies, but 
down to the people on the front line at State and local levels.
    As citizens of the United States, we want that to work. We 
want that to work to break down the bureaucratic barriers and 
make sure that good intelligence gets to our front line.
    But at the same time, Congress said we want to make sure 
that our civil liberties are protected, not just because it is 
our national value but because those civil liberties are part 
of the national security mission. Unless the investigations are 
focused on criminal activity and not wandering and fishing 
expeditions, unless information is reliable, unless information 
is accurate, unless information is collected relevantly and not 
on a ``Total Information Awareness'' kind of way, we are not 
doing our national security job and we are threatening our 
civil liberties.
    So we welcome the creation of an oversight system within 
the Department of Homeland Security, a privacy office, a civil 
liberties office, and we hope that they would get ahold of the 
guidelines being recommended by the FBI for data mining 
American files; that they would be able to deal with who is on 
a watch list and who might be stopped at an airport and suffer 
the consequence of not being able to travel; who would be 
investigated, and how they would audit all of these 
investigations conducted by TSA, FBI, and make sure that CIA is 
not investigating in the United States.
    That is the job that has been given to DHS. My belief is 
that the organizational creation of TTIC has taken that 
authority outside of DHS. So that while you have an agency that 
is doing integration analysis but not the way Congress 
intended, and the oversight system is not applicable; they can 
claim that they are protecting all privacy laws, but there was 
an officer and an office set up to do that. That is not being 
in place. There is no serious staffing of that function, just 
as there was no serious staffing, until recently, of the 
intelligence analysis function. And that, we are on two ticking 
time bombs. One is that we may not be getting the best 
intelligence analysis that this country needs and integration 
done on our homeland. And we may find that our agencies may be 
collecting the wrong information, making false positives, and 
leading us down a track where, in the next incident which 
causes a crisis or a panic, we sweep up the wrong people, for 
the wrong reasons, and cause a civil liberties disaster.
    You cannot simply talk about the potential of a terrorist 
disaster without saying that our experience of Watergate was 
that secret intelligence without guidelines, without oversight, 
without careful scrutiny, without auditing, may start with the 
best intentions; but a Government of discretion is not what we 
are, we are a Government of laws. And it is up to this 
Committee to make it right and bring it back within DHS.
    Thank you very much.
    Chairman Cox. Thank you, Mr. Berman.
    [The prepared statement of Mr. Berman follows:]
                   Prepared Statement of Jerry Berman
    Chairman Sensenbrenner, Chairman Cox, Ranking Member Conyers, 
Ranking Member Turner, Members of the Committees, thank you for the 
opportunity to testify today at this important hearing. We commend you 
for beginning public oversight of the Terrorist Threat Integration 
Center (TTIC), its role in the nation's counter-terrorism efforts, its 
relationship with the Departments of Justice and Homeland Security, and 
its implications for civil liberties. The Center for Democracy and 
Technology \1\ believes that it was a serious mistake for the President 
to place the TTIC under the Director of Central Intelligence, because 
it appears to have been cut loose from the oversight mechanisms that 
Congress specifically created for the intelligence fusion and analysis 
function that Congress placed at the Department of Homeland Security. 
Regardless of where TTIC is organizationally located, there are major 
unanswered questions about the collection, dissemination and 
consequences of intelligence information that the Executive Branch and 
these Committees need to address. We urge you, therefore, to continue 
this oversight process, and we look forward to being of assistance to 
you however we can.
---------------------------------------------------------------------------
    \1\ The Center for Democracy and Technology is a non-profit, public 
interest organization dedicated to promoting civil liberties and 
democratic values for the new digital communications media. Our core 
goals include enhancing privacy protections and preserving the open 
architecture of the Internet. Among other activities, CDT coordinates 
the Digital Privacy and Security Working Group (DPSWG), a forum for 
computer, communications, and public interest organizations, companies 
and associations interested in information privacy and security issues.
---------------------------------------------------------------------------
                            i. introduction
    The threat terrorism poses to our nation is imminent and grave. The 
government must develop a strong organizational structure capable of 
preventing terrorism to the greatest extent possible and swiftly 
punishing it when it occurs. Information sharing and analysis are 
central to success. It is now clear that, before 9/11, the government 
was unable to use effectively the information that it was collecting. 
Moreover, it is clear that privacy laws and constitutional principles 
were not the main barriers to collection, sharing or analysis. Even 
before the changes put into place by the PATRIOT Act, the government 
had very broad authority to infiltrate organizations, collect 
information from public and private sources, and carry out wiretaps and 
other forms of electronic surveillance. Overseas, of course, there were 
few, if any, rules. Since 9/11, the power of the government to collect 
information domestically has been further expanded. Legal barriers 
against sharing law enforcement information with intelligence agencies 
have been eliminated. But information sharing and sound analysis cannot 
be legislatively mandated. With the TTIC, the President has created a 
structure that he believes will be better able to conduct analysis and 
promote information sharing. The first important question the 
Committees are asking today is whether this new structure will in fact 
produce better sharing and analysis.
    At the same time, the Committees are appropriately asking what will 
be the effect of this new organization on civil liberties. The 
government's powers, even in this time of crisis, must be subject to 
checks and balances. Within the United States, surveillance and data 
gathering should be exercised with a focus on potential violence, 
guided by the particularized suspicion principle of the Fourth 
Amendment, and subject to executive, legislative and judicial controls. 
Yet checks and balances were seriously eroded by the USA PATRIOT Act 
and Executive Branch actions. When Congress created the Department of 
Homeland Security in 2002, it attempted to partially address these 
concerns by creating internal oversight mechanisms in the new 
Department. If the TTIC is not brought back under the DHS, Congress 
should respond by establishing standards for sharing of information and 
its consequences and should establish internal oversight mechanisms for 
TTIC. Finally, these Committees should continue practicing ongoing, 
nonpartisan, and in-depth oversight.
                  ii. where is the oversight of ttic?
    When Congress passed the PATRIOT Act, it specifically directed the 
Inspector General of the Department of Justice to designate an official 
who would review information and receive complaints alleging abuses of 
civil rights and civil liberties by employees and officials of the 
Department of justice. The DOJ is required to make public announcements 
on how to contact this official. And the official is required to submit 
to the Judiciary Committees a semi-annual report detailing the 
complaints and findings. PATRIOT Act, Pub. L. No. 107-56, sec. 1001. 
Last week, such a report was presented to the Judiciary Committee.
    Where is the similar function for the TTIC?
    When Congress created the Homeland Security Department and gave it 
responsibility for threat integration and analysis, Congress recognized 
that the new Department's powers required close internal and external 
oversight. Congress created within the Homeland Security Department two 
oversight offices--one for privacy (Sec. 222) and one for civil rights 
and civil liberties (Sec. 705). Homeland Security may be the only 
department in government that has such statutorily mandated offices. 
The Privacy Officer is specifically directed by legislation to take 
primary responsibility for issues such as:

        (1) Lassuring that the use of technologies sustain, and do not 
        erode, privacy protections relating to the use, collection, and 
        disclosure of personal information;

        (2) Lassuring that personal information contained in Privacy 
        Act systems of records is handled in full compliance with fair 
        information practices as set out in the Privacy Act of 1974;

        (3) Levaluating legislative and regulatory proposals involving 
        collection, use, and disclosure of personal information by the 
        Federal Government;

        (4) Lconducting a privacy impact assessment of proposed rules 
        of the Department or that of the Department on the privacy of 
        personal information, including the type of personal 
        information collected and the number of people affected; and

        (5) Lpreparing a report to Congress on an annual basis on 
        activities of the Department that affect privacy, including 
        complaints of privacy violations, implementation of the Privacy 
        Act of 1974, internal controls, and other matters.

The DHS Civil Rights and Civil Liberties Officer also has an express 
statutory charge to:

        (1) Lreview and assess information alleging abuses of civil 
        rights, civil liberties, and racial and ethnic profiling by 
        employees and officials of the Department; and

        (2) Lmake public through the Internet, radio, television, or 
        newspaper advertisements information on the responsibilities 
        and functions of, and how to contact, [his office].

    Where are the comparable officers for the TTIC?
    Other questions could be asked: Who has control over the budget for 
TTIC? When the FBI's Counterterrorism Division is transferred to TTIC, 
will the Judiciary Committee still have authorization authority over 
the Counterterrorism Division?
    Who is the FOIA officer for the TTIC? Judicial and Executive Branch 
interpretations have weakened the Freedom of Information Act as a 
mechanism for oversight and accountability, but it remains an important 
element of the system of checks and balances.
    What guidelines will govern the dissemination of intelligence from 
the TTIC to state and local officials? Will those guidelines be public?
    These are not concerns that are at odds with the mission of 
ensuring that intelligence collection, analysis, and dissemination are 
organized effectively to support the war on terrorism. To the contrary, 
the answers to these questions will help determine whether TTIC is 
doing its job. Because the analysis function at DHS is subject to a 
specific statutory charter, while TTIC lacks one, and because DHS is 
subject to oversight mechanisms, while TTIC apparently has none, we 
recommend that TTIC be brought back within DHS.
iii. the need for a ttic charter and guidelines on information sharing 
                          and its consequences
    Regardless of where it resides, TTIC needs a charter--something 
more binding than the testimony you are receiving from government 
officials today--to delimit what it can and cannot do, including how it 
can acquire information, how that information can be used, and how 
individuals obtain redress. In order to appreciate why this is so 
important, let me describe briefly the domestic intelligence system as 
it exists today.
    Collection Standards: The FBI, the nation's domestic intelligence 
agency, has both intelligence and law enforcement surveillance powers. 
In international terrorism investigations, the FBI can exercise either 
or both sets of powers for maximum collection. Under both the criminal 
wiretap statute and the Foreign Intelligence Surveillance Act, courts 
rarely if ever deny requests for electronic surveillance. For access to 
stored records, the criminal grand jury is a powerful, wide-ranging 
tool, and Section 215 of the PATRIOT Act gives the FBI the authority to 
obtain a court order on a minimal showing to compel disclosure of any 
record in the name of international counter-terrorism.
    It has been said that TTIC will not be a collection agency. But it 
is also said that TTIC will be involved in tasking--that is, in telling 
other agencies what to collect. Increasingly, CIA agents are working 
closely with FBI agents. That is in some ways highly desirable and long 
overdue. But doesn't it mean that the CIA, especially with the TTIC and 
its tasking function operating under the Director of Central 
Intelligence, now has access to the very ``police, subpoena, or law 
enforcement powers or internal security functions'' that the National 
Security Act denied to the DCI?
    Dissemination: At the same time, the PATRIOT Act broke down the 
limits on sharing law enforcement information with intelligence 
agencies. (There were never any statutory limits on sharing 
intelligence information with law enforcement agencies.) And sharing of 
information with state and local officials has become a major topic of 
discussion.
    Consequences: What is most significant about this sea-change is 
that information collected domestically can now be shared and used 
outside of the confines of the criminal justice system. In the past, 
information collected with grand jury powers or Title III powers had to 
be kept confidential and could be used against a person only when they 
were accorded the full panoply of due process rights in the criminal 
justice system. Intelligence information supported the foreign policy 
process or was used in spy-versus-spy operations, but after the reforms 
of the Church Committee era was not supposed to be used in ways that 
affected the rights of Americans outside the criminal justice system. 
Now that information can be used domestically for other barely defined 
counter-terrorism and protective purposes. We need to put clearer 
definition on how that information can be used and what the 
consequences can be, starting with TTIC.
iv. the need for close congressional scrutiny of the effectiveness and 
privacy implications of data mining and establishment of guidelines for 
                   any application of the technology
    One important avenue of oversight for these Committees is whether, 
and if so how, the TTIC intends to use the technique known as data 
mining, which purports to be able to find evidence of possible 
terrorist preparations by scanning billions of everyday transactions, 
potentially including a vast array of information about Americans' 
personal lives such as medical information, travel records and credit 
card and financial data. We know that other agencies are pursuing this 
technology, which seems to assume government access to personal 
information about everyone from any source. The Pentagon's Defense 
Advanced Research Projects Agency is carrying out research on its Total 
(now Terrorism) Information Awareness program. The FBI's Trilogy 
project includes plans for data mining. According to an undated FBI 
presentation obtained under the FOIA by the Electronic Privacy 
Information Center, the FBI's use of ``public source'' information 
(including proprietary commercial databases) has grown 9,600% since 
1992.\2\ And the Homeland Security Act provided DHS with explicit 
authorization to develop data mining technologies.
---------------------------------------------------------------------------
    \2\ http://www.epic.org/privacy/publicrecords/cpfbippt.pdf.
---------------------------------------------------------------------------
    Two kinds of questions must be asked about data mining.

        <bullet> LFirst, is the technique likely to be effective?

        <bullet> LSecondly, assuming it can be shown to be effective, 
        what should be the rules governing it?

    Current laws place few constraints on the government's ability to 
access information for terrorism-related data mining. Under existing 
law, the government can ask for, purchase or easily demand access to 
most private sector data. Unaddressed are a host of questions:

        <bullet> LWho should approve the patterns that are the basis 
        for scans of private databases and under what standard?

        <bullet> LWhat should be the legal rules limiting disclosure to 
        the government of the identity of those whose data fits a 
        pattern?

        <bullet> LWhen the government draws conclusions based on 
        pattern analysis, how should those conclusions be interpreted?

        <bullet> LHow should they be disseminated and when can they be 
        acted upon?

    Adapting the Privacy Act of 1974 to government uses of commercial 
databases is one way to look at setting guidelines for data mining. But 
some of the principles reflected in the Privacy Act are simply 
inapplicable and others need to have greater emphasis. For example, 
perhaps one of the most important elements of guidelines for data 
mining--one that is not part of the Privacy Act--would be rules on the 
interpretation and dissemination of hits and on how information 
generated by computerized scans can be used. Can it be used to conduct 
a more intensive search of someone seeking to board an airplane, to 
keep a person off an airplane, to deny a person access to a government 
building, to deny a person a job? What due process rights should be 
afforded when adverse actions are taken against individuals based on 
some pattern identified by a computer program? Can ongoing audits and 
evaluation mechanisms assess the effectiveness of particular 
applications of the technology and prevent abuse?
    All of these questions must be answered before TTIC (and DHS) move 
forward with implementation of data mining techniques on commercial 
databases. Congress should limit the implementation of data mining 
until effectiveness has been shown and guidelines on collection, use, 
disclosure and retention have been adopted following appropriate 
consultation and comment.
                             v. conclusion
    We need limits on government surveillance and guidelines for the 
use of information not merely to protect individual rights but to focus 
government activity on those planning violence. The criminal standard 
and the principle of particularized suspicion keep the government from 
being diverted into investigations guided by politics, religion or 
ethnicity. A set of guidelines needs to be issued for the unique 
intelligence tasking, fusion, analysis and dissemination function now 
contemplated for TTIC. We believe that those guidelines can best be 
developed and implemented within the structure of the DHS, with the 
statutory charter and oversight mechanisms that Congress established.
    But first, Congress needs to know what is going on. It needs to see 
a public, binding charter for TTIC, to define its tasking or collection 
authorities and protect against mission creep. Congress could start by 
inquiring into TTIC's use, if any, of commercial databases. And the 
question of consequences and redress looms large.

    Chairman Cox. Obviously, there is a vote on the floor. Mr. 
Chabot, immediately upon the ringing of the bells, went to the 
floor; I believe the vote is on a motion to rise, a procedure 
vote; and he is going to come back, so we are going to be able 
to keep this hearing in open session while Members go to the 
floor. And I encourage Members to do that at their discretion 
and leisure.
    The Chairman recognizes himself for 5 minutes of questions.
    If I may, Mr. Brennan, I want to begin with a fundamental 
question about how TTIC and Homeland Security, as between those 
two, are going to work to see to it that nothing that goes on 
in TTIC is redundant of what is supposed to or is already going 
on in the Department of Homeland Security, specifically, with 
respect to threat analysis. And let me just begin with that, 
and I will follow up with more detail. But I would like to have 
you address that broadbrush, if you would, to begin with.
    Mr. Brennan. Okay, Mr. Chairman.
    TTIC and DHS officers have met repeatedly over the past 
several weeks since, in fact, TTIC's stand-up to discuss the 
relationship and the complementary nature of the TTIC mission 
and the mission of IAIP Director within the Department of 
Homeland Security. We see that they are very complementary. 
TTIC analysts are looking at information that is available 
overseas and domestically here, sharing that information with 
DHS analysts, both within TTIC as well as back at DHS 
headquarters, and IA, and we are making sure that there is this 
robust exchange.
    As you well know, a lot of information that becomes 
available to the intelligence community is still of a rather 
generic nature as far as the type of threats that face the 
United States. So what we see is that we are to be working very 
closely with IA directorate to ensure that that information is 
shared with IA, and that IA can actually look at it at a much 
more fine level.
    And working with State and local governments, they are 
going to try to make this rather generic threat information, 
sometimes that is available, much more specific so that IP then 
can take action on it. So we do see a natural hand-off between 
TTIC analysts and IA analysts.
    Chairman Cox. Mr. Parrish, do you want to address that?
    Mr. Parrish. Yes, sir. I think it is important to 
understand first of all the nature of the enemy that we are up 
against, very decentralized. The intelligence that we get 
sometimes is very general, as Mr. Brennan just indicated. One 
of the things that IA is looking at is our customer base, and 
that is, the private sector as well as State and local 
authorities.
    If I could, just a quick example of how this may work. Let 
us say that TTIC receives an intelligence report of SIGINT 
indicating a potential attack to Chicago. Very general. It is 
just a threat to Chicago. But yet it is deemed credible based 
on the source. IA will then begin to look at this threat and 
analyze it working within the Infrastructure Protection 
directorate so that they will assess potential target sites 
within the Chicago area, identifying critical chemical 
facilities, chemical facilities that may be located near the 
lake that has an offshore breeze, located in large population 
centers around Chicago. They may look and see that there is an 
NBA championship being played, and there are five major 
conventions being held downtown.
    This is the assessment which IAIP does with this 
intelligence collected from TTIC. This then allows us to serve 
our customer base, to go back to the Mayor of Chicago, to the 
Governor of Illinois, and to say there is a credible threat to 
Chicago, it is general in nature. Our assessment, though, 
places the following areas of considerable risk or high-valued 
targets to this, and we would encourage them to take a look at 
the security posture of those facilities.
    Chairman Cox. Mr. Parrish, your description suggests that 
at the time that information comes to TTIC--you gave us a 
specific hypothetical example--that it is either shortly 
thereafter or in real-time simultaneously being shared with the 
Department of Homeland Security. Is that what actually happens?
    Mr. Parrish. That is, in fact, the case. As my bio 
referenced in the beginning, on May 1, I was the Associate 
Director for Homeland Security at TTIC. In that capacity, I had 
access to all of those systems we are referring to that are 
available within TTIC. I had very timely information that then 
would be called back to IA that says we have a piece of 
intelligence we are working right now, and I would convey to 
them the actions that they should begin to take. So, yes, sir, 
it was very real time.
    Chairman Cox. And is it something that doesn't require 
judgment? Is it automatic?
    Mr. Parrish. It is automatic. I think it is important to 
understand that within TTIC, we have Department of Homeland 
Security analysts that are looking at the operational 
environment of which the Department of Homeland Security is 
responsible for. So they are looking at it with a set of eyes 
that may be different from a CIA analyst or for an FBI analyst. 
They are looking at it from the standpoint of border 
protection, the maritime picture of the Coast Guard, critical 
infrastructure to bridges and tunnels, information that must be 
conveyed back to the private sector quickly.
    Chairman Cox. Help me understand what is meant in the 
Memorandum of Understanding among the Secretary of Homeland 
Security, the Attorney General, and the DCI concerning this 
point, how information passes to TTIC or to the Department of 
Homeland Security. Section 3(f) of the MOU provides that, 
``When fully operational, TTIC shall be the preferred, though 
not the exclusive, method for sharing terrorist threat 
information at the national level.'' That implies rather 
strongly that sometimes information is going to go first to 
TTIC and only subsequently, if at all, to Homeland Security. 
Does that never happen? What does that portion of the MOU mean 
if it is automatic? It doesn't require any judgment, and all 
this information in real-time simultaneously is being provided 
both to TTIC and DHS?
    Mr. Brennan. If I could address that, sir?
    Chairman Cox. Sure.
    Mr. Brennan. There are different types of threat 
information. Any threat information that is collected by the 
intelligence community, by the Bureau is immediately 
disseminated and is made available to the Department of 
Homeland Security. I think what Bill was referencing here is 
that by connecting the dots there are different data points.
    Chairman Cox. But just help me understand the MOU. When the 
MOU says that TTIC is the preferred method for sharing 
information, what does that mean?
    Mr. Brennan. I think it says may be the preferred. I am not 
certain on that.
    Chairman Cox. No. I believe, I am quoting directly, and the 
words within the quotation are, ``shall be.'' That is what the 
MOU says in section 3(f).
    Mr. Brennan. I don't know the context of those words in 
that statement.
    Chairman Cox. But you are familiar with the MOU that 
establishes the procedures for running TTIC that are directing 
it?
    Mr. Brennan. Yes, I am. The MOU addresses border issues in 
TTIC. It addresses the issue of information sharing across the 
Government. And, as I said, there is a program office now----
    Chairman Cox. But this particular sentence directly 
addresses TTIC. It says: TTIC shall be the preferred, though 
not the exclusive, method for sharing terrorist threat-related 
information at the national level.
    Mr. Parrish, do you care to comment on that while Mr. 
Brennan is thinking about that?
    Mr. Parrish. I can speak for how the system is working and 
how it has worked for me when I was----
    Chairman Cox. And that is what we are concerned with. We 
want to know what is actually happening.
    Mr. Parrish. And as I was sitting in TTIC, working there, 
again, working back to IA. If there was a piece of information 
or intelligence that came in, that I would look to see, in 
fact, to ensure DHS was on the list to receive that 
information, I would highlight that back to the IA staff to be 
sure to pull that table up. If they didn't have that table, I 
would ensure that they got that information.
    Chairman Cox. But now that sounds like a system that 
requires human intervention, that there is judgment and 
discretion involved.
    Mr. Parrish. I think, in the nature that we are operating 
against, there is some requirement for that. But, again, what I 
am looking for is to make sure that the originating agency 
provided that information to DHS. If it was not, be it an 
oversight or if it was sensitive information based on sources 
and methods, I would ensure then to go back to the originator 
to say there are pieces here that must be shared with the 
Department of Homeland Security.
    And I will tell you that in all cases when that occurred, I 
was never denied access to any of that information.
    Chairman Cox. Well, my concern is that on the one hand we 
have a paradigm in which the information sharing is automatic, 
and it is in real-time, and there is nothing going to TTIC that 
isn't also going to the Department of Homeland Security. And, 
in the alternative, we have people in TTIC coordinating with 
the Department of Homeland Security. And if information might 
be of particular interest to the Department of Homeland 
Security, then it gets forwarded to them. That is obviously 
something that takes place subsequently in time. And because of 
the discretion, judgment, and nonautomatic nature of it, it 
screams out, willingly or not, wittingly or not, information 
that certainly, by statute, we would expect that DHS would get 
as a matter of routine.
    Mr. Brennan. But a lot of information, sir, is not apparent 
to be related to the terrorist threat. A lot of disparate 
pieces----
    Chairman Cox. Then why is it coming to TTIC in the first 
place?
    Mr. Brennan. Because the offices in TTIC have full and 
unfettered access to their home information systems and 
databases. And it is not just limited to threat information, it 
is a more broader set. And a lot of information that is 
available to the U.S. Government is not, obviously, terrorist-
threat-related. But by comparing data, you create new 
knowledge. You put one bit of data together with something 
else, and you say there is a match here. And that is what we, 
in fact, are trying to do in TTIC, to make that knowledge 
available to other Government agencies such as Department of 
Homeland Security. But if there is a piece of threat 
information that is issued by a department or agency, it goes 
immediately, directly to DHS; it doesn't have to go through 
TTIC at all.
    Chairman Cox. Well, as you can infer from this discussion--
Mr. Berman has been wagging his head. I should let him comment 
before I finish.
    Mr. Berman. I just am reading the statute, where Congress, 
I think, asked that this function be housed at DHS. In fact, 
the DHS would even be able to set priorities--I don't want to 
establish myself as a national security expert. But in meeting 
with national security experts who have talked about this 
integration function, the coordination function, there has 
been, as part of the Markle Task Force on National Security, 
which has already issued a report, very vital importance that 
DHS have this function because it is not only that they should 
be looking and making judgments about what are the threat 
vulnerabilities; they should be looking at the raw data and 
making their own analysis. And this sounds like they are 
getting a finished product which they can then act on or not 
act on, but that they do not have analytic capability. And 
that, I think, is not what Congress intended. Congress intended 
the functions of TTIC that you are talking about would have 
been done by DHS, on a plain reading of the statute.
    Chairman Cox. Thank you for that comment. Let me infer from 
the discussion that we have just had that it is probably 
impossible either for Congress to write a statute or for the 
executive branch to write an MOU that reduces all of this to an 
algorithm. There is going to be judgment and discretion 
involved no matter at what level we make the cut. The statutory 
concept is that raw, unanalyzed information is going to come 
directly to the Department of Homeland Security. And what I 
understand is going on right now is possibly consistent with 
that. That is to say, DHS may be getting in real-time all of 
the raw, unanalyzed information, but the judgment that is 
necessarily involved in it is whether that is terrorist-threat-
related, or otherwise related to the statutory mission of DHS. 
And the act of making that cut almost certainly is going to 
involve some analysis of the raw data.
    And so we may have a metaphysical problem that we cannot 
escape, but the hope is that we are making this cut at a pretty 
high level so that TTIC does not act as a screen in any way.
    I have additional questions, and I think the other Members 
certainly do. I need to yield because my time has expired to 
the gentleman from Texas, Mr. Turner.
    Mr. Turner. Thank you, Mr. Chairman.
    Chairman Cox. And if you would yield further, Mr. Turner. I 
also would yield the gavel at this point to Mr. Chabot.
    Mr. Turner. This question I would like to address to each 
of our three Government witnesses. As all of you know, the 
declassified version of the report of the House and Senate 
Intelligence Committees on September 11 is expected to be made 
public in the next few days. While we don't have the full 
report, the Committees released their unclassified findings and 
recommendations in December of last year. Their investigation 
revealed that, prior to September 11, there were bits of 
information scattered throughout the Federal Government about a 
number of hijackers. Because the Committees found that these 
pieces of information were not brought together, they 
recommended that the Department of Homeland Security develop an 
all-source terrorism information fusion center.
    In light of the creation of TTIC and as a follow-up on the 
questions that Chairman Cox asked, my question for you is 
really very simple: As of today, who is, in the Federal 
Government, responsible for making sure that all the terrorism 
information in the Government's possession is brought together, 
analyzed, and shared appropriately? Is it the Secretary of 
Homeland Security? Is it the Director of the Terrorist Threat 
Integration Center? Or is it the Director of the Central 
Intelligence Agency? Or is it someone else?
    I would like for each of you, starting with Mr. Brennan, to 
answer that question for me.
    Mr. Brennan. Sir, I believe by statute it is a shared 
responsibility. Again, pointing to the National Security Act of 
1947 and the Homeland Security Act of 2002, and a series of 
executive orders and other statutes, there is a shared 
responsibility within the Government. There is no secretary of 
terrorism. And so, therefore, that responsibility is shared 
among those different agencies and departments. And TTIC is 
those agencies and departments. We are not something separate 
from them. And that is why this--the purpose of TTIC was to 
bring together those authorities and responsibilities within 
this joint venture.
    Mr. Turner. Well, if it is shared, who ultimately has the 
responsibility? Who is ultimately accountable to the Congress 
to get this job done?
    Mr. Brennan. Sir, I would, again, point to statute to say 
that there is a shared responsibility by law for tracking 
transnational threats to U.S. interests, both at home and 
abroad, among senior Government officials, to include the 
Director of Central Intelligence, the Director of the FBI, and 
the Secretaries of Homeland Security, State, and Defense.
    Mr. Turner. So you are telling me that it is not the 
statutory responsibility of the Department of Homeland 
Security, as I read the Homeland Security Act?
    Mr. Brennan. No, sir. I am not saying that at all. I am 
saying, it is the statutory responsibility of the Secretary of 
the Homeland Security. But it also is the statutory 
responsibility of the Director of Central Intelligence and the 
statutory responsibilities of other Government officials.
    Mr. Turner. Maybe I should go to Mr. Parrish. Is that the 
way you understand it, Mr. Parrish?
    Mr. Parrish. Yes, sir. I think clearly the Secretary of the 
Homeland Security has the responsibility, based on the 
information that is brought to the Department, based on the 
information that is acquired by the Department, to assess that 
information of statutory responsibility. But at the same time, 
it is a shared responsibility, as Mr. Brennan indicated, with 
the Director of Central Intelligence, with other Federal 
agencies.
    As I indicated before, the nature of the threat does not 
isolate itself to one single area. It cuts across the entire 
Federal Government with roles and responsibilities.
    Mr. Turner. And Mr. Mefford, do you concur with those 
answers, or do you think the FBI has a similar responsibility?
    Mr. Mefford. We concur with the shared aspect. The FBI is 
included in that. Clearly, in the world of intelligence, 
particularly when we talk about the terrorist threat, there is 
a very complex set of types of information that we may develop. 
The FBI, obviously domestically, being the primary operational 
arm of the Federal Government to combat terrorism in the U.S., 
the FBI has responsibility to deal with our information to 
ensure that it is passed rapidly and shared broadly, just as we 
look to the DCI and Mr. Brennan, in charge of TTIC, to have a 
similar responsibility and also with DHS.
    So we agree that there is a shared responsibility based on 
our statutory and policy issues.
    Mr. Turner. We all know that sharing information is 
important, and it is only the first step in protecting our 
homeland. This information that is shared and collected also 
has to be shared back with local and State officials. The 
Homeland Security Act gives the responsibility for 
disseminating such information to the Department; yet, in a 
hearing earlier this year, Mr. Mefford, your predecessor 
testified that the Terrorist Threat Integration Center will 
provide integrated analysis to the FBI, as well as to State and 
to local officials, and that the FBI's Joint Terrorism Task 
Forces will have a role in sharing information.
    I would like to ask each of you, who is responsible for 
making sure that terrorism information is disseminated to State 
and local governments? And I might also add, who is responsible 
for disseminating information to the private sector as 
appropriate? Is it the Department of Homeland Security? The 
Terrorist Threat Integration Center? Or is it the FBI?
    Mr. Chabot. [Presiding.] The gentleman's time has expired, 
but you can answer the question.
    Mr. Brennan. The Terrorist Threat Integration Center has a 
responsibility to provide information analysis to other Federal 
departments and agencies. What the TTIC has to do is to 
anticipate what the needs are of the ultimate consumers, which 
frequently are the first responders, at the State, local, and 
law enforcement levels.
    So TTIC provides analysis information to the FBI and to the 
Department of Homeland Security, because they are the duly 
recognized mechanisms and agencies to share the information 
beyond the Federal family. And I would leave it to the FBI and 
DHS to explain that. But we are packaging information up so 
that they can then readily access it and make it available as 
appropriate.
    Mr. Mefford. Sir, the FBI again views our role in the war 
on terrorism as the primary operational arm of the Federal 
Government inside the United States to combat terrorism. So in 
reacting to threats, the foundations of our system are the 66 
Joint Terrorism Task Forces that are located throughout the 
country in every major metropolitan area. We assume a primary 
responsibility to ensure that threat, terrorism-threat 
information, is shared quickly and broadly with State and local 
law enforcement. We look to the Department of Homeland Security 
to provide that mission with local and State officials and with 
the private sector. But, again, we have--and perhaps later we 
will have an opportunity to explain this in more detail.
    We have established a very aggressive integration of 
resources both here in Washington, D.C. at our headquarters 
level, and throughout the field across the United States with 
Homeland Security to ensure that that occurs appropriately and 
efficiently.
    Mr. Parrish. Sir, if I might add. On the morning following 
the most recent attacks in Riyhad at the Jadawel compound, the 
Cordoval compound, and the Al-Hamra compounds, as I read that 
traffic sitting at TTIC, I realized that there were tactics and 
techniques that had not been conveyed to the private sectors, 
State and locals. When I reached back to Information Analysis 
and told them to begin preparing a Homeland Security advisory 
bulletin and that I would be working the terror line to get 
this information declassified so that we could get this out to 
the private sector to identify potential tactics and techniques 
used by al Qaeda in these attacks, I am here to tell you, at 
the end of the day, by six o'clock that evening, we had out on 
the street to the private sector, the State and local, a 
document that I have before me here of roughly seven pages that 
captured the tactics and techniques employed, and recommended 
protective measures that a chemical facility may consider in 
placing, or any other facilities for that regard.
    So the process is working. The information is being 
collected by Department of Homeland Security. It is being 
assessed in IA, and then against the Infrastructure Protection 
Directorate in getting that information out to the critical 
infrastructure facilities across the United States.
    Mr. Chabot. The gentleman's time has expired.
    The Chair recognizes himself for 5 minutes for the purpose 
of asking questions.
    Mr. Brennan, there are many agencies involved in the 
collection of intelligence and an increase in the number of 
places and people analyzing intelligence. How does the local 
police officer patrolling, say, near a bridge or a nuclear 
power plant receive information about potential threats, either 
general or specific? And does information automatically flow, 
or do the local law enforcement officers have to seek out the 
information on their own?
    Mr. Brennan. If threat information is received from 
national sources about a particular and very specific threat to 
a bridge or a building, whatever, that local law enforcement 
needs, we, in TTIC and the intelligence agency that actually 
collected and disseminated the information, would make that 
available immediately to the FBI, which has, as Mr. Mefford 
mentioned, the responsibility for then interacting with the 
local law enforcement.
    But we would do whatever we could to ensure and facilitate 
the sharing, not only the information, but the context and 
analytic context that that information needs to be understood 
in.
    Mr. Chabot. Thank you very much.
    Let me add another question, Mr. Brennan. What role do 
Joint Terrorism Task Forces (JTTFs) play in the collection or 
dissemination of intelligence information? And are they 
conduits for TTIC's analytical products?
    Mr. Brennan. Since the JTTFs are part of the FBI, I would 
defer to Mr. Mefford to explain exactly how that process works.
    Mr. Chabot. Thank you.
    Mr. Mefford?
    Mr. Mefford. Yes, sir. The JTTFs play a critical role. 
Simply put, they are the foundation and the starting point of 
all of our operational activity nationwide. Because they 
comprise almost 3,000 investigators today, from State and local 
law enforcement agencies, the FBI, and other Federal agencies, 
including about 330 DHS personnel assigned to these task forces 
around the country, they integrate and relate to local law 
enforcement on a daily basis, on a continual basis.
    We recognize that we have had some failings in that regard, 
and we are moving very rapidly to improve to provide additional 
useful and enhanced information to State and local agencies. We 
have a variety of initiatives under way today as we speak to 
improve our efforts to do that.
    Mr. Chabot. Thank you very much.
    Mr. Parrish, does the creation of TTIC in any way detract 
from or interfere with the mission of the Department of 
Homeland Security or the Department of Justice? And wasn't the 
new department created to do just what TTIC will apparently be 
doing?
    Mr. Parrish. Sir, TTIC certainly does not negate our 
responsibilities as a partnership. As I said before, it is 
complementary, it is not competitive. One of the things that we 
are doing here is a recent initiative which began--in fact, I 
had a large meeting on Friday. There has been some great 
successes by the FBI, by the CIA, and by the Department of 
Defense over the past 12 months in capturing key al Qaeda 
leadership.
    When we talk about threats, it is Homeland Security's, 
CIA's responsibility to really analyze those threats. Our 
initiative now is to assess the capabilities of these threats. 
As you mentioned, the police officer that is looking at 
security of a bridge. I want to go in now and find out exactly 
how capable are the terrorists in order to effect an attack on 
a bridge. What were their skill sets? What were their training 
capabilities? How are they going to acquire the resources 
necessary to take down a bridge?
    This is the information that we have to then develop, 
analyze, and assess, and then work with Infrastructure 
Protection to be able to convey this to our customer base, the 
private sector, the State and local. We want to be able to help 
them spend their limited resources. So if we can assess a 
threat that says that we assess their capability as minimal, 
they then might be able to expend only monies toward 
surveillance systems, rather than, next time we go to orange, 
hiring a security force of adding another 150 security guards.
    This is where our focus is. This is complementary of how 
TTIC is providing that information with DHS analysts, with FBI 
analysts, and the other IC analysts there. This information 
then is really being assessed there at IAIP in partnership with 
our Infrastructure Protection Directorate to serve our 
customers.
    Mr. Chabot. Thank you. And I note that my time is about 
ready to expire. So rather than ask another question, I will 
now yield to the gentleman from Virginia, Mr. Scott, for the 
purpose of asking questions.
    Mr. Scott. Thank you. We have been talking about the 
statutory scheme whereby everybody has their responsibilities. 
Mr. Brennan, it is my understanding that your agency was not 
created by statute. Is that right? Is it by executive order?
    Mr. Brennan. I do not have an agency, Congressman. It is a 
joint venture. It was created by the Administration and reports 
directly to the DCI, but I am not a separate agency or 
organization.
    Mr. Scott. Okay. The Gilmore Commission recommended an 
agency that sounds like what you do. There would be appointed, 
the head would be appointed by the President with advice and 
consent of the Senate. You are not subject to confirmation; is 
that right?
    Mr. Brennan. That is correct, sir.
    Mr. Scott. Now, Mr. Parrish, you indicated a lot of 
coordination that is going on now, coordination, dissemination, 
evaluation. Are you in fact duplicating what Mr. Brennan is 
supposed to be doing, or is he duplicating what you are 
supposed to be doing?
    Mr. Parrish. No, sir. Our activities are coordinated. It is 
complementary. I think we have to ensure in the nature of the 
threat the nature of the enemy and how he operates. We cannot 
afford to have any gaps or seams. There is going to be overlap, 
and there has to be overlap. We must ensure that it is a 
seamless operation in analyzing the intelligence to ensure 
another 9/11 attack never occurs.
    Mr. Scott. Mr. Brennan, you indicated that you are not 
gathering information. When you get all this information before 
you, are you making recommendations as to what more information 
might be needed by various agencies?
    Mr. Brennan. As part of our responsibility to be as 
knowledgeable as possible about the terrorist threat, one of 
our other responsibilities is to identify the gaps in our 
knowledge, and to make those gaps known to those authorized 
collection agencies.
    Mr. Scott. And when you talk about terrorist attacks, are 
you talking about domestic attacks like the Oklahoma bombing 
case?
    Mr. Brennan. What we are talking about, right now, are 
transnational terrorist activities, whether they be manifest on 
U.S. soil or overseas.
    Mr. Scott. Let me ask it again. Are you talking about 
domestic terrorism like the Oklahoma bombing case that, to the 
best of the knowledge that I have seen, didn't have any 
international implications?
    Mr. Brennan. At this point, since TTIC is 11 weeks old, we 
are looking only at the transnational issues. And the Bureau 
has the responsibility for analyzing and assessing the threat 
from homegrown terrorist organizations, militias, other types 
of white supremacist groups, whatever.
    Mr. Scott. The Bureau, you mean the FBI?
    Mr. Brennan. The FBI. Correct.
    Mr. Scott. You will have information from--you might 
discover information about domestic terrorism. How would you 
know the difference if people--you overhear people talking 
about bombing? You would not--how do you focus on local 
threats? I mean, do you first, before you go further, try to 
figure out whether there is an international connection? Or do 
you find somebody that is storing dynamite, getting ready to 
bomb something?
    Mr. Brennan. I will let Mr. Mefford address it, but from my 
perspective, until something is actually determined to be 
solely a domestic event, we keep our minds open as far as the 
potential international nexus there. But just from a threat 
perspective, any threat information, whether it is here in the 
United States or overseas, if there is any potential for 
international connections, we will work very closely with the 
Bureau and others on it.
    Mr. Scott. So if you have got an Oklahoma bombing 
assessment, you wouldn't worry about whether it was 
internationally connected or not?
    Well, Mr. Berman, you want to comment?
    Mr. Berman. Yes. It is a serious issue here, because we are 
not going to know what the nexus is in many cases. And there is 
always a potential for a foreign nexus. So in dealing with 
Homeland Security, I think Congress thought it carefully 
through, and wanted to put this under the Department of 
Homeland Security, namely, the Secretary of Homeland Security. 
Mr. Brennan was appointed by Mr. Tenet, not by the Congress. 
And that means that the CIA, in our view, and I think at least 
arguably and from a policy point of view, is on the cusp of 
being involved in, at some point, police, subpoena and law 
enforcement functions which are not supposed to be under the 
National Security Act.
    Mr. Scott. My time is just about to run out, and I wanted 
to ask one other question. And that is, just mechanically, Mr. 
Brennan, you are getting information from everywhere? I would 
assume it is tens of thousands of little bits of information. 
Mechanically, who is analyzing, doing the analysis?
    Mr. Chabot. The gentleman's time has expired, but the 
gentleman can answer the question.
    Mr. Brennan. We have the information systems and databases 
available in TTIC from the partner agencies. We apply 
analytical tools to that. We apply human analysts to that. It 
is being analyzed within TTIC with the assistance of the 
different partner agencies. So we do rely heavily on those 
analysts that reside within the intelligence community, within 
FBI and others.
    Mr. Scott. How many people are you talking about?
    Mr. Brennan. Right now, within TTIC, we have a little over 
100 officers. We are talking about growing to several hundred 
by next year this time.
    Mr. Chabot. The gentleman's time has expired.
    The gentlelady from California, Ms. Sanchez, is recognized. 
The senior gentlelady from California, the senior Sanchez is 
recognized for 5 minutes.
    Ms. Loretta Sanchez. Thank you, Mr. Chairman. You mean 
senior by seniority? Right?
    Gentlemen, thank you for being before us today. I guess we 
are just trying to understand who all is doing analysis, who is 
passing information where, and what you all are doing. So I 
have a question. Are all the Federal agencies providing the 
same information to TTIC and to the Department of Homeland 
Security? I mean, what kind of information is coming in to 
these two different areas that are analyzing things? FBI maybe? 
Are you----
    Mr. Mefford. The FBI is rapidly sharing all terrorism-
threat-related information with TTIC and all terrorism-related 
information with the Department of Homeland Security. Clearly, 
with TTIC, our focus is on international connections. And as 
you know, threat data can take a variety of forms and often is 
very complicated. But the FBI is the agency that is responsible 
for operationally responding to any threat information in the 
United States.
    And, again, as I indicated earlier, we do that through the 
Joint Terrorism Task Force network that has been established in 
the country and through our 56 field offices around the 
country.
    Ms. Sanchez. I understand that. So the FBI is getting it 
done through the JTTF, but is the Homeland Security Agency, 
through its analytical arm of intelligence, also sending 
information down to the local and State agencies? And what does 
TTIC do with the same information that you are feeding it and 
others are feeding it? I mean, are you all doing the same thing 
is, I guess, what we are asking. And I ask that because I am 
taking a look at the June 18, 2002 message to the Congress from 
the President when he talked about the need for a Homeland 
Security Agency. And in it he writes, you know, all these great 
reasons why we need a Department of Homeland Security. And, one 
of the things he says, he says we need one department that 
would analyze Homeland Security intelligence from multiple 
sources, synthesize it with a comprehensive assessment of 
America's vulnerabilities, and take action to secure our 
highest-risk facilities and systems.
    So I am wondering, are we just duplicating all over the 
place this effort? I mean, it seems to me that 9/11, one of the 
problems we had was that, first of all, people weren't talking 
to each other and, quite frankly, our intelligence community 
wasn't as good as we thought it was. And so now, we are 
creating all of these new pieces and new analytical arms, and 
to what end? I mean, what are we doing with it? What are you 
each doing that you could tell me is so different than the 
next? And why don't we have it just in one place like the 
President asked?
    Mr. Mefford. Well, in our view, when the FBI relays 
terrorism-threat data and we also relay it to DHS. In fact, as 
I indicated, they have a total, between their field personnel 
and their headquarters components, they have a total of about 
342 personnel assigned with the FBI to work shoulder-to-
shoulder every day. So they have access, Homeland Security 
personnel have access to our raw intel in the terrorism world.
    We also share that as fast as we can with IA of Homeland 
Security.
    In regards to TTIC, we view that as an interagency process 
that represents Homeland Security, CIA, FBI, DOD, Department of 
State, and other entities so that we can quickly share threat 
information, and that there is one point in time that somebody 
can look at all terrorism threat information. In our view, 
based on the nature of the threat that we face today in this 
country, which we assess to continue to be al Qaeda, which is 
foreign-based, in our view it is reasonable that the CIA have a 
significant part in this. But, however, it is a team effort, 
and it is an integrated effort----
    Mr. Parrish. If I could add.
    Ms. Sanchez. I am not arguing about the CIA. I am asking 
why we have--I mean, this looks like the intelligence 
community, you know, Jobs Forever Program that we have got 
going here. I am trying to understand, why not under one 
department? Why in so many different places? My understanding 
is TTIC doesn't even have a charter. I want to get back to the 
gentleman on the end about that one, but somebody was about to 
say something, and I will give you the opportunity.
    Mr. Parrish. If I could. It is important to understand that 
what we are dealing with is an integration of both operations 
and intelligence. If I could, the example will be a vessel that 
comes in to Long Beach, and we put on a maritime boarding crew 
of the Coast Guard of Customs Border Protection or Immigration 
Customs Enforcement, because there might have been some 
intelligence that indicated some of those crew members may have 
terrorist ties. That search team goes on board, and let us say 
they find some information relative to a terrorist nexus. This 
information is then transmitted to the Joint Terrorism Task 
Force in LA. This information was acquired by a subordinate 
agency of the Department of Homeland Security, in this case 
Customs or rather Coast Guard, let us say. It is then compared 
and shared with the Joint Terrorism Task Force to say we found 
some, perhaps, phone numbers. And this information is shared to 
say, is there any nexus here? It is all part of connecting the 
dots. So there is a close integration of the operational 
functions of law enforcement agencies and border security 
agencies, and integrating that into information that becomes 
intelligence that we can then take a look at between TTIC, 
Department of Homeland Security, and then make an assessment to 
see we have a threat.
    Ms. Sanchez. I understand the operational nature. And Mr. 
Chairman, I will end on this note. I understand the 
operational. But it seems to me like TTIC doesn't do 
operational, the Analysis Department of Intelligence for 
Homeland Security doesn't do operational. They are just getting 
information, they are getting it fed from different arenas. My 
whole question is, why are we duplicating our efforts? You 
know, if the President asks for one place--it was one of the 
reasons he asked for this Homeland Security agency, that we set 
it up, was that we have one place, where we get all the 
information in one place, and we get it fed in.
    I am trying to understand why, you know, why we kept the 
CIA out in some other place and the FBI out of Homeland 
Security agency; then we created the Security Agency, now we 
have created--somebody created TTIC. I am sure that Congress 
didn't create TTIC. I am just trying to understand why so many 
places for intelligence gathering. Can't one of you do it 
right?
    Mr. Brennan. If I could respond to that. We are trying to 
do it right. The overwhelming majority of information about the 
terrorist threat to U.S. interests comes from abroad. The 
threat emanates from overseas. It is international terrorism 
that has found its way to our shores. The Homeland Security Act 
which set up the Department of Homeland Security has given the 
Secretary of Homeland Security the responsibility for the 
United States proper, U.S. soil. It frequently requires tedious 
work sifting through mounds and mounds of information and data 
that is collected overseas that has no obvious nexus or 
connection to a threat in the United States that is required in 
order to surface that threat to the United States. And, 
therefore, if you want to give just one entity that full 
responsibility for being all knowledgeable and being able to 
analyze all the information, when most of it comes from 
overseas, I think you are putting more responsibility, in fact, 
than the statute has provided to the Department of Homeland 
Security. But also more fundamentally, you are giving a very 
complicated issue and problem to a single department when 
really it requires the joint efforts of many different agencies 
and departments throughout this U.S. Government.
    Ms. Sanchez. Except that you have created this joint issue 
that wasn't created by us, wasn't thought of by us. And, by the 
way, it is not just that one I am looking at. We were at 
NORTHCOM, Mr. Chairman, the other day, and they have got their 
own analysis and intelligence gathering going on. So my biggest 
concern is just who is doing what, why are you all doing what 
seems to me to be the same thing? And, you know, one of the 
problems we have was lack of coordination of information going 
to one spot when 9/11 happened, and that is a concern----
    Mr. Parrish. If I may respond?
    Chairman Cox. [Presiding.] The gentlelady's time has 
expired, but the gentleman may surely address the comment.
    Mr. Parrish. We do have the representation within the 
Department of Homeland Security in our operations center, which 
is 24/7; we have over 15 Federal agencies, to include soon a 
member of NORTHCOM coming to our staff. We will have the 
integration of the information intelligence that is coming out 
there, and Department of Homeland Security Information Analysis 
Directorate will abide by the mission that we have been tasked 
by you all in the Homeland Security Act of 2002. And I am 
confident that we are doing it today. Can we do better? Yes, we 
can do better, and we will do better as we continue to increase 
our numbers, as we increase the IT connectivity. But right now, 
the information is coming in, it is being analyzed, and we are 
ensuring, to the best of our ability, that there are no gaps.
    Chairman Cox. The gentleman from Florida, Mr. Diaz-Balart.
    Mr. Diaz-Balart. Thank you, Mr. Chairman.
    I would like to address a threat to our national security 
that has often been underplayed,and I don't believe I am the 
only one in believing so. So let me ask these questions 
primarily to Mr. Mefford, but, of course, if Mr. Brennan or Mr. 
Parrish have any additional comments, then I would certainly 
welcome them.
    In 1999, it was reported that the Peoples Republic of China 
is using Cuba as a base for sophisticated spying operations 
targeting the United States. In 2001, Vice Admiral Wilson, the 
Director of Defense Intelligence, told the congressional 
hearing that Cuba has the potential, and I quote, ``to use 
information warfare or computer network attack,'' ``to disrupt 
our access,'' he continued to say, ``or flow of forces to the 
region.''
    Last year, Under Secretary of State Bolton stated, and I 
quote: ``Cuba's threat to our security has often been 
underplayed.'' And he went on to say: ``Here is what we know. 
Cuba has at least a limited-offensive biological warfare 
research and development effort. Cuba has provided dual-use 
biotechnology to other rogue states. We are concerned that such 
technology could support bioweapons programs in those states.''
    The State Department has continued to maintain that the 
Cuban regime continues to host terrorists and U.S. fugitives, 
it has permitted numerous Basque ETA terrorists to reside in 
Cuba, and that it continues to provide safe haven and support 
to the Colombian Revolutionary Armed Forces, FARC, and the ELN 
of Colombia, another terrorist group.
    Less than a week ago, various press sources reported, and I 
quote: ``The Cuban government has been jamming U.S. broadcasts 
into Iran since the Voice of America began beaming new Farsi 
language programming into that country.''
    In addition to the events that I have mentioned, in the 
last few years more than a dozen Cuban spies have been 
arrested, including Ana Belen Montes, a senior DIA analyst. So 
I have, I guess, a general question and then a more specific 
one.
    The general question would be, what is being done to 
counter these types of espionage efforts by the Cubans? For 
example, are there other known Cuban spy networks operating in 
the U.S., and are we efficiently countering them?
    And, my more specific question would be, with regard to Ana 
Belen Montes, that high-level spy who was arrested, when will 
the damage assessment be completed, and when will we know the 
extent to which she compromised U.S. security? Mr. Mefford?
    Mr. Mefford. Yes, sir. In reference to your general 
question, we appreciate the potential threat posed by that 
country. In the terrorism world, because it is a foreign 
country, this is one reason why, in our view, it seems 
reasonable that an agency such as TTIC, closely aligned with 
the FBI and CIA and DHS focus on terrorist activities.
    Chairman Cox. Excuse me. The gentleman didn't mean to say 
TTIC as an agency. Did you?
    Mr. Mefford. No. Coordinated by TTIC. I am sorry.
    So in the example of terrorist activities, in our view, 
this is a significant reason why TTIC, as a coordinating 
entity, combined CIA, FBI, and Homeland Security where there is 
value added.
    In regards to the espionage threat posed potentially by 
Cuban government officials, I would ask that perhaps we could 
brief you in private based on the sensitivities of this 
information. I am not at liberty in an open hearing to delve 
into this today.
    In regards to the damage assessment, I do not know the 
date, but we can get back to you on that.
    Mr. Diaz-Balart. I would appreciate that, because we were 
informed that it was, when we spoke with your agency--and I 
would say I have great admiration for--that it was not 
completed, but it spent a significant amount of time. And a 
significant amount of time has passed. And it is important to 
know not only when it would be completed, to what extent that 
spy compromised U.S. security, for example, and did she pass on 
any intelligence information about other areas besides Cuba? So 
if you would please get back to me on that. I understand 
sensitivity at an open hearing, but I would appreciate if you 
would get back to me within a reasonable amount of time.
    Mr. Mefford. We will.
    Mr. Diaz-Balart. Thank you, Mr. Chairman.
    Chairman Cox. The gentleman from Washington, Mr. Dicks.
    Mr. Dicks. Thank you, Mr. Chairman.
    I had the pleasure of serving for 8 years on the House 
Permanent Select Committee on Intelligence, 4 years as the 
Ranking Democratic Member. And I must tell you that I am 
concerned about what I have heard here today in that it sounds 
like we have got a lot of people doing the same thing, and I 
worry that, when everybody is responsible, nobody is 
responsible. And this concerns me very much.
    As I understand the DHS legislation, TTIC should be inside 
the Department of Homeland Security. And what has happened here 
is this creation has occurred, and I still am trying to figure 
out what are the IAIP people doing at Homeland Security that is 
different than what is happening at TTIC?
    Now, I understand that the TTIC people have access to raw 
intelligence where the IAIP people at Homeland Security do not. 
Well, doesn't that defeat what Congress wanted in the first 
place? Congress wanted DHS to have access to this raw security. 
And with all due respect to this great international specter 
here, the CIA has always been responsible for the international 
aspects of counterterrorism. It is the FBI that is responsible 
here in the United States and, in my judgment, who failed us 
before 9/11 having had information that should have been acted 
upon and didn't, wasn't acted upon.
    Now, the FBI still is in charge of collecting the 
counterterrorism information inside the United States. Is that 
not correct?
    Mr. Mefford. Yes, sir. That is correct.
    Mr. Dicks. Okay. And then they collect the information on 
counterterrorism inside the United States, and they translate 
that information, I guess, to TTIC in a raw form, and then TTIC 
gives it over to the IAIP people at--or does it go directly 
from FBI to TTIC and to IAIP? How does it work?
    Mr. Mefford. Simultaneously, sir, it goes to IAIP and it 
also goes to TTIC.
    Mr. Dicks. Why have these two separate agencies? I don't 
understand why we just didn't create one entity, as the statute 
said, inside the Department of Homeland Security and then give 
to Homeland Security people the responsibility for dealing with 
the counterterrorism--I mean, with the threat of terrorism 
inside the United States. That is what we are worried about. 
And I agree that there are a lot of international implications 
and foreign entities involved in all of that, but it is the 
threat in the United States that 9/11 was all about that we 
have got to be concerned about. And we want to make sure that 
DHS has the ability to act to thwart the terrorism.
    So can somebody explain to me why creating these two 
separate entities helps DHS in its role to thwart terrorism in 
the United States? Doesn't it just create confusion and a 
division that is unnecessary? Can somebody explain why we are 
doing this?
    Mr. Brennan. Yes. I will try to explain, again, sir.
    There are many different Government departments and 
agencies involved in the fight against terrorism, different 
departments, different agencies with different statutory 
authorities and different capabilities. In light of that, in 
the view of the Administration and in an effort to be as 
aggressive as possible against the terrorist threat, the TTIC 
was created as a joint command. Think of it in some respects 
like a military command. You have CENTCOM, where you have 
Marines and Air Force and Navy and Army fulfilling their 
missions in a joint command structure so that they can bring to 
bear the capabilities, authorities that they have. TTIC is 
similar to that. We are not trying to take away anything from 
the Department of Homeland Security. We are not trying to take 
away anything from those department agencies that have their 
responsibilities. We are trying to be a force multiplier. So, 
rather than creating stove pipes, and I don't like to use that 
term, but different departments and agencies need to find new 
ways to cooperate.
    Frequently, in a crisis we pull together a task force, a 
multi-agency task force because it makes a lot of sense, 
because you bring to bear those capabilities that reside 
throughout the U.S. Government in a determined and concerted 
fashion. TTIC is similar to that. It tries to bring together 
those capabilities.
    Mr. Dicks. Wouldn't you put TTIC inside the Department of 
Homeland Security? Why have it out here, this hybrid created 
without a document, without any Executive order, without any 
legislative background? It is a hybrid. Why wouldn't you just 
put it in the Department of Homeland Security where Congress 
said it should be in the first place? And then you wouldn't 
have these IAIP people doing much the same thing that these 
TTIC people are doing over here. You would have one entity that 
would be responsible for gathering the information from the 
CIA, the FBI, and whoever else provides the information. I 
don't get it. Why two separate entities? Can you explain that? 
You have made a nice case for TTIC, but why two separate 
entities?
    Mr. Brennan. Sir, if I can, the Department of Homeland 
Security is receiving this information in compliance with the 
Homeland Security Act of 2002. Again, our customer base is to 
serve the homeland, to serve State and local authorities.
    Mr. Dicks. Who is TTIC's base? Who are they serving?
    Mr. Parrish. TTIC is serving a wider variety, a wider 
customer base and taking a look at the international aspects of 
it, taking a look at the threats overseas to U.S. interests 
overseas; and I will let Mr. Brennan address that. What DHS is 
acquiring is taking a look at the intelligence that is coming 
in that poses threats to the homeland. Looking at our own 
subordinate agencies, a wealth of information is brought in 
from our border security agencies, transportation security, the 
Coast Guard, the Secret Service.
    This information is being analyzed within the Department of 
Homeland Security. Those, if you will, are our operating forces 
out in the field.
    This information is being looked at. It is compared with 
the FBI reports. It is compared with the State and local 
reports. It is even compared with a Wackenhut security guard 
guarding a chemical facility that has reported surveillance 
operations.
    All of this is an effort to connect the dots. This is what 
IAIP is doing in looking at applying these threats to the 
protection of the critical infrastructure. TTIC complements 
this process by having an integration of several intelligence 
community agencies all operating and looking to see if there is 
a correlation to potential overseas intelligence that may 
indicate possible indications and warnings and threats to the 
homeland.
    This is how we are trying to connect these dots. It is a 
very diverse enemy. It is a very decentralized enemy. Pieces of 
information sit throughout many agencies of the Government that 
needs to be brought in and analyzed.
    Mr. Dicks. Mr. Berman, have I missed this here or have I 
got it about right?
    Mr. Berman. I think you have got the statute right.
    Mr. Dicks. I am wondering then what is the analytical 
function and raw data function for DHS. It would seem that if 
you subtract the foreign connection, then it is a domestic 
security agency which raises a lot of issues for both the 
mission of DHS--if it is just looking at domestic decisions, 
how does it--why--if the threat is both international and 
national, I think Congress said we wanted it under one agency 
and one Secretary so that there would be accountability.
    It is more than duplication. It is, when the proverbial 
hits the fan, who is in charge both from a national security 
point of view and who do you call up here to explain that they 
have violated civil liberties or gone too far? That is why, 
right now, you would be hard pressed to know who was 
responsible for the next suicide attack or intelligence failure 
that hit our homeland.
    Chairman Cox. Mr. Shays.
    Mr. Dicks. Thank you very much.
    Chairman Cox. The gentleman from Connecticut, Mr. Shays.
    Mr. Shays. Thank you. I appreciate the questions from both 
sides of the aisle, and I want to share some of the same 
concerns that my colleague from Washington has.
    I was involved with a number of hearings with my own 
Committee on National Security and the Government Reform 
Committee and involved with establishing the Department of 
Homeland Security, so I have some familiarity with what we were 
trying to accomplish. I remember we had a big battle with 
trying to say to people that the Department of Homeland 
Security should be a plug in which a lot of intelligence 
information comes to and that they should have analytical 
ability. Unlike Ms. Sanchez, I am not troubled that there is 
operational; I don't want another operational.
    I want, though, to know, first off, does the Department of 
Homeland Security analysis area and the Secretary have the 
ability to task our intelligence community in operations?
    Mr. Parrish. Yes, sir. If I can, just to clarify when I say 
operations, information is being collected by our operational 
forces.
    Mr. Shays. With all due respect, I would like you to do 
that on someone else's time.
    Mr. Parrish. As far as the requirement, sir, we have just 
submitted 28 pages to the DCI----
    Mr. Shays. Right. So the bottom line is, the answer is, 
yes, you do have the ability to task. And if you are not 
satisfied with what you task them to do, who do you complain 
to? If they don't do what you want, who do you complain to?
    Mr. Parrish. You referring to--who is the who? Who is who?
    Mr. Shays. Mr. Berman, help me out here. Who do they--if 
they task someone for the intelligence community, who do they 
complain to if the intelligence community doesn't respond?
    Mr. Berman. I do not know.
    Mr. Shays. Okay. Well, let me go back to you, Mr. Parrish.
    Mr. Parrish. As I said, the DCI has a requirement to go out 
and submit and solicit intelligence requirements throughout the 
intelligence community. The Department of Homeland Security is 
now a member of the IC, of the intelligence community, as you 
know.
    Mr. Shays. Would you answer my question, though?
    Mr. Parrish. As I said, we just submitted 28 pages of 
intelligence requirements----
    Mr. Shays. I only have 5 minutes, Mr. Parrish. I want to 
know, who you complain to if you ask the intelligence community 
to do something and they don't do it? What is the answer to 
that question?
    Mr. Parrish. That will be back to the DCI to request an 
answer to the requirements.
    Mr. Shays. Okay. And do you believe that you have the 
authority to get whatever you need done in an operational 
setting?
    Mr. Parrish. Absolutely.
    Mr. Shays. Okay. That is what I just need to have 
established for the record.
    I am interested to know, it gets to this whole concept of 
accountability, because TTIC is something that--I think you 
gave a pretty good answer, obviously, in pointing out the 
answer in domestic and foreign needs on terrorism issues. But I 
am still trying to wrestle with who ultimately takes 
responsibility for TTIC--Homeland Security, the CIA or the FBI. 
When some bit of intelligence is not properly viewed or vetted 
for what it is and something bad happens as a result, who takes 
responsibility?
    I feel like there are too many folks involved here. Who 
takes responsibility?
    Mr. Brennan. It is that person or agency that did not do 
what it was supposed to do with that information in passing it 
along. So it would be very case-specific in terms of who was 
responsible for it.
    Mr. Shays. Mr. Berman, do you think that we would know who 
it is? Based under the present structure?
    Mr. Berman. I think, under the present structure, that you 
would have to have another commission and start to investigate. 
Because it is not clear whether DHS could say, we told the CIA 
and the FBI to do this, and they just didn't do it. And the CIA 
can say, well, that really wasn't our mission because it was 
foreign or it was domestic, and it should have been the FBI. 
And it is not clear on the bureaucratic chart where this lands.
    Mr. Shays. Mr. Parrish, I want you to have tremendous 
authority. One of things that was very disappointing to me, and 
I want to say for the record, it was a painful experience for 
Mr. Redmond when he came and testified, because he has been an 
outstanding participant in helping our country for well over 26 
years. But he told me afterwards that he was told not to have 
testimony, that his name was attached to someone else, but he 
also spoke the truth. He said 25 people involved with this 
pillar. He said no space in which to get classified 
information. It was deadly. It was the most depressing day I 
have had in a long time. I want to know what you are doing to 
correct that.
    Mr. Parrish. Sir, I am pleased to report to the Committee, 
I talked to Paul Redmond today, and you are right, he is a 
great American, and he is doing much better in his health.
    Mr. Shays. But besides his health.
    Mr. Parrish. But to say that he was completely honest, I am 
here to tell you that I am also completely honest, that right 
now we are moving very rapidly to move into the new facility, 
as I said earlier in my opening statement.
    I walked through that space a week before last. We have 
made great progress. We have 53 analysts----
    Mr. Shays. When will it be ready?
    Mr. Parrish.--on board right now. We look to move in about 
the 25th of September.
    Mr. Shays. And it will be able to get all classified 
information, and you will not be prevented, like Mr. Redmond 
said, of getting whatever information you need, no matter how 
classified?
    Mr. Parrish. As I said earlier in my remarks, we now have 
access in place with a representation of other agencies within 
IA that have reach-back to their parent agencies. We are seeing 
that information.
    Mr. Shays. Let me clarify this one answer to the question. 
He implied that there is some information you will not be able 
to get because you do not have the facility. I am just asking a 
simple question to set the record straight. Will you have the 
capability to get whatever intelligence you need, no matter how 
classified, in this new facility?
    Mr. Parrish. Yes, sir, we will. But I want to caveat that 
by saying that the Department of Homeland Security and IA 
respects and understands the sensitivity of sources and 
methods. We as taxpayers have spent a lot of money on 
developing sources.
    Mr. Shays. I am not asking about sources.
    Mr. Parrish. I just want to clarify that for the record, 
though, sir, because some of this information will not go to 
all analysts within IA. It may only come to me, of which I go 
back to that originating agency to say, I need this information 
broken out to a tear line that I can give to my analysts to 
work.
    Mr. Shays. I am comfortable with that. Thank you.
    Chairman Cox. Mr. Ethridge.
    Mr. Ethridge. Thank you, Mr. Chairman; and thank you for 
this meeting. I am going to follow that line of conversation 
just a bit. I want to thank my two previous colleagues for 
their questions and your comments, because I tend to agree with 
them.
    Let me go back to the June 5 Subcommittee meeting, when Mr. 
Redmond was here and also Mr. Pat DeMoro. Mr. Redmond said at 
that time that the IAIP's job was to provide intelligence 
information to State and local governments. The FBI at that 
time said TTIC would provide intelligence analysis to States 
and local governments. My question is, can you tell us who has 
responsibility for collecting intelligence and threat 
information from State and local governments for analysis and 
providing intelligence products to those State and local 
governments?
    Mr. Parrish. Yes, sir. The Department of Homeland Security 
in our homeland security operations center, which is manned 24 
by 7, we have a State and local desk that is there. We have an 
initiative ongoing with the regional information system, 
RISNET, of which we will establish connectivity in a pilot 
program right now with several State and local officials as 
well as to encourage the private sector.
    So reporting back to State and local is a responsibility--
State and local authorities, the homeland security advisories, 
the first responders, as well as the private sector, we have a 
responsibility to report back to them information that we 
acquire, we analyze. It is either developed within DHS, IA, or 
comes in through TTIC. We have a responsibility to get that 
information out.
    Mr. Ethridge. I only have 5 minutes. I don't want to cut 
you off.
    Mr. Parrish. At the same time, though, the important 
factor, though, is we then open up this dialogue and exchange 
of information to allow them to get information back to us that 
can be valuable pieces of information.
    Mr. Ethridge. It is interesting that you say that, but let 
me tell you what my first responders are telling me. What they 
are saying is--this is in my district, we may be unique, 
anyplace in the United States. I don't think so. They are 
saying that the threat information they receive from Washington 
is usually outdated and so general that it is useless, and also 
it lacks the security clearances that have hampered the 
dissemination of specific data that they could use.
    So by that I ask, which agency is responsible for providing 
security clearances for State and local responders so that they 
can get the information they need to identify and prevent 
threats of attack? Because if you can't give them the 
information you have, then we have thrown this money and all of 
this effort and it really isn't going to be effective at the 
local level where we need it.
    We have a responsibility to assist and work with our State 
and local partners to get the right clearances. The homeland 
security advisors now within each State have a secure means, a 
secure secret clearance, of which we can fax classified 
information to them at the homeland security level.
    Mr. Parrish. I will defer to Mr. Mefford to talk about the 
JTTF and the State and local representation with their security 
clearances.
    Mr. Ethridge. In answering that question, let me go a step 
further, because it is important. Are we doing training of the 
local officials so they will know what information to receive, 
what information they will get, what is available to them, so 
someone will have the clearance to accept the data? And who is 
responsible for that?
    Mr. Parrish. Sir, that is a great question. We do have a 
program we are getting ready to work as we move into this new 
facility. Within IA, we are going to have an information----
    Mr. Ethridge. Do you have a time line?
    Mr. Parrish. I would expect that we should have something 
in place in the late October time frame. What I want to be able 
to do is to bring in State and local individuals for about a 2-
week period to work in our fusion cell to help them understand 
how to analyze information that they receive from Washington, 
from us.
    Mr. Ethridge. Well, all right. In October. How long is it 
going to take to get everybody in so they will be up to speed, 
though? This is a big country and a lot of people.
    Mr. Parrish. That is just one aspect of it. We also are 
working on a training program that earlier had been initiated 
to get out and give some intelligence analyst training, and 
that program is being worked aggressively within the Department 
of Homeland Security. I don't have the exact time line on that, 
but I will get an answer to you.
    Mr. Ethridge. We would like to have that time line, because 
that is critical. Because we are now a long ways since 9/11, 
looking at--and this is what the agency was created for, so we 
don't have this kind of thing. If locals don't see something 
happen, we have got problems.
    Mr. Parrish. I agree.
    Mr. Ethridge. Thank you, Mr. Chairman. I yield back.
    Chairman Cox. The gentleman from Arizona, Mr. Shadegg.
    Mr. Shadegg. Thank you, Mr. Chairman.
    Mr. Parrish, I want to begin by letting you know that we on 
this Committee want you to do well. We are deeply concerned. I 
regret that the hearing with Mr. Redmond didn't go well. I 
think it was two ships passing in the night. Perhaps his skills 
were elsewhere and not in presenting the best case to this 
Committee.
    But some disconcerting information came out in that 
discussion, and I think it is simply important that we try to 
move forward, and we in the oversight role obtain assurances 
that you are making the progress you need, in part because if 
you need resources or if we need to revise the law, we want to 
work with you to do that.
    I think many of us are concerned that it is not clear to us 
where TTIC came from and whether or not TTIC is getting 
resources that you ought to be getting. I, quite frankly, don't 
pretend to know what the right role should be. I do know as a 
lawyer that I can read the homeland security statute that 
Congress wrote, and I know that it imposes substantial--I would 
say intelligence analysis responsibilities on you.
    I guess my first question of you is, just to get you on the 
record, I would like you to assure me that you have read the 
section of law, the Department of Homeland Security statute 
that assigns you these various responsibilities to analyze 
intelligence data.
    Mr. Parrish. Yes, sir, I have.
    Mr. Shadegg. Okay. And from your testimony and your 
prepared statement, I gather that you view your relationship 
with TTIC to be positive in that regard, not negative?
    Mr. Parrish. I do, sir.
    Mr. Shadegg. Okay. A reading of the statute could lead one 
to conclude that it imposes an independent burden of analysis 
on you. Would you agree with that?
    Mr. Parrish. No, sir.
    Mr. Shadegg. You would not agree with that. You think that 
the statute allows you to obtain your intelligence information 
and the conclusions you operate on derivatively and not 
independently analyze it?
    Mr. Parrish. Yes, sir. We still have ability to 
independently conduct our own analysis.
    Mr. Shadegg. Well, I guess my question isn't what ability 
you have. I hope you do have that ability. My question is your 
understanding of the statute.
    As I read the statute, I think it imposes a duty on you to 
independently analyze the data that you gather, that is to say 
that you could get information from TTIC or from CIA or from 
wherever else is appropriate but then that you are supposed to, 
as I read the statute, independently analyze it. And your 
testimony before this Committee is you do not agree with that. 
You do not believe you----
    Mr. Parrish. Sir, I misunderstood. We are independently 
analyzing this information. I am sorry. I misunderstood. We 
are. And we have the authority, based on that legislation, to 
acquire and access any information, unfettered information, of 
which, right now, I have not been denied any information when I 
have asked for it.
    Mr. Shadegg. Great. I am happy to hear that. My question 
wasn't so much do you have the authority, because I think you 
clearly do understand the statute, my question is: Do you 
understand that you have the responsibility? And your answer to 
that question is, yes, you do understand you do have that 
responsibility. Am I right, sir?
    Mr. Parrish. I do, sir.
    Mr. Shadegg. The reason I raise that point is that--and I 
can understand and have immense sympathy with the challenge 
that the Department faces. Trying to stand up a Department of 
the size of DHS under these circumstances for this pressure to 
meet is incredibly difficult.
    What was disconcerting about the conversation we had as a 
Committee with Mr. Redmond is that he didn't seem to understand 
that that was a responsibility of his, and I am very much 
encouraged by the fact that you recognize that you do have that 
responsibility of independently analyzing that data.
    The reason that is important to me is because I think the 
American people understand what the statute says; and if 
something is to happen, or if something does happen, they are 
going to look at the Department and say, why didn't you stop 
this? Or why didn't you catch this? Or why didn't you discover 
this? And at that point it may be an adequate answer to say, 
look, we weren't provided the proper data, nobody knew, but it 
won't be an acceptable answer under the wording of the statute 
to say, it wasn't our job. And you would agree with me on that, 
is that right?
    Mr. Parrish. I do, sir.
    Mr. Shadegg. Okay. As I understand your current schedule, 
your testimony to this Committee today is that, A, we have--how 
many analysts did you say?
    Mr. Parrish. Currently, we have 53 on board in IA. That is 
analysts as well as liaison personnel.
    Mr. Shadegg. And you are rapidly acquiring more and will 
have space for them as of--did I hear you say September 30?
    Mr. Parrish. Yes, sir. That is, the targeted date is 20, 25 
September.
    Mr. Shadegg. Okay. And in the interim I understand you 
believe you are getting very adequate information from the 
agencies that are responsible for providing information to you, 
is that correct?
    Mr. Parrish. Yes, sir, we are. Through the workaround with 
personnel assigned within IA.
    Mr. Shadegg. Okay. And that would then also be true of your 
relationship with TTIC?
    Mr. Parrish. Yes, sir.
    Mr. Shadegg. Okay. I would like to ask Mr. Brennan, if I 
could, you are--are you currently responding to all of the 
requests you are getting from the Department of Homeland 
Security and from Mr. Parrish?
    Mr. Brennan. Yes, we are.
    Mr. Shadegg. And you would agree, also--well, let me ask 
you this. Have you read the Department of Homeland Security 
statute that imposes an independent analytical burden on them?
    Mr. Brennan. Yes, I have.
    Mr. Shadegg. So you would agree with me that it is your 
duty to provide sufficient raw data for them to perform an 
analytical function as well as simply accepting whatever 
conclusions you might provide them in addition to that data, 
would that be correct?
    Mr. Brennan. That is correct. But the collection agency is 
the one that provides that raw data to DHS.
    Mr. Shadegg. And do they provide it also to you?
    Mr. Brennan. Yes, we have access to that.
    Mr. Shadegg. In that regard, do you independently analyze 
it as well?
    Mr. Brennan. We analyze the information that we have access 
to, yes.
    Mr. Shadegg. And provide it to DHS as one of your 
customers?
    Mr. Brennan. As appropriate, yes, we do.
    Mr. Shadegg. So you would pass on to them not just 
conclusions that you had reached but also basic data from which 
they can form their own conclusions?
    Mr. Brennan. Right, and they would have had that data 
already, but it will be included in our products.
    Mr. Shadegg. Mr. Parrish, the specific issue when Mr. 
Redmond was here, or at least a specific issue that I am deeply 
concerned about, is the bioterror threat. As you know----
    Chairman Cox. The gentleman's time has expired.
    Mr. Shadegg. I yield back the balance of my time.
    Chairman Cox. I think there will be an opportunity for a 
second round very shortly. Thank you very much.
    Mr. Markey, the gentleman from Massachusetts.
    Mr. Markey. Thank you very much.
    Mr. Brennan, do you participate in the development of the 
National Intelligence Estimate?
    Mr. Brennan. No, I do not.
    Mr. Markey. Okay. If the CIA learned that al Qaeda was 
planning or thinking about planning on blowing up an American 
passenger plane because they knew that they could sneak on, in 
the cargo, on any passenger plane in America an explosive 
because we don't screen cargo that goes on American passenger 
planes, and if the CIA learned about that, that al Qaeda was 
thinking about it, would you automatically have to learn about 
that or could they decide not to pass that on to you?
    Mr. Brennan. Could CIA decide not to pass that on to me?
    Mr. Markey. Yes.
    Mr. Brennan. Our analysts or our officers have real-time 
access to CIA information flows.
    Mr. Markey. So they would have to give it to you?
    Mr. Brennan. They don't have to provide it. We have access 
to it.
    Mr. Markey. They do not have to provide it to you?
    Mr. Brennan. We have access to it. It doesn't require an 
action on their part.
    Mr. Markey. They don't have to provide all of their 
information to you, is that correct, because you are not part 
of the National Intelligence Estimate construction?
    Mr. Brennan. That is two different issues. The National 
Intelligence Estimate is an analytic product. That is a product 
that is put together by the community.
    Mr. Markey. So they have to pass on all of this raw data to 
you as well so that you can decide?
    Mr. Brennan. We have access to that data by the fact that 
we have CIA information systems in TTIC.
    Mr. Markey. So would you get it automatically?
    Mr. Brennan. Yes, we would have access to it.
    Mr. Markey. Now, after you get it, do you automatically 
have to pass it on to Homeland Security, or can you make a 
decision that Homeland Security should not get that 
information?
    Mr. Brennan. CIA, which is the collection agency, has a 
responsibility to ensure that all information that DHS requires 
to fulfill its mission, even without requesting it, is made 
available to it. So it is CIA that would provide that 
information directly to DHS.
    Mr. Markey. So it would not go through you. CIA would have 
to decide whether or not DHS got the information about al Qaeda 
potentially thinking about using this wide-open gap that allows 
for cargo to be put on passenger planes without any screening?
    Mr. Brennan. Yes, it is CIA's responsibility to make sure 
that information is provided directly to DHS. It would not have 
to go to TTIC.
    Mr. Markey. So that would not be your responsibility. You 
would not feel any responsibility to pass that on because you 
think that the CIA has the principal responsibility for passing 
that on to Homeland Security?
    Mr. Brennan. CIA has the responsibility for passing on 
information that it has collected.
    Mr. Markey. Would you pass it on in redundancy? Would you 
pass it on just to make sure that there had been no mistake, or 
would you have to get permission from the CIA to pass it on?
    Mr. Brennan. I would not have to get permission. I would 
ring the bell long and loud, and I would make sure that 
everybody that needed to know that information was aware of it 
as soon as possible.
    Mr. Markey. What if the CIA asked you not to pass it on and 
you evaluated it to be a greater risk than the CIA did because 
you have a greater homeland security orientation than the CIA 
has?
    Mr. Brennan. I don't envision anything that----
    Mr. Markey. No. I am asking you what happens if there is a 
conflict.
    Mr. Brennan. If there is a conflict, I am a direct report 
to the DCI. I would be in the DCI's office within a minute, and 
I am sure that the DCI would have no problem with that 
information being passed to DHS.
    Mr. Markey. Right. What if the head of the CIA told you: I 
don't want it passed on. That has happened before. We have seen 
that.
    Mr. Brennan. The Director of Central Intelligence is the 
head of the CIA.
    Mr. Markey. I know who it is. That is why I am saying, what 
if the head of the CIA now says to you, I don't want you to 
pass it on?
    Mr. Brennan. If there is threat information----
    Mr. Markey. We just learned that in Niger they make 
decisions like that. Don't pass it on.
    Mr. Brennan. I wouldn't equate the DCI with the situation 
in Niger. So I think the DCI understands his statutory 
responsibilities to ensure that that information is passed on.
    Mr. Markey. The rest of America didn't know that there was 
a threat that did not exist in Niger, that was not passed by--
on by the DCI. So I am questioning you on whether or not, if 
there was a risk, it is also potentially possible that the 
opposite could be true, that they asked not to pass it on. So 
what happens in that--who breaks the tie? Can he tell you, I am 
not passing it on? Or can you, in turn--can you say to him, I 
am sorry, sir, I am passing on that information to Homeland 
Security. I disagree with your analysis. Can you say that to 
him?
    Mr. Brennan. I am sure that information would be passed to 
DHS.
    Mr. Markey. No. Can you say, no, I disagree with you? Do 
you understand?
    Mr. Brennan. If I feel as though U.S. lives are at stake, 
and is a theoretical possibility, which I find far out of the 
realm of possibility, I would make sure that the information is 
provided to that department or agency that requires the 
information to act on it. Yes, sir, I would.
    Mr. Markey. Just so you understand, the Congress now 
realizes that there was not a full disclosure of all of the 
information with regard to the presence of weapons of mass 
destruction in Iraq. So you may think it is a remote 
possibility, but, believe me, there are many Members of 
Congress and the American public that do not believe it is a 
remote possibility, because it just happened.
    So you can sit down there and you can say, well, don't 
worry about it, we are all going to work it out. But I want to 
know if you are accepting the responsibility if the information 
is there and it doesn't get passed on, because we saw before 9/
11 it wasn't getting passed on.
    That is the very reason we are having this hearing. We know 
that in Arizona, we know that in Minnesota, we know that in 
other places it wasn't acted on. That is why we are setting 
this up. We want to see here who has got the responsibility for 
ensuring after 9/11 and pass it on and who is accepting that 
responsibility. It is not a theoretical impossibility. It is a 
very real possibility. Because it already happened.
    Mr. Brennan. I didn't say it was a theoretical 
impossibility. I said, in my estimation, it is an exceptionally 
unlikely possibility. But if you wanted to address theoretical 
possibilities, that is fine.
    Mr. Markey. So he cannot order you not to pass it on? Is 
that what you are saying?
    Mr. Brennan. I can't tell him what he can and can't order 
me to do.
    Mr. Markey. Well, if he orders you not to do it, what is 
your responsibility at that point?
    Mr. Brennan. My responsibility is to my conscience and to 
the American Government, and I would make a decision about 
needing to do that.
    Mr. Markey. Legally----
    Chairman Cox. The gentleman's time has expired.
    The gentleman from Virginia, Mr. Goodlatte.
    Mr. Goodlatte. Thank you, Mr. Chairman.
    I am having a problem understanding the rationale for the 
existence of this agency as well. I wonder, Mr. Brennan, how 
are you funded? I am sorry I haven't heard the whole testimony 
here. But where do your funds come from?
    Mr. Brennan. Right now, our funds come from the partner 
agencies that have provided funds to us in 2003. Right now, 
there is a discussion under way with the Hill about how our 
funding is going to be handled in fiscal year 2004.
    Mr. Goodlatte. Where does your staffing come from?
    Mr. Brennan. My staffing comes from the partner agencies.
    Mr. Goodlatte. And I take it there is some distinction here 
between assigned and detailed. Are your employees assigned or 
detailed?
    Mr. Brennan. They are all assignees. We are not an agency 
or an organization. Therefore, somebody cannot be detailed to 
something that doesn't exist.
    In addition, we have assignees because they bring with them 
their authorities from their parent organizations. That is the 
express intent, in fact, of TTIC, that we would have under the 
umbrella joint venture a joint command, if you will, sir, the 
authorities as necessary to combat terrorism.
    Mr. Goodlatte. And why is this necessary? Why can't these 
agencies simply cooperate amongst themselves?
    Mr. Brennan. I think it takes a lot more than cooperation. 
As we see from our military experience, with the command 
structure in terms of the central command where you bring 
together the different types of capabilities in order to go 
after your target, this is--the same is true within the 
intelligence community and the war against terrorism.
    No single agency has the authority or the capability or the 
statutory mandates to understand and to deal with the terrorist 
threat that comes from abroad but is manifest here in the 
States. Therefore, this TTIC was an attempt by the 
Administration, and it makes a lot of sense from my estimation, 
having worked terrorism issues for a long time, bringing 
together those people so they can have the access that is 
available to the U.S. Government and then empower those 
departments and agencies that have the statutory 
responsibilities to help to prevent terrorist attacks from 
taking place.
    Mr. Goodlatte. Can you envision a scenario where TTIC 
collects information on its own rather than analysis of that 
which comes to it?
    Mr. Brennan. No, sir. I envision no scenario whereby we 
would collect information. We just analyze the information and 
understand it.
    Mr. Goodlatte. But, Mr. Parrish, you will have that 
capacity at the Department of Homeland Security?
    Mr. Parrish. Yes, sir. The subordinate agencies that I 
mentioned before--the Customs Bureau of Protection, Immigration 
Customs Enforcement, Coast Guard, Secret Service--all of those 
operational forces at times do pick up information that can be 
used in connecting the dots once it is analyzed.
    Mr. Goodlatte. Thank you.
    Mr. Brennan, Mr. Mefford, in December of 2002, the joint 
inquiry report concluded that, although relevant information 
that is significant in retrospect regarding the attacks was 
available to the intelligence community prior to September 11, 
2001, the community too often failed to focus on that 
information and consider and appreciate its collective 
significance in terms of a probable terrorist attack. Neither 
did the intelligence community demonstrate sufficient 
initiative in coming to grips with the new transnational 
threats. Some significant pieces of information in the vast 
system of data being collected were overlooked, some were not 
recognized as potentially significant at the time and therefore 
not disseminated, and some required additional action on the 
part of foreign governments before a direct connection to the 
hijackers could have been established.
    How is TTIC, IAIP, and the FBI resolving these issues?
    Mr. Brennan. From TTIC's perspective, this is one of the 
reasons why TTIC was created, to ensure that we don't have, 
through some type of oversight, information available to us 
that we can prevent terrorist attacks. It is bringing together 
all of the information available to the U.S. Government on 
threats, applying the analytic tools, and ensuring that there 
is, in an integrated framework and environment, those officers 
from different parts of the Government who can shed insight and 
context as well as requests for additional information on it, 
so we can be connecting the dots.
    It is particularly for that reason that----
    Mr. Goodlatte. So are you reviewing again all of the 
information that these various agencies that assign employees 
to you are already reviewing in the first place?
    Mr. Brennan. They are reviewing the information that they 
may have available to them. But TTIC has unmatched access, in 
fact, to information that is available on threat information in 
the U.S. Government.
    Mr. Goodlatte. Mr. Mefford.
    Mr. Mefford. Yes, sir. After September 11, Director Mueller 
has created a layered system throughout the United States, 
starting at the foundation with the Joint Terrorism Task Forces 
situated around the country all of the way up to FBI 
headquarters to the National Joint Terrorism Task Force where 
we have integrated DHS personnel, CIA personnel and others so 
that we can have a more coordinated, efficient approach to this 
issue.
    We also agree that the value of TTIC to the FBI is that it 
is a center that the FBI can contribute to and provide one-stop 
shopping for the analysis of threat information, both overseas 
and domestic.
    Mr. Goodlatte. Is TTIC operational at this point? Are you 
actually receiving information?
    Mr. Brennan. We have been operational since 1 May.
    Mr. Goodlatte. Okay. So that is not a very long period of 
time to judge. But, Mr. Mefford, are you getting back 
information from TTIC, from other information sources that 
would not otherwise be available to you that is proving useful 
to you in combatting terrorism?
    Mr. Mefford. Yes, sir, we think we are, on a daily basis.
    Mr. Goodlatte. Mr. Berman, do you have a comment on that?
    Mr. Berman. One point. I think that the--the issue--TTIC 
has been established, and it is operational. And the question--
and there is, I think, some duplication of what at least the 
statutory framework for DHS wanted there. But I think it was 
clearly Congress's intent that this function of coordination 
analysis and really looking at information which can be very 
sensitive--and you want it both from a national security and 
public policy point of view--that it operate under a charter; 
and Congress created that charter when it created the 
Department of Homeland Security Act.
    I think there are serious policy issues that are raised and 
cannot be answered, the Markey questions, your own, about who 
is accountable, unless this TTIC function is brought under some 
charter. It is operating outside of the balance of clear, 
specified law about what its function is, who it is accountable 
to and, for example, from my point of view, who is going to 
mind the store in terms of making sure that national security 
and civil liberties are balanced, which Congress wanted done 
when it passed the Department of Homeland Security Act.
    If TTIC is going to continue, it should be operating under 
that charter, or Congress should create a charter for TTIC if 
it is going to have a new agency, because that is what it has.
    Mr. Goodlatte. Are you seeking such status, Mr. Brennan?
    Mr. Brennan. No. At this point I don't believe that there 
is any additional authorities needed for the TTIC mission. We 
are learning about it every day. I would not exclude the 
possibility that there should be legislation at some point in 
the future, but it is still taking shape at this point. We are 
working with the different departments and agencies that have 
partnered with us. So at this point, no, we are not seeking any 
type of legislation.
    Chairman Cox. The gentleman's time has expired.
    The gentleman from New Jersey, Mr. Pascrell.
    Mr. Pascrell. Mr. Brennan, I know you mentioned--someone 
mentioned about the budget before. Who has control over the 
budget of the Terrorist Threat Integration Center? Who controls 
the budget?
    Mr. Brennan. The budget will be falling within the National 
Foreign Intelligence Program budget, the NFIP, which falls 
under the DCI, which falls within the oversight Committees of 
the intelligence community.
    Mr. Pascrell. If you can follow that you are pretty good. 
But do you know what that sounds like to me?
    Mr. Brennan. That is the Senate Appropriations Committee 
and the House Appropriations Committee and HASC and SASC in 
terms of appropriating the budget.
    Mr. Pascrell. You know, just put as much stuff in there as 
possible. It is stew. You are having the same problem that we 
have. It is our fault, not your fault. And the problem is 
that--the question of jurisdiction. The Speaker put it very 
specifically when he said on the opening day of this session 
that he would preserve the jurisdiction of the standing 
Committees.
    So we have a joint Committee today, but the people who have 
shown up, I believe, are mostly from--mostly from, except for 
one or two, the Homeland Security Committee. And we have more 
problems defending turf than we really get to the objective of 
protecting the American people.
    And I disagree with the gentleman, my good friend from 
Washington. I have a lot of confidence in the FBI. They are 
going to make mistakes. And, boy, the Congress makes mistakes--
I have sat with the FBI and their antiterrorism folks--about 
situations in my own State of New Jersey and the Northern part 
of the State. And I have sat and talked with them at length 
about al Qaeda and its network throughout the United States and 
the world. And much of that is, of course, confidential, 
secret, top secret. But I have confidence in them.
    I don't have confidence in what I heard today. It is 
absolutely critical--you have all said it in different ways--
that the Government develop a strong organizational structure 
that is capable of collecting, analyzing, and interpreting and 
disseminating intelligence so that we can prevent terrorism to 
the greatest extent possible.
    But that is in doubt. You know, Kurt Vonnegut would have a 
field day. He used to use the word ``materialize.'' This 
agency, or whatever you want to call it, materialized. And it 
could very easily dematerialize. Because we certainly didn't 
put it together, not by any act which we had anything to do 
with; and that concerns me. And, you know what, it has got to 
create anxieties in terms of what all of you are trying to do.
    So I would like each of you to respond to the following 
statement. I would like to get your response to a statement 
which you made, Mr. Berman. I would like to get the three 
gentlemen's response to this statement. You said--on page 3 you 
said that when Congress created the Department of Homeland 
Security in 2002, he writes, or spoke, ``It attempted to 
partially address these concerns by creating internal oversight 
mechanisms in the new Department.''
    If the TTIC, better known as the Terrorist Threat 
Integration Center, is not brought back under the Department of 
Homeland Security, Congress should respond by establishing 
standards for sharing of information and its consequences and 
should establish internal oversight mechanisms for TTIC.
    Finally, these Committees should continue practicing 
ongoing nonpartisan and in-depth oversight. I will talk about 
nonpartisanship at another time, not today. I would like three 
of your quick responses to that statement which the gentleman 
to your left made.
    Mr. Brennan. TTIC has a very special responsibility in 
terms of handling the information that it has access to. There 
needs to be very strict rules put in place, which we have done 
within TTIC, working with our partner agencies. We have, in 
fact, oversight of every individual agency that is a part of 
TTIC. We also have oversight of a number of different 
congressional Committees as well. So does there need to be 
oversight of what we do? Yes, there needs to be. We already 
have, though, existing in place within TTIC what we needed to 
do in our first 10 weeks to ensure that information is handled 
appropriately and to the spirit and the letter of the 
Constitution.
    Mr. Pascrell. Mr. Mefford. Thank you.
    Mr. Mefford. Yes, sir. When the FBI assigns personnel to 
TTIC, we don't relinquish any of our responsibilities for the 
actions of those individuals, and we think that there are 
adequate safeguards and oversight abilities today that exist 
directing and overseeing the FBI operations that would suffice 
for our personnel assigned to TTIC.
    We also agree with Mr. Brennan's statement that, clearly, 
as a coordinating entity, as a joint venture, TTIC has internal 
guidelines which we support and contributed to, to ensure 
appropriate oversight.
    Mr. Pascrell. Thank you. Mr. Parrish.
    Mr. Parrish. Sir, TTIC is enhancing the capabilities of the 
Department of Homeland Security and Information Analysis. The 
presence of the DHS analysts over there are very sensitive to 
their responsibilities, especially in conveying rapidly the 
information that comes in to TTIC so that it is shared back to 
IA in a timely fashion, to ensure that IA has that information, 
which in most cases they already do have, and that this 
information is rapidly processed, assessed and placed in the 
hands of the people who need it.
    Mr. Pascrell. Mr. Chairman, can I just have a quick 
question? Final question.
    Chairman Cox. The gentleman seeks unanimous consent to 
extend his time for an additional minute. Without objection.
    Mr. Pascrell. Thank you.
    Mr. Brennan, who made the decision to house you at the CIA 
headquarters in Langley, in the complex? Who made that 
decision?
    Mr. Brennan. That decision was made as a result of the need 
to stand up TTIC by 1 May in an area that was sufficient to 
accommodate our size, in an area where we could ensure that 
there would be secure connectivity to the information systems 
that we needed to have access to.
    Mr. Pascrell. Who made the decision?
    Mr. Brennan. The decision was made by me, when the CIA 
building was the only available place at the time.
    Mr. Pascrell. Thank you.
    Thank you, Mr. Chairman.
    Chairman Cox. Thank you.
    The gentleman from Arizona--but, Mr. Brennan, if you would 
just clarify for the record, it is my understanding that, in 
fact, TTIC will not be located at Langley and that you have 
other plans, is that correct?
    Mr. Brennan. That is correct. In May of next year we are 
moving out to a separate facility.
    Chairman Cox. The gentleman from Arizona, Mr. Flake.
    Mr. Flake. I thank the Chairman.
    So that the witnesses don't have to plow old ground, 
because I wasn't here to hear it, Mr. Shays has some questions, 
and I yield to him.
    Mr. Shays. Thank you very much.
    I was taken back, Mr. Brennan, by your comment that you 
can't have anyone detailed to you because you don't exist. And 
I know you didn't mean it that way. I want you to set the 
record straight, or if you meant it, I need you to clarify it.
    Chairman Cox. Clarifying. Mr. Brennan does exist.
    Mr. Brennan. What I think I said, or what I meant to say, 
that is, we do not exist as a separate agency or department 
that has been set up by statute. Since we don't exist as that 
separate agency or department, an individual, a U.S. Government 
employee cannot be detailed to something that doesn't exist.
    Mr. Shays. Okay. The challenge I am still trying to 
reconcile--and I did ask Mr. Berman to respond. I mean, he 
basically was saying, as it related to the issue of who 
ultimately takes responsibility, TTIC, Homeland Security, CIA, 
FBI, when some bit of intelligence is not properly viewed for 
what it is and something bad happens as a result, Mr. Parrish, 
I really believe that your job is to be the--to do 
extraordinary analysis of information that was--you tasked in 
some cases and in other cases it was done without you tasking.
    But I view you as basically being that conduit that takes 
this information and does your own analysis, and I don't think 
you basically disagree with that. But what I am unclear about 
is it seems to me we have the intelligence community, that the 
CIA is an intelligence gatherer, and you have the FBI which is 
evidence gathering. So you already have cultural problems 
between the two, and now we have TTIC kind of stuck in here 
doing a lot of what I thought would be done out of this new 
pillar of DHS. So I need you to talk to me about ultimately bad 
data, not getting it--or bad data getting there or good data 
never getting to you. I need to know who takes responsibility.
    Mr. Parrish. Sir, if there is intelligence information that 
is held by an agency within the Federal Government, it is their 
responsibility to convey that information to appropriate 
agencies. As legislation states, we have unfettered access to 
that.
    In the example used by Congressman Markey, I will tell you 
that in my position, as far as Bill Parrish is concerned, and 
when I sat there at TTIC as the Associate Director of Homeland 
Security, that intelligence report that comes in from an agency 
that says this needs to be contained and not shared--I have 
already had a career. I am in this for my grandson. I will 
ensure that that report is provided appropriately to the agency 
that needs to take immediate action.
    Mr. Shays. But I think----
    Mr. Parrish. That process is now working in TTIC.
    Mr. Shays. I know that the Chairman may want a little time 
yielded, but let me just understand this other part. It seems 
to me that you don't exist, but you do exist, and you are 
funded by the legislative Appropriations Committees. Is that 
what we are hearing, Mr. Brennan?
    Mr. Brennan. Defense. We are funded by the Defense 
Appropriations Committees, since the National Foreign 
Intelligence Program falls under----
    Mr. Shays. You are really a creature--you owe your--and 
tell me----
    Mr. Dicks. If the gentleman would yield. This is part of 
the Defense Appropriations bill. Because we fund all of foreign 
intelligence, the budget for the CIA, and the National Foreign 
Intelligence Program, which this is part of. I am sure that it 
would be funded through the money that goes to the Central 
Intelligence Agency.
    Mr. Shays. Let's just clarify. The bottom line is you are 
basically in the black part of the budget?
    Mr. Brennan. Well, with one exception. All of the officers 
being assigned to TTIC, they bring with them their personal 
services and nonpersonal services dollars, so that each agency 
will be contributing to the TTIC effort.
    Mr. Shays. Just a big concern, Mr. Parrish. I hope you are 
not losing your spot as a pillar on DHS with this TTIC process. 
And I thank Mr. Flake for yielding me time.
    Mr. Parrish. Sir, I can assure you that I am not losing 
anything, nor is Secretary Ridge, in the relationship that we 
have with TTIC. I am confident that the information that is 
being looked at at TTIC, and looked at simultaneously within 
IA, we are providing to this Nation the best intelligence 
assessment of potential terrorist threats to the country.
    Mr. Dicks. Mr. Chairman, just a quick observation--30 
seconds.
    Chairman Cox. The gentleman from Arizona still controls the 
time.
    Mr. Flake. I will yield to Mr. Dicks.
    Mr. Dicks. Thank you for yielding.
    The one thing that my experience tells me--it is one thing 
to share information, gather information. The problem is acting 
upon the information. That is where judgment and experience 
really counts. And when I said--I did not mean to demean the 
FBI--the information flowed up to the New York office of the 
FBI, and it wasn't acted upon. And the challenge for you 
gentlemen, I believe, is knowing when to act upon the 
information and how to act and what to do. Because we want to 
prevent these things from happening. That means forceful action 
by the agencies involved.
    Thank you for yielding.
    Chairman Cox. The gentleman's time has expired.
    The gentlelady from the Virgin Islands, Dr. Christensen.
    Mrs. Christensen. Thank you, Mr. Chairman.
    I had looked forward to this hearing hoping that having 
both the director of TTIC and IA here would have helped them 
clarify some of these issues and the maze of conflicting 
processes, but so far that hasn't happened.
    My first question, Mr. Brennan. You know, it has been 
stressed over and over again--and I guess this is a follow-up 
to the gentleman from Connecticut's question. It has been 
stressed repeatedly that TTIC is not an agency. Why is that 
important?
    Mr. Brennan. Because, I believe it takes an act of Congress 
to create a U.S. Federal agency or department.
    Mrs. Christensen. Mr. Berman, I wanted to ask if you had 
any take on why repeatedly this is being stressed, that it is 
not an agency?
    Mr. Berman. I think it is being repeatedly stressed because 
it happens to be a fact. It is not an agency, and that means 
that its accountability is floating somewhere and hasn't come 
to ground.
    In my view, it is left to the Department of Homeland 
Security a mission that the President, the Congress and the 
American public thought was critical and in fact which has been 
the conclusion of every commission that has studied what 
happened pre-9/11 from a national security point of view, that 
the--that what we needed was, if we were not going to create a 
new intelligence agency, that--to replace the CIA or the FBI, 
that we at least needed someone, a new culture of information 
sharing and a new shake-up and that DHS was supposed to provide 
that by bringing in new blood, new analysis and new people to 
work with the existing agencies.
    And what I see is TTIC has floated out of the Department of 
Homeland Security; and in my view, as I sit here and listen 
today, the CIA and the FBI continue to make decisions about how 
to break the logjam of information sharing that was a problem 
before 9/11.
    Mrs. Christensen. Well, that is basically my next question. 
I know Mr. Brennan has been asked in various ways over and over 
again, but I understand the need for the coordination that 
takes place at TTIC. But why is it better outside of the 
Department of Homeland Security, in your opinion? Why shouldn't 
it be in the Department of Homeland Security?
    Mr. Brennan. Because, as I mentioned earlier, that the 
overwhelming majority of information about the terrorist threat 
to U.S. Interests comes from abroad. To understand that 
information, to analyze that information, it takes an 
understanding of that environment, that overseas environment. 
That is not the Secretary of Homeland Security's 
responsibility.
    Mrs. Christensen. But why can't the same analysts that are 
now sitting where your office is, coming from all of the 
different agencies to take in this information and analyze it, 
why aren't they sitting in the Department of Homeland Security? 
The same--the CIA analysts, the FBI analysts, State Department 
analysts, why aren't they best seated in the Department of 
Homeland Security, which is where the information is going to 
be acted on?
    Mr. Brennan. Many officers from those other agencies are, 
in fact, sitting in the Department of Homeland Security. But 
TTIC has those partner agencies as the TTIC foundation, and so 
we need to have those different perspectives not just because 
of different information systems and databases that they bring, 
but they also bring a number of different perspectives that 
really help our understanding of the terrorist threat and to 
connect the dots.
    Mrs. Christensen. I have a concern also about the 
dissemination of information. Because if I understood the 
different testimonies and responses to questions, TTIC 
disseminates information directly to the local agencies. Is 
there a difference in who TTIC disseminates information to and, 
Mr. Parrish, who you disseminate your information to?
    Mr. Parrish. No, TTIC does not disseminate information down 
to the State and local. That is the responsibility of the 
Department of Homeland Security. That is why we work in this 
partnership, if you will, to assess the information together, 
to ensure that in a timely fashion we put an actionable product 
back out into the hands of our customers.
    It is easy to put out just an intelligence report, but it 
is more important that we give to our customers some protective 
measures so as this intelligence flows up through TTIC, as it 
is analyzed in IA, as it is correlated in infrastructure 
protection, we are able to put out a product that says, here is 
a piece of intelligence posing a threat to your sector and here 
are some recommended protective measures that we would 
encourage you to review and consider to deter this attack, 
potential attack or threat, I should say.
    Mrs. Christensen. Well, who disseminates information to the 
Joint Terrorism Task Forces?
    Mr. Mefford. The FBI is responsible for that role.
    Mrs. Christensen. So TTIC disseminates it to you, gives you 
that information, and you direct it to the local task force?
    Mr. Mefford. If it is threat--terrorism threat information, 
the FBI, the Counterterrorism Division of the FBI here at FBI 
headquarters in Washington, D.C., through the National Joint 
Terrorism Task Force, which is an entity formed here in D.C. 
that comprises 35 Federal agencies. Soon certain State and 
Federal and local law enforcement agencies will be a member. 
That entity integrates with the JTTF network around the 
country, and we have the responsibility in the FBI to ensure 
that relevant terrorism threat data is shared very rapidly with 
the agencies that have a need to know.
    Mrs. Christensen. Do you also simultaneously share it with 
the Department of Homeland Security, or does your JTTF have to 
get it first, or do they get it first? How is that coordinated?
    Mr. Brennan. There are many ways to disseminate 
information. Mainly, it is done now electronically. There are 
classified systems, Web sites, that are available to different 
Government agencies.
    When threat information comes in, sometimes it is referred 
to as raw information or raw intel. A signals intelligence 
report, a HUMINT report is a raw piece of intelligence. If it 
is threat information, it gets posted immediately on that Web 
site so that it is immediately available to those officers at 
the Department of Homeland Security, at the FBI, at the JTTFs 
and other places. So what we are trying to do is to streamline 
the processes so that we can make that information available as 
quickly as possible so it doesn't have need to have human 
interventions, so it doesn't need to be handed off by somebody, 
so it is immediately posted and made available to the officers 
and analysts that need it.
    [3:55 p.m.]
    Mrs. Christensen. Now, Mr. Parrish, you said that you----
    Chairman Cox. The gentlelady's time has expired. But by all 
means, ask the question you were in the middle of.
    Mrs. Christensen. It will be quick.
    You independently analyze. If you analyze this data and 
TTIC analyzes the same data and comes up with different 
conclusions, what happens then?
    Mr. Parrish. The analysis that is done by the Information 
Analysis Directorate will be that information that we move 
forward in putting out to our customer base. The information we 
look at, again, we are looking at it from the eyes of our 
customers, the private sector, the State and local, to make 
sure that this information we are putting out there is 
something that they can actually react to, not just a 
generalized threat.
    Chairman Cox. The gentlelady's time has expired.
    The Chair recognizes himself for 5 minutes.
    Let me just take a moment to step back from where we are, 
because you have all been seated at this table for a while, 
although at least we got some unscheduled--actually, you didn't 
have any unscheduled breaks; we did, we got walking time--and 
let me just state that if any member needs to absent himself 
for any purpose, any member of the panel, please feel free to 
do so and I will address my questions to whoever remains.
    But then please come back.
    Second, because we are drilling down to some very specific 
questions at this hearing, I think it is appropriate to take a 
step back and remember why we are all here and the debt of 
gratitude that we owe to everyone at this table. We are very 
grateful, and we can't say so often enough, for the work that 
you are doing to defend our country.
    We just want to make sure it works. We want to make sure 
that the bureaucratic design that Congress wrote only a year 
ago in statute is implemented in a way that both fulfills the 
intent of Congress, but more importantly, fulfills the 
objective that we are trying to seek.
    And so, as we discuss the relationship of TTIC, for 
example, the Department of Homeland Security, keep in mind that 
is what you have in mind and what we have in mind, and we are 
on a joint mission here.
    I was at the FBI on Valentine's Day when the President 
fleshed out the recommendation that was carried in the State of 
the Union message for the creation of TTIC. And I have stated 
publicly on many subsequent occasions that I view TTIC as a 
good thing for a number of reasons, signal among being that it 
is combining elements that are already there.
    We are creating the Department of Homeland Security, in 
some respects, from scratch, and it takes time to get things up 
and running. And I consider TTIC to be there for, if nothing 
else, an expedient so that the American people are protected on 
Day One.
    And the question arises, where are we going over the long 
term? And what will this relationship look like? And will TTIC 
at some point recede in favor of a more robust capability that 
is ultimately constructed within the Department of Homeland 
Security?
    Last June, the DCI testified in support of this new 
organization. He stated that it will, quote, ``merge under one 
roof the capability to assess threats to the homeland.''
    Mr. Brennan, I just want to make sure if that is your 
understanding.
    Mr. Brennan. Yes, sir. My understanding, that is what he 
said.
    Chairman Cox. No. But is that your understanding of the 
mission?
    Mr. Brennan. The mission is to integrate the information so 
that we can understand the threat to U.S. interests both at 
home and abroad.
    Chairman Cox. This idea of doing everything under one roof 
that is the essence of his comment; is that how you understood 
your mission?
    Mr. Brennan. I understand the mission as under this joint 
venture umbrella that we have at our disposal those agencies 
that have a share of the responsibility for this. So I agree 
with that, all the things that you said leading up to that 
question in terms of TTIC's providing this type of assistance 
now to the Department of Homeland Security.
    It may be an expedient. We don't know where it is going to 
go in the future. But it is trying to have all the different 
agencies do the right thing together.
    And so TTIC does have broad-based responsibility for the 
Homeland Security as well as foreign terrorists.
    Chairman Cox. Well, the reason I mention that is that the--
I was deliberately ambiguous in my question when I stated that 
this new organization will, quote, ``merge under one roof the 
capability to assess threats to the homeland,'' because what 
the DCI was testifying about was not TTIC, but the Department 
of Homeland Security; and I am personally very confused about 
how it is different. Because that, to me, is a very key reason 
for the Department of Homeland Security.
    It is a statutory mandate. And we have a similar mandate 
for TTIC. I might say, by extension, that we have a similar 
mandate for the FBI, because I have been very impressed with 
the Director's efforts to focus on the terrorist threats to the 
homeland. But he has made that job one of the FBI's preventing 
terrorism.
    That is also the job of Homeland Security, job one of its 
three missions, preventing terrorism. I don't think it is 
necessarily bad that we have multiple people, multiple agencies 
with capabilities, after all, working on this. We just need to 
make sure that in the Homeland Security realm, this all fits 
together and that it all works.
    And it is a challenge, because there are things about TTIC 
and things about Homeland Security, things indeed about the FBI 
that not only overlap, but if you take them apart, look exactly 
identical to one another.
    You mentioned earlier, Mr. Parrish, that you have not been 
denied any information that you have asked for. In addition, I 
take it that you are getting all of the information that you 
haven't asked for.
    Mr. Parrish. That is correct, sir.
    Chairman Cox. Because the statute is very clear that you 
are not supposed to have to ask for information except in 
narrow categories. And I think it is vitally important that all 
the participants in this process understand that; because if I 
were you, or if any person were you, our unique inability would 
be to ask for things we don't know about. We can only ask for 
what we suspect we need to know, but we can't possibly know 
what we are not getting, and, therefore, we are entirely 
dependent upon the other agencies to fulfill their statutory 
mandate to provide, in this case, unanalyzed information.
    Mr. Parrish. Sir, if I might just add on that comment just 
very quickly. We are getting better and better each day, but I 
will be honest, it is not a push-pull system at this point. And 
I think that was kind of the intent of your comment, and that 
is why I made that remark early on about the work-arounds of 
having the representation of other agencies inside IA and being 
able to explain why this piece of information is germane to an 
organization in Homeland Security, why this is important to a 
critical aspect of the mission of Homeland Security. Once that 
is explained, the lights come on.
    As I mentioned earlier, Friday, over 40 people gathered 
from a wide variety of intelligence communities, predominantly 
Department of Defense, as I was pulling the string on some 
debriefings of some detainees, because there is critical 
information. As I explained how we used that information to our 
customer base, the private sector, the public, State and 
locals, it was a new concept.
    So each day we are making progress when we educate our 
partners in this fight.
    Chairman Cox. I want to thank you. My time has expired, and 
I am going to ask unanimous consent for 1 additional minute to 
leave the panel with a question, and then I will yield the time 
without objection.
    First, to the Department of Homeland Security, Mr. Parrish, 
I hope that you can assure us that TTIC's rapid development 
will not be allowed to delay or otherwise hinder the Department 
of Homeland Security's information analysis capability from 
reaching its full statutorily mandated scope; and, also, your 
mandate to conduct independent all-source analysis of terrorist 
threat information.
    And, second, to our other two witnesses--both, if you can 
speak on behalf of your parent agency, Mr. Brennan, the CIA, 
and if you can answer on behalf of the FBI: Will sharing 
information with TTIC either as a matter of routine or on 
occasion meet the Agency's statutory obligations to share 
information with the Department of Homeland Security?
    And those are my questions, and I appreciate the indulgence 
of the panel. And I will allow time for responses and then 
yield.
    Mr. Parrish. Sir, the Under Secretary for Information 
Analysis and Infrastructure Protection, Frank Libutti, is very 
committed toward rapidly standing up the IA capability to its 
fullest extent possible.
    TTIC is a force multiplier right now. It is an enhancement; 
it complements what we are doing. But it is also making sure 
that we have the mechanisms in place to ensure we have no gaps 
and we have no seams. It is not slowing down the progress that 
we are pushing hard to get us up to a full 100 percent 
capability.
    Mr. Mefford. The FBI, sir, recognizes our responsibility to 
share terrorism threat information with TTIC and all terrorism-
related intelligence with the Department of Homeland Security.
    Chairman Cox. Thank you, Mr. Mefford.
    Mr. Brennan. Each of the agencies has a responsibility to 
share information with DHS. Sharing it with TTIC does not 
obviate that requirement. My understanding, based on the MOU, 
is that only by a separate written agreement, in fact between 
the Secretary, Secretary Ridge, and the DCI or one of the 
signatories to the MOU, may information be shared exclusively 
with TTIC. But it does not, in my mind, mean that information 
that is shared with TTIC should not be shared with the home 
agency.
    Chairman Cox. Thank you for your answers.
    And I next yield to Ms. McCarthy.
    Ms. McCarthy. Thank you, Mr. Chairman, and I thank the 
witnesses. They have been here a long while and answered every 
question, and we are very grateful for that.
    I wanted to follow up briefly on a line of questioning Mr. 
Etheridge had with you a little over an hour ago, with regard 
to your role in providing information to the State and local 
governments who need it.
    And my concern--and I very much appreciated your response 
to him, but, Mr. Parrish, if a State or local government 
officer finds information that should be reported to the 
Federal Government, to you or what other appropriate 
individual, my concern is whether the officer will know where 
to report that information and whether there are guidelines for 
that kind of information being reported.
    You know, I am just worried. I have had a lot of meetings 
with my local responders back home, which everybody is doing, 
and it is of great interest to them and to us. But I am not 
sure that it is clear to the State and local officials and law 
enforcement what types of information should be reported. This 
has come up over and over again in meetings that I have had.
    Is there training on what kinds of information might be 
indicators of terrorist activity? Who is responsible for 
training those State and local officials? Will it be through 
the FBI, the DHS? The Federal Government has chosen my 
district, Kansas City, to receive funds for technology to 
upgrade their communication skills with each other, which is 
important for my fire chief and my police chief to be able to 
talk together and to get training for that. But as far as 
information-sharing goes, there are a lot of questions and 
concerns about, what do we know and when do we know it, and 
when do we share it if we do know it, and if we know it, is it 
what we are supposed to know.
    Any thoughts you have on that, on plans for the future to 
help our local responders, I would be grateful for your 
information today or whenever it is appropriate. Thank you.
    Mr. Parrish. We are moving forward as quickly as possible. 
As you know, the Office of Domestic Preparedness now falls 
under the Department of Homeland Security. One of the things 
that I am looking to do is to rapidly establish a training 
program exactly for that reason, to help the State and local, 
again in coordination with FBI who has that responsibility.
    But you are exactly right. They need to understand what is 
a critical piece of information.
    During the 4th of July weekend, the Department of Homeland 
Security Operations Center, which is manned 24/7, reached out 
and established connectivity throughout the country with a lot 
of local departments and operations centers for that very 
reason, to report suspicious activities.
    As you recall, Operation Liberty Shield when our Nation 
went to a high state of alert, an orange, in anticipation of 
hostilities in Iraq, again our operations center was receiving 
phone calls from State and local, reporting things. And it is 
not just the State and local, but he is getting a phone call 
from American citizens that are saying, I saw something out 
there that appeared to be strange. That is the means of 
connecting the dots.
    And, again, the Department has only been up and running 
since March 1. I know that may seem like a long time to some, 
but we are making progress. But that connectivity is critical 
to the information flow that must come into IA so we can assess 
that to see, is there a correlation to the surveillance at one 
chemical facility in Warrensburg as compared to another 
facility maybe over in Liberty. And then we could take 
corrective action and take a look at what we are dealing with.
    So it is a great question, and certainly it is a high 
priority, at least from my perspective, on getting that 
training out to the field.
    Ms. McCarthy. I thank you for your response. And please 
keep the Chairman, Ranking Member, and Committee Members 
apprised of anything we might do to help further that effort 
that you have, especially if it is funding issues or other 
means where we may be of assistance.
    I know it is a commitment of every Member to be able to 
make sure that those homeland first responders have the 
knowledge that they need to take the action that they should in 
a timely and correct way.
    So thank you for making this a priority. I very much 
appreciate your testimony and the thoughts that you all shared 
with us today.
    And I yield back, Mr. Chairman.
    Chairman Cox. The gentleman from Texas.
    Mr. Turner. Thank you, Mr. Chairman.
    This hearing has been very interesting to me in trying to 
sort this out. And I think, if we go back and look carefully at 
the transcript that will be produced of your testimony, we will 
probably have even more questions.
    For example, the suggestion was made, I believe by Mr. 
Brennan, that you had a responsibility at TTIC to look at 
foreign intelligence that came to CIA, and you look at that. I 
don't know if it was you or Mr. Parrish that suggested that the 
Department of Homeland Security looks at domestic intelligence, 
inputs domestic intelligence. There seemed to be an effort 
there to distinguish the two roles that you have.
    But when you go and read Mr. Parrish's testimony, it 
clearly says that the Information Analysis section of Homeland 
Security has the ability to conduct-and I am quoting here--
``its own independent threat analysis based on information and 
intelligence drawn from other agencies within the Department of 
Homeland Security, the FBI, the CIA, or the members of the 
intelligence community plus State and local law enforcement and 
private-sector entities.''
    Now, I would be very frightened if anybody told me that the 
only intelligence that they were going to look at was the 
domestic side and that the foreign intelligence is somebody 
else's role. Obviously, in fighting terrorism they overlap and 
intertwine. Maybe what we are coming down to here is, when I 
look, Mr. Parrish, at the last page of your written testimony, 
you speak in terms of the Department's analysts who are located 
at your headquarters. You say that they will also conduct 
competitive terrorism threat analysis to that taking place at 
the Terrorist Threat Integration Center.
    For example, you say the Secretary may want an independent 
look at a particular conclusion reached by analysts, including 
IA analysts, at the Terrorist Threat Integration Center. And 
you acknowledge that such competitive analysis is a sound 
practice and has been followed for decades in the intelligence 
community.
    So what you may be telling us today is that both of you are 
going to do the same thing because we need to do it twice, 
maybe. And when I hear the FBI telling us that your role is to 
notify local law enforcement of what you know and the 
information you collect through the Joint Terrorism Task Force, 
and I hear Mr. Parrish say that his job is to notify local 
officials, which, to me, includes law enforcement, then it 
seems to me that we are doing the same thing through two 
different channels.
    And I am not going to suggest to you that I have concluded, 
that is a bad thing. It could very well be that all three of 
you are going to do all the same things in terms of information 
collection analysis.
    The one thing that I do understand that is only done by the 
Department of Homeland Security is an evaluation and analysis 
of our critical infrastructure. And it is in that role that the 
Department seems to have a unique responsibility. That is, we 
look at the threats on the one hand and our critical 
vulnerabilities on the other, and we match them up, and out of 
that flows action on the part of the Department and other 
agencies to be sure that we are protecting America.
    Out of that activity also should flow the priorities for 
funding by the Congress, because there is no other place that I 
know of that we have created the expertise to decide what are 
the most important things for this Congress and the American 
people to spend money on to protect this country, unless that 
function within that department takes place.
    So maybe we have come to a conclusion here, after listening 
to all of you, that all three of you collect the information, 
all three of you analyze the information, all three of you 
receive it from the various sources that all of you can get, 
and then you share it. And then Mr. Parrish at the Department 
of Homeland Security takes that information, matches it against 
our critical vulnerabilities, and comes up with action on the 
part of the Government to protect America and recommendations 
to this Congress on what we ought to be spending our hard-
earned tax dollars on.
    Now, do any of you want to comment on my conclusions, and 
tell me that I am wrong and haven't been hearing you correctly 
today?
    Mr. Parrish, you seem anxious to give me the first 
response.
    Mr. Parrish. Sir, I think you have listened well today.
    Then, what you said--I would like to clarify, when I say 
``domestic intelligence,'' really what we are looking at is all 
of the intelligence toward the domestic threat. In other words, 
there is overseas intelligence that has a string possibly to a 
domestic threat, so IA is assessing it in that regard.
    But you are exactly right. We are trying to assess the 
information and intelligence against the critical 
infrastructure, identify the vulnerabilities in that to help 
prioritize the spending plan of the Federal Government, to help 
the spending of the private sector as they enhance their own 
security postures, to confront their border directors to say, 
we need to increase security.
    This is a team effort. It is a partnership across the 
entire Federal Government, State and local and private sector. 
But I am very positive that we are making progress in this team 
effort.
    Mr. Mefford. Sir, I have just a slightly different view of 
that.
    While we agree that the team approach and the coordinated 
entities both at the headquarters level in D.C. and, even more 
importantly, throughout the country regionally are critical to 
success in the war on terrorism, where we work very closely 
with Federal agencies and State and local agencies.
    In the FBI's case, we have a very focused mission, and that 
is to prevent terrorist attacks, to actually respond to 
terrorist threats; and we think that we have the responsibility 
to make sure that an attack does not occur. That is why the 
Director has prioritized the prevention of terrorism as the 
number one focus of the FBI today.
    In that approach, it is very important for us as an agency 
to work with our State and local partners and with our Federal 
partners in the JTTFs to establish a comprehensive intelligence 
base domestically in the United States in conformance with all 
constitutional standards and parameters. And by doing that, we 
bring our law enforcement mission, fused with our intelligence 
mission, to focus on identifying terrorist threats in the 
United States, both domestic- and foreign-based.
    It is absolutely critical that we work closely with the CIA 
and with Homeland Security to fulfill that mission, and 
consequently, the mechanisms that have been created, we think--
and we see advantages in the collocation and the integration of 
these agencies while they maintain their separate status.
    Mr. Turner. And all the information that you receive from 
your Joint Terrorism Task Force and your other intelligence-
gathering activities, you immediately share with the Threat 
Integration Center and immediately share with Homeland Security 
simultaneously?
    Mr. Mefford. Yes, sir. The threat information goes to TTIC, 
and then the raw intelligence information goes to Homeland 
Security.
    Now, to clarify this issue, as you know, one of the 
weaknesses that the FBI has experienced is in our automation 
tools. And we have a very aggressive, under Director Mueller's 
leadership, IT program to enhance our capabilities. That is 
scheduled to come on line later this year.
    Because of that fact, the fact that we do not have the 
automated tools today, we have to do many things, as my 
counterpart, Mr. Parrish, has indicated, in a roundabout or 
work-about fashion. That is why we have 342 DHS personnel 
assigned to FBI JTTFs and at FBI Headquarters, because there is 
no other way to do it today.
    But we have improvised to make sure that all the 
information is shared.
    Mr. Turner. Mr. Brennan, do you want to comment on my view 
of where we are?
    Mr. Brennan. Just a couple comments. I think you made 
reference to the fact that we all collect, analyze, process, 
disseminate intelligence. TTIC alone, here at the panel, does 
not collect information. Again, I just want to make that very 
clear.
    Secondly, I think you are absolutely right, and it was 
mentioned here before, knowledge and information for the pure 
sake of knowledge may be self-gratifying, but it doesn't do any 
good in terms of preventing terrorist attacks. We have to make 
sure that that information and knowledge is shared 
appropriately and provided so that action is taken. It is 
actionable intelligence that we are looking for.
    Third, I would really like there to be very bright lines 
between our respective responsibilities in the U.S. Government, 
between the different departments and agencies. It would 
probably make all our lives a lot easier. Unfortunately, 
though, as I look closely at the statute--and I have done a lot 
of reading of the statutes over the last several weeks and 
months--there are not the bright lines there. And so what we 
are trying to do here in TTIC is find an innovative approach to 
meet and fulfill the obligations of the different statutes.
    The Homeland Security Act is a wonderful act. I think there 
are a lot of things in there--there are a lot of things that 
are going to take time to realize. Because just saying it has 
to be done is not something that in the Government can happen 
very quickly.
    So what we are trying to do is understand fully those 
obligations and make sure we work closely with the FBI and DHS 
to realize all those goals and objectives laid out in the 
Homeland Security Act.
    Mr. Berman. Mr. Chairman, just one comment on it.
    I hear different agencies are doing similar functions. And 
I want to remind the Committee that we are talking about very 
information-intensive analysis of threats, and that when they 
say that there may be--they may not be collecting, but when 
they say there is a gap or the threat is scuba divers, then 
that may trigger 6 billion background checks of scuba divers. 
Or if they say it is bank records, and foundations are 
funneling money to al Qaeda or to possible threats, that means 
bank records of American citizens are being scanned or patterns 
are being looked at by combing through credit records, bank 
records, under very loose authority which says, give it to the 
Government, give them the discretion, and let them use high-
tech technology and look at the threat analysis.
    Those are significant privacy issues. And it was the 
intent, I believe, of the President and the Congress and 
whoever worked on this act that that would come under some 
oversight system, that there would be standards, audits, and 
accountability of what is being collected, how it is being 
collected, and how it is being disseminated.
    And I urge the Committee that whether it lets TTIC continue 
to float or watch the experiment grow, that we have to answer 
the question of how this accountability is going to be 
structured and how they are going to operate.
    Simply saying the privacy laws in the Constitution doesn't 
help you here, because, as you know, our privacy laws are 
mostly based on policy decisions, particularly for information 
not held by you in your home. And we have a whole regime of 
laws, regulations, so forth, with the private sector, that are 
much stricter.
    The Government does not have those restrictions, and we do 
not know what the rules are and what data is being collected 
and how it is being used, without that oversight system that 
Congress called for, which is in section 221, I believe, of 
this act.
    Mr. Turner. Thank you, Mr. Chairman.
    Chairman Cox. The gentleman's time has expired.
    The Chairman recognizes himself.
    This has been an excellent discussion, and I just want, 
before we finish, to see if I have inferred the proper 
understanding of what you are trying to make sure we 
understand. Let me begin with the question of redundancy, which 
has been a major theme of questioning here today and which you 
have addressed repeatedly, redundantly perhaps.
    I understand, Mr. Brennan, that you are at least indulging 
the possibility that if DHS ultimately achieves its full 
statutory mandate and potential, that TTIC might be, in the 
final analysis, an intermediate expedient; is that right?
    Mr. Brennan. I think TTIC is going to continue to grow and 
evolve, and I would like to keep it flexible so that we can 
adapt to the requirements over time. And so where TTIC is going 
to be or what it is going to look like 2, 3, 5 years from now, 
I can't say. I am open-minded on the issue, certainly.
    Chairman Cox. But I do believe that you said in response to 
an earlier question that one of the things that might happen is 
that it might sunset in favor of the capability that has been 
established in the Department; is that right?
    Mr. Brennan. No. I think I agreed with your statement that 
it may be an expedient at this point in terms of facilitating 
the stand-up of DHS and helping DHS fulfill its mission.
    Chairman Cox. So it is not even within prospect that it 
might sunset then? It is your view that it is permanent?
    Mr. Brennan. No. I am saying that--I was just stating that 
I agreed with your earlier characterization, which means that I 
would say that, yes, there is the possibility that it, in fact, 
should have at some point a different type of role or 
responsibility.
    Chairman Cox. But do you----
    Mr. Brennan. There is no sunset clause right now in any of 
the documents that have been setting up.
    Chairman Cox. Right. But I am just trying to understand 
what is within the range of possibility.
    TTIC, thus far, is an expedient; and one of the things that 
we can do is set it up in statute and make it permanent. 
Another thing that can happen is that it can sunset. And it 
seems to me that everything else is in between.
    I am wondering whether you think all of those are, at this 
point, possibilities, or whether you don't see any 
circumstances under which TTIC would sunset.
    Mr. Brennan. No. I think, by definition, they are all 
possibilities.
    Chairman Cox. Thank you.
    Next, let us assume that it does not sunset and let us 
assume that IAIP within DHS has reached its full potential and 
its statutory mandate.
    What is it then that TTIC is going to be doing that DHS 
does not do? And I would address that to Mr. Brennan and Mr. 
Parrish.
    Mr. Brennan. I would say, first of all, as I talked about 
before, that the overwhelming majority of information available 
on the threats to the homeland comes from foreign intelligence 
sources. It frequently requires a lot of digging analysis of 
that information in order to identify potential threats to the 
homeland. So I would see TTIC still having a role, along with 
the other partner agencies--with the partner agencies to 
understand that threat.
    Chairman Cox. Mr. Parrish?
    Mr. Parrish. Yes, sir.
    Again, the function of IAIP is really taking a look at the 
threat to the homeland as far as the threat mapping that we do 
to the critical infrastructure in the country. At the same 
time, we also have responsibility to our subordinate agencies 
to ensure that we are providing intelligence products to 
Customs and Border Protection, to Immigration and Customs 
Enforcement, Secret Service, Coast Guard, so we have a 
constituent both within the Department, as well as getting 
products of threat assessments out to the State, local, and 
private sector.
    Chairman Cox. And so what is TTIC doing that you are not 
once you have reached your full potential?
    Mr. Parrish. Well, TTIC will continue to be doing the 
intelligence analysis, and providing that information to us 
that we will again----
    Chairman Cox. But you are going to be, when you reach your 
full potential, doing the intelligence analysis; and I am just 
wondering what it is they are doing that you are not doing.
    Mr. Parrish. Again, I would agree with Mr. Brennan on the 
standpoint of looking at some of the international aspects of 
it. Again, we are looking at domestic threats, so we are really 
trying to look at the international threats for the domestic 
nexus. Their focus is more--broader in that area.
    Chairman Cox. But let us take al Qaeda as a fairly relevant 
example.
    Al Qaeda is located within the United States, so 
intelligence collection on al Qaeda is domestic; al Qaeda is 
located overseas, and so intelligence collection on al Qaeda is 
foreign. Are you suggesting that Homeland Security is not 
charged with foreign intelligence analysis?
    Mr. Parrish. No, sir. We are.
    Chairman Cox. So you are doing both domestic and foreign 
intelligence analysis. What is the TTIC doing that you are not 
doing?
    Mr. Brennan. If I could jump in here, they are not 
evaluating the threat to U.S. interests abroad. TTIC is.
    Chairman Cox. All right. So the difference is that the 
threat to U.S. interests abroad is what remains for TTIC. And 
what the Department of Homeland Security will be doing is 
looking at both domestic and foreign intelligence with a view 
to the domestic threat.
    All right. Is that acceptable to you, Mr. Brennan, that 
once--that is to say, do I properly state your understanding? 
Because I don't want to put words in your mouth.
    Mr. Brennan. I still am very much in favor of an integrated 
environment where you can have the representatives from these 
different agencies working collectively together, not just in 
one agency or another, but in a task force command, joint 
venture activity. Because there are synergies that develop from 
that environment that you can't replicate in any individual 
department or agency.
    Chairman Cox. Mr. Parrish, we have been speaking of some 
time in the future when the Department of Homeland Security's 
IA function reaches its full, statutorily mandated potential. 
When do you think that the IA subdirectorate will be at full 
potential as contemplated by the statute?
    Mr. Parrish. In fiscal year 2004 funding, we have the 
appropriations, once passed, that we should be able to hire the 
additional analysts that are required. So what I would expect 
of IA, somewhere in--hopefully, by this time next year is that 
we would have the full complement of personnel required to do 
the analytical as well as the assessments necessary.
    Chairman Cox. Now, from the testimony, I inferred that in 
terms of its contribution to TTIC, we expect by the end of the 
year DHS will have about 40 analysts contributing to TTIC; is 
that right?
    Mr. Parrish. Right. The manning for TTIC, what we are 
looking at really is kind of a rule of thumb: 10 percent of the 
total TTIC manning at a given time, we would have 10 percent of 
that number of DHS analysts. So, for example, as Mr. Brennan 
has indicated, right now they are at about 100; we are 
somewhere--between seven and ten analysts is what we will have 
over there. Currently, there was six, plus the Associate 
Director for Homeland Security. By May of 2004, if TTIC reaches 
their number of 300, we would envision then probably 30 
analysts representing the Department of Homeland Security.
    If time allows, I would like to explain a little bit of the 
concept there, because I think it is very important to 
understand the DHS analysts.
    Chairman Cox. Mr. Parrish, I wonder if I might--in 
deference to my colleagues, I would like to give you that 
opportunity to explain it, and I shall. But my time has 
expired, and so I would like to recognize Ms. Jackson Lee. And 
I will be sure to ask you that immediately when it is my time 
again.
    Ms. Jackson Lee is recognized.
    Ms. Jackson Lee. I thank the Chairman very much. I probably 
will abbreviate my questions, and ask unanimous consent that my 
statement be submitted into the record.
    Chairman Cox. Without objection, so ordered.
    Ms. Jackson Lee. Let me point my question to Mr. Brennan.
    The President announced the formation of TTIC, I believe, 
in his State of the Union address. My question to you is, and I 
will make a few comments before I ask you to answer--my concern 
with all the work that we are doing, though I know that we are 
certainly with good intentions, both the Select Committee on 
Homeland Security, various jurisdictional Committees, TTIC; is 
that why Rome is burning?
    We are idly sort of treading water. I see that with respect 
to processes with first responders. I see that in terms of 
local communities being prepared for terrorist attack.
    I see a certain malaise developing. Oh, it hasn't happened. 
It was 9/11; we talk about that in historical terms. We are 
mourning, we are certainly overwhelmed by the tragedy and the 
enormous loss of life, but we are not ready, and I don't 
believe that we are at the level of seriousness that we need to 
be.
    My question to you, as the head of TTIC as I understand it, 
are we synergized, energized, and interrelated?
    The CIA is known as having a history of not sharing 
information. That was one of the concerns we had after 9/11, 
along with certainly enormous questions with respect to the 
FBI. What has occurred that I should feel more comfortable that 
there is some sort of interrelatedness? And what do you need 
from this Committee to ensure that that happens?
    Mr. Brennan. I believe there has been a lot of energy and 
synergy created over the past year, in particular with regard 
to Homeland Security issues and the sharing of terrorism 
information.
    There are a number of initiatives under way right now to 
ensure that we put in place the best information systems, the 
best business practices, the best security procedures and 
declassification efforts to move threat information as swiftly 
as possible from its point of collection to the point that 
needs the information in order to defend against terrorist 
attacks.
    So I think TTIC's being stood up is an indication of the 
seriousness with which certainly CIA views the importance of 
sharing that information, because within TTIC right now CIA 
information systems and databases are made available, and that 
information is made available to their colleagues, their fellow 
analysts within TTIC, to ensure that there are no oversights, 
intentional or otherwise.
    Ms. Jackson Lee. And where does that information go once it 
is analyzed in TTIC?
    Mr. Brennan. It is provided, as appropriate, to those 
Federal agencies and departments that have a responsibility to 
take that information and then to act upon it.
    Ms. Jackson Lee. What about to local law enforcement?
    Mr. Brennan. We rely on FBI and the Department of Homeland 
Security to do that.
    Ms. Jackson Lee. So then you give it to the FBI and 
Homeland Security, and then they are supposed to trickle it 
down to local?
    Mr. Brennan. It is their responsibility, yes.
    Ms. Jackson Lee. So I am concerned about layered 
responsibilities, because it was my understanding, or at least 
my misunderstanding, that that information would go directly to 
a need-to-know--on a need-to-know basis, so that if there was a 
potential attack in California, Texas, Seattle, Washington, 
Jackson, Mississippi--and I randomly say these names, so I hope 
I don't get calls from the constituents there. I am not saying 
there are any terrorist attacks at all; I am only using those 
as examples.
    Then they would have to wait until it trickled over to and 
then down to the local communities? Is that the way it 
functions?
    Mr. Mefford. No, ma'am. Threat information is relayed 
immediately. And it is our view that we have made tremendous 
progress since 9/11.
    Prior to 9/11/01, we had 35 Joint Terrorism Task Forces in 
the country; today, we have 66, growing to 84. They will be in 
every major metropolitan area, incorporating State and local 
law enforcement and our other Federal partners in the war on 
terrorism.
    The FBI has rolled out brand-new, very aggressive training 
programs to provide basic and advanced counterterrorism 
training to these folks. We have created the national JTTF in 
D.C. to coordinate the Federal Government's efforts 
operationally. We send out a weekly Intel bulletin to the 
16,800 police agencies throughout the United States. We are in 
the process of establishing a system through law enforcement 
on-line, known as LEO, so that we can refer relevant terrorism 
information, not just specific threat data, because that will 
be transferred directly to the JTTFs, but other relevant 
information that would be helpful to State and local law 
enforcement.
    We have created a brand-new position----
    Ms. Jackson Lee. Mr. Mefford--is that Mr. Mefford--let me, 
because my time is going to run out. If we had a situation 
where an area of this country was under immediate threat, am I 
to understand that there is the SOS ability to get it directly 
in the hands necessary? Or I am to hear--and I appreciate what 
you are saying to me, a whole long sort of grid that I am 
hearing, but I am sort of seeing stars.
    I want to know if we can get the word about a terrorist 
attack pending--let us not say ``attack''--to the appropriate 
entity quickly, without detail and without bureaucracy?
    Mr. Mefford. Yes, absolutely.
    Ms. Jackson Lee. Let me ask Mr. Brennan. Are you in a state 
of organization, or you are in place working? Is this still in 
an organizing mode, or are you in place so that you are 
actually functioning with all of your particulars in place?
    Mr. Brennan. We have been functioning since 1 May. But we 
are a growing and evolving organization. We have about 100 
folks now, but we are growing to about 300 or so by this time 
next year.
    Ms. Jackson Lee. Let me finish on this point. I am 
concerned, as well, that we balance getting direct information 
and avoiding terrorist acts and terrorist disasters with civil 
rights and civil liberties. Is there a component in TTIC that 
deals with that? Or do you embrace or work with other agencies 
on that issue?
    Mr. Brennan. We are working very closely with all the 
partner agencies, the Department of Justice, the FBI. I have 
spoken to the Attorney General about the importance of this 
issue. Within TTIC we have rules in place. We are trying to 
make sure that we do everything possible to ensure that there 
is no abridgement of U.S. citizens' privacy rights.
    Ms. Jackson Lee. You would be open to Members of this 
Committee visiting TTIC and having a walk-through and also 
probing these questions a little bit further?
    Mr. Brennan. I would certainly not be opposed to that.
    Ms. Jackson Lee. Thank you.
    Thank you, Mr. Chairman. I yield back.
    Chairman Cox. The gentlelady's time has expired.
    Now, Mr. Parrish, I want to allow you the opportunity to 
complete your thought.
    Mr. Parrish. Just quickly, sir, I appreciate it.
    But as we look at the Department of Homeland Security 
analysts, I like to look at that as somewhat of a hybrid. It is 
a new organization. It is melding together, as you know, 22 
agencies. But bringing from the operational perspective of 
Customs and Immigration and Customs Enforcement, Coast Guard, 
Secret Service, we are bringing them together in NIA.
    We will have a fusion cell there that will be kind of the 
incubator, if you will, of developing this new hybrid analyst 
who is looking at operational information that may be collected 
by a Customs inspector or a maritime boarding team from Coast 
Guard, information that is acquired, and training them within 
IA. And then they will be the ones that will eventually be the 
IA or DHS analyst that will be assigned to TTIC and rotate 
through there on either an 18-month or 24-month basis.
    I think this will be healthy for the entire process. It 
will establish continuity and will certainly represent, within 
TTIC, individuals who understand the operational environment of 
the Department of Homeland Security.
    Chairman Cox. Thank you.
    Now, my understanding is that--from your testimony, Mr. 
Brennan, that TTIC is now a little over 100 officers.
    Mr. Brennan. Total officers, yes. About 65 or so analysts.
    Chairman Cox. Sixty-five or so analysts.
    That the complement from DHS lies somewhere between the 
seven that we had when TTIC opened its doors and the 40 we 
expect to have at the end of the year. Is that right, Mr. 
Parrish?
    Mr. Parrish. At TTIC, actually the number will be about 
300. If the total number of TTIC by May of 2004 is at 300, we 
will have about 10 percent. So roughly 30 would be our 
personnel assignment to TTIC.
    Chairman Cox. About 30 is what you expect to have by what 
date?
    Mr. Parrish. Looking at May of 2004 when TTIC moves to its 
new facility.
    Chairman Cox. And what is it just now?
    Mr. Parrish. Right now, it is seven. So we are looking at 
bringing over, I believe it is six additional.
    Chairman Cox. And how many analysts do we have at IA right 
now?
    Mr. Parrish. It is 53 and a liaison person.
    Chairman Cox. And where is the Department getting its 
analysts? The reason I ask is that if you are attracting them 
from other United States Government agencies, won't the 
Department of Homeland Security have to compete with TTIC as we 
add people?
    Mr. Parrish. I don't think we will see the competition. 
Again, I think right now we have analysts, some that are 
detailed from other agencies as we are standing up for that 
capability. But we look to hire then, on a full-time employment 
basis, the total complement of analysts.
    We are also looking internally at some of the analysts that 
reside within the subordinate agencies of the Department of 
Homeland Security, intelligence analysts that may exist in some 
of the other agencies where we could draw upon their expertise 
and bring them in.
    Chairman Cox. Now, at 53, you are part way along the road 
to where you intend to be. When you are at the end of that 
road, how many analysts will you have?
    Mr. Parrish. The total number we are looking at within IA--
again, I would come back with an official number for you at a 
later time. But it is roughly at about--150 is the number we 
are looking at.
    Chairman Cox. And when do you think that would be?
    Mr. Parrish. Our target goal--obviously, as I said before, 
next summer, if we could achieve that, would be great.
    In 2003, we have space for, I believe the number is a total 
of 86 within IA. And, again, IA is both the Information 
Analysis where we have our Risk Assessment Division and also 
our Information Management Requirements Division. So the total 
number in that area 86 for 2003, we will continue to hire more 
during 2004 with a goal of, as I said, about 150 analysts.
    Chairman Cox. Now, as you look to treble the number of 
analysts from present to a year from now, going from roughly 50 
to roughly 150, you are absolutely certain that this will not 
place you in competition with TTIC for recruiting analysts from 
other agencies of the U.S. Government? You are not going to be 
looking toward any of the same people?
    Mr. Parrish. I think it would be, obviously, premature for 
me to say specifically ``no'' to that at this point in time. 
Really, we haven't gone out there and tested the market at this 
point.
    Chairman Cox. The Department of Defense over the last year 
has stood up NORTHCOM. The Committee went out and met with the 
people at NORTHCOM, and learned a great deal during our visit. 
In terms of analysts, they have since last year grown to 300 
from a standing start of zero.
    The 300 analysts at NORTHCOM, who are looking at the same 
thing, in large measure, that TTIC is looking at and the 
Department of Homeland Security is looking at with respect to 
domestic threat, according to the diagram that was presented to 
us during our visit--we were there qua congressional 
Committee--they are relating to the Department of Homeland 
Security through TTIC. Is that your understanding?
    Mr. Parrish. The relationship with NORTHCOM is still being 
developed. We look to have some NORTHCOM representatives up in 
our operations center, again, 24/7 coverage. Reaching back into 
NORTHCOM to coordinate with them on some of the products that 
their analysts do is certainly going to be an additive to 
receiving that information.
    You are right, the Department of Defense has a significant 
number of analysts and resources available of which we are 
closely coordinating with Secretary Paul McHale's office in 
accessing DOD information.
    Chairman Cox. Mr. Brennan, is it your understanding that 
NORTHCOM is going to go through TTIC to the Department of 
Homeland Security?
    Mr. Brennan. I would defer to NORTHCOM on what they are 
going to do vis-a-vis Homeland Security.
    Chairman Cox. What is your experience? Is that happening?
    Mr. Brennan. We are working with NORTHCOM and other 
commands to establish exactly what the type of relationship we 
are going to have with them. So we are developing our 
relationship with Department of Defense commands and agencies 
currently.
    Chairman Cox. I will say that it took Members of the 
Committee by surprise, because in the same diagram that the 
Department of Defense showed us, all the other members of the 
intelligence community had a direct relationship to NORTHCOM, 
and the only member of the intelligence community that did not 
was the Department of Homeland Security.
    Surely if the mission of NORTHCOM is protecting the 
homeland, we ought, it seems to me, to have a direct 
relationship. And here, I would hope that TTIC would become, as 
you say, a force multiplier and not interference and not a 
filter.
    So I direct your attention to that. I realize it is a work 
in progress.
    Mr. Parrish. I might add, it is maybe your visit then, but 
we are getting a NORTHCOM, as I say, liaison into our 
operations center. So I may be coming back and saying thank 
you.
    Chairman Cox. Well, anything we can do.
    On this question of foreign intelligence, I am a little bit 
puzzled, still. In this future that we are describing in which 
the Department of Homeland Security has fully realized its 
information analysis capabilities, and we are doing, as the 
statute requires, the full scope of global analysis of the 
domestic terror threat, we are going to be looking at foreign 
intelligence, because, for example, al Qaeda is overseas and 
yet they pose a threat to us here in the United States.
    Are we not going to be looking at the threat to U.S. assets 
overseas? Because I understood in the earlier discussion--Mr. 
Brennan, at least--you to say that TTIC is going to be looking 
at threats to U.S. assets overseas, but the Department of 
Homeland Security should not do that.
    I am a little bit troubled by that, because when I take a 
look again at al Qaeda, the main paradigm that prompted the 
creation of this entire Cabinet department, we have an 
antecedent event, several of them, actually. But take, for 
example, the bombing of the Cole; al Qaeda did that. Surely, if 
you are piecing together the al Qaeda threat to the United 
States here, you would want to look at all of that information.
    And we would want the Department of Homeland Security to 
look, therefore, not only at foreign intelligence that relates 
to attacks on the United States, but also foreign intelligence 
that relates to U.S. assets overseas, because it is the global 
threat that DHS is responsible for; isn't that right?
    Mr. Parrish. Sir, if I misrepresented, we certainly are 
looking at the international intelligence picture from that 
standpoint to connect the dots, if you will, of what might be 
developed in planning an attack that occurs overseas, could the 
same occur in the United States.
    With regard to threats to U.S. interests, U.S. businesses 
overseas, we work very closely with the Department of State 
that has--as you know, the Overseas Advisory Council that has a 
mechanism of conveying these threats to U.S. businesses 
overseas.
    I will defer to Mr. Brennan, but the State Department now, 
I think, is a team member of the TTIC, or soon, and that 
intelligence piece is being worked through the State 
Department.
    Chairman Cox. Mr. Brennan, do you want to elaborate on your 
earlier comment that down the road, when DHS is fully staffed 
up and it has complete capability to do global threat analysis 
vis-a-vis the domestic threat, that the difference between TTIC 
and what DHS is doing is that you are going to also look at 
threats to U.S. assets overseas?
    I mean, is that--because I think Mr. Parrish is saying they 
are going to be looking at some of that, too.
    Mr. Brennan. I don't think there is anything in the 
Homeland Security Act that gives DHS the responsibility for 
analyzing and evaluating and assessing the threat to U.S. 
interests abroad, in terms of having that responsibility. I 
believe that still falls with, in fact, the Director of Central 
Intelligence, the Secretary of State, Secretary of Defense, and 
others. They are going to have access to that information as 
they need to in order to understand the threat to the homeland.
    But to evaluate the potential for al Qaeda to carry out 
attacks against the embassy in Amman or against U.S. citizens 
in India or Pakistan, that is not what the purpose of their 
looking at the information is for. It is to understand better 
and evaluate the threat to the homeland. TTIC and other 
agencies represented within TTIC have the responsibility for 
understanding that threat and making sure information analysis 
is made available so that actions can be taken to prevent those 
attacks.
    Chairman Cox. And so what we find is that the CIA 
ultimately is looking at the same information, but in major 
part for a different purpose; is that right?
    Mr. Brennan. Many times we are looking at the same 
information for different purposes, exactly right.
    Chairman Cox. And isn't that why we created the Department 
of Homeland Security? Because we have the CIA, which is in 
chief responsible for certain overseas operations, but also 
foreign intelligence analysis; we have the FBI, which is 
responsible for domestic counterterrorism. And yet we have a 
domestic threat that is located both here within the United 
States and overseas, and we don't want to put the CIA in charge 
of domestic collection in any respect.
    So, in part because we have had sharing problems in the 
past and we want to overcome that, we want to create a new 
structure, and in part because we don't want CIA to be in 
charge of it because of civil liberties concerns, we created 
the Department of Homeland Security.
    And, Mr. Berman, what am I missing here? Do you want to 
respond?
    Mr. Berman. You are not missing a thing. I think that is 
why the Congress did it, and there is a significant oversight 
issue and policy issue being raised by this dual authority that 
is TTIC. It doesn't fit that scheme of ensuring that the CIA is 
not involved in domestic law enforcement activities, because 
the CIA Director hired the head of TTIC. They may not be doing 
collection activities, but they--when they say there is a gap, 
that certainly triggers activity down at the FBI or abroad for 
the CIA; and it triggers collection.
    And I think that in terms of information sharing, Congress' 
concern that these agencies were not--did not have a culture of 
sharing and are trying to bring in new blood, new direction, 
new leadership through the Department of Homeland Security. And 
I think there is a very serious question on whether that is 
being carried out today.
    Chairman Cox. My time has expired.
    Mr. Scott.
    Mr. Scott. Thank you, Mr. Chairman. And I thank our 
witnesses for their indulgence.
    I think the comments that you made, Mr. Chairman, focus on 
one of the things that occurred to me that we--right after 9/
11, I thought the idea was that we noticed that the CIA, the 
FBI, and the Department of Defense weren't talking to each 
other, so we got the Department of Homeland Security together 
to try to coordinate everything. And then we looked up, and 
after all the dust settled, the CIA, the FBI, and the 
Department of Defense weren't even in the Department of 
Homeland Security. So rather than three people not talking to 
each other, now you have got four people not talking to each 
other.
    This, the TTIC, frankly cannot fit in any statutory 
framework because it is not part of any statute. So whatever is 
going on is not part of a statutory framework.
    Mr. Brennan, you indicated you had hundreds of people 
working--your title is Director of the Center, so I assume you 
are talking about 100 people now working at the Center or with 
the Center?
    Mr. Brennan. There are a little over 100 people who are 
working in TTIC right now.
    Mr. Scott. Now, do you have a personnel budget?
    Mr. Brennan. We have people coming from all the different 
partner agencies, and they bring with them their personal 
services dollars, along with nonpersonal services dollars, to 
provide them support as far as training and other types of 
requirements.
    Mr. Scott. Now, who are they reporting to after they show 
up?
    Mr. Brennan. I have day-to-day management responsibility 
for the individuals within TTIC. They are still representing 
their agencies. So they are assignees, again with the full 
authorities of their agencies.
    Mr. Scott. And who picks them to be with your agency?
    Mr. Brennan. It is a combination of my reaching out to 
those agencies and making recommendations about the type of 
people, as well as the agencies identifying individuals who can 
meet our needs within TTIC.
    Mr. Scott. In practice, out of the 100 people, how long did 
you pick and how many were selected to go?
    Mr. Brennan. I selected maybe 10 percent of them. I 
interviewed another 10 percent of them or so, and the others 
came from the agencies.
    Mr. Scott. In addition to this, is there any other staff 
that you have working?
    Mr. Brennan. I have the people that are assigned to TTIC, 
and I have the support of the partner agencies, and a lot of 
support from them, for TTIC.
    Mr. Scott. I mean, you have got millions of pieces of 
information coming in in your direction, kind of floating. I 
mean, just mechanically, when you get all of these little bits 
of information, is there a staff to look at them, or are these 
individuals--where do these 100 individuals come in?
    Who is actually looking at the hundreds and thousands and 
hundreds of thousands and, I assume, millions of little pieces 
of information? Who is looking at them?
    Mr. Brennan. A lot of different people are looking at them. 
We could have a very long conversation about the disparate data 
sets that are available to the U.S. Government and the 
different types of information systems, and the difficulty of 
being able to search across those different information systems 
and databases as a result of legacy practices and procedures 
within individual agencies.
    What we are trying to do is apply the analytical tools to 
make sure that we have the capability, the computing power that 
can identify that information which is important to our 
understanding of the terrorist threat. If we can narrow down 
the field, narrow down the volume of data, then what we want to 
do is to put eyes on those pieces of traffic so that we can 
understand it. But this is a very tedious process and a very 
complicated process as far as making sure that in the wealth of 
data that is available to the U.S. Government, we narrow it 
down into a field that is manageable, but also contains the 
dots that we are looking for.
    Mr. Scott. Well, and I mean, so you people are working on 
computers? I mean, I am a little lost as to how all of this 
information gets out of the FBI field office and into your 
office.
    And, well, whose idea was this? Who asked for it? Did 
Homeland Security come up with this idea?
    Mr. Brennan. There was a decision made within the 
Administration that there needed to be--especially with the 
stand-up with the Department of Homeland Security and with the 
Department of Intelligence within the FBI, it made a lot of 
sense to a lot of people working terrorism issues to bring 
together in one integrated environment representatives from 
those different organizations so that there would be full 
access to the information that is needed in order to understand 
the full array of threats to U.S. interests.
    Mr. Scott. And we thought that was what we were doing when 
we set up the Department of Homeland Security.
    Mr. Berman, what concerns should we have, in terms of 
privacy, about the overlapping and duplicative information-
sharing with all of these different agencies? What privacy 
concerns should we have?
    Mr. Berman. Our major privacy concern is that while we have 
a privacy officer appointed at the DHS, we do not have 
guidelines in place for audits, for standards of investigation, 
for retention of data, for under what circumstances they are 
shared and what happens when there are consequences of--
agencies are talking about keeping people off of airplanes 
because of certain information that they have collected. We 
want to make sure that if that information is false, there is a 
consequence for that.
    So that privacy violations as--that might happen out of 
data mining or data collection have the same consequences and 
have the same kind of oversight as we have over the detainees 
by the Justice Department's Inspector General, who just issued 
a report saying there are violations, how do we deal with them.
    A system was set in place to do that within the Homeland 
Security Act, but we need a status report on how that is going 
and what kind of guidelines are TTIC and the information--and 
DHS operating under. It is very uncertain, and I think that the 
Committee really has to press. Because what information are 
they collecting? How are they disseminating?
    Under what guidelines should be, in my view, a publicly 
debatable issue. And it was, from Watergate, a debatable issue 
on the domestic side for the FBI; it has become less so since 
their new guidelines were issued in July. But DHS should be 
engaging in the same public process of telling us how they are 
going to collect what standards and what kind of technology 
they are going to pick.
    The issues that Congress has raised about the Total 
Information Awareness research program and stop funding for it, 
and very important that privacy questions haven't been asked, 
but I think that is a research program.
    What we have are ongoing programs of data mining and data 
collection, by FBI, TSA, and so forth without Congress coming 
together and exercising significant sufficient oversight over--
under what guidelines, circumstances, standards are they doing 
it? And please--would you please make those public so we can 
discuss them?
    Mr. Scott. Let me follow up a little bit on that same 
issue, because we have gotten kind of different answers to the 
same question.
    Mr. Brennan, are you doing domestic information evaluation?
    Mr. Brennan. We are evaluating any information that is 
available in terms of the terrorist threat to U.S. interests 
domestically or abroad, international terrorist threats.
    Mr. Scott. International terrorism?
    Mr. Brennan. Yes. The FBI has the lead role in terms of 
assessing the domestic terrorist group threat to the United 
States interests.
    Mr. Scott. Well, they have primary. What about you? Do you 
have any role to play----
    Mr. Brennan. At this point, no, we do not.
    Mr. Scott. And if there is a known terrorist threat of 
unknown origin, are you evaluating that information if you 
don't know whether it's international or domestic?
    Mr. Brennan. I don't know how it would come to us in terms 
of what you are referring to, this theoretical possibility. But 
if it is undetermined and we have access to it, yes, we are 
going to see if it is a dot that needs to be connected to 
something else.
    Mr. Scott. Mr. Berman, are you concerned about all of this 
analysis of things that may be totally domestically oriented?
    Mr. Berman. Absolutely. A threat in Oklahoma is going to be 
looked at by TTIC because there is a possible foreign 
connection. And I believe that the assumption would be, until 
it is ruled out, they are going to take a look at it. And even 
if they looked at it and it wasn't there, apparently, they are 
going to look very deeply into it now to see whether it came 
from Iraq. Or who--you know, where did the materials come from.
    So we are going to have a crossover between foreign 
intelligence and domestic intelligence. In fact, with the lines 
between law enforcement and intelligence, Congress brought down 
because they--in some respects they are--those lines don't make 
sense. So you are--that transparency, that wall between 
intelligence and law enforcement, is down.
    You can now prosecute under both FISA and investigate for 
law enforcement and intelligence reasons. So, therefore, you 
must look at the standards for investigation depending on the 
threat and what kind of information they need to become more 
intrusive.
    Mr. Scott. The significance of that wall going down is that 
you can get information on the intelligence side without the 
traditional----
    Mr. Berman. Traditional fourth amendment standards.
    Mr. Scott. Probable cause. You can just get the 
information?
    Mr. Berman. You can get the information.
    Now, if it is--if you have a--now, if you have a FISA 
warrant on a terrorist organization, or someone aiding or 
someone abetting, you can get significant third-party 
information on any information relevant to that investigation 
whether--regardless of whether it pertains to the target of the 
investigation. So it can be everyone in the apartment building 
that you are living in, because they suspect that you are a 
terrorist.
    I didn't mean that, Mr. Scott, but----
    Mr. Scott. Well, none of that information is protected, 
because it is going to be shared over all----
    Mr. Berman. It can be shared. It is under no--we have done 
a chart at my organization of restrictions from different 
statutes; and we have red lights for warrants, and green for 
the Government gets it with a piece of paper, or with nothing, 
no, just give it to us. And it looks like the whole country of 
personal information went green. It is a green light.
    Now, I am not saying that we should--that they may not need 
some of that information, but that is enormous discretion. And 
that discretion should be bound by guidelines, rules and 
accountability. And the only reason that we are sitting here 
and not--you know, we don't know what is going on, and because 
we haven't had a second 9/11, we--there is--that is both a--
that is a blessing.
    But we certainly, before we have another one, ought to know 
who goes into the different boxes and what the boxes are for 
standards, collection, dissemination and so forth. And that is 
a public policy issue that this Committee needs to address.
    Chairman Cox. The gentleman's time has expired.
    Does the gentleman from Texas wish to be recognized for a 
concluding statement?
    Mr. Turner. Thank you, Mr. Chairman. Our thanks to all four 
of you for your testimony today. It is my hope that out of it, 
we can continue to further define and specify the various 
responsibilities that each of you has so that we can be more 
efficient and effective in the way that we carry out this task.
    I know, Mr. Parrish, you have plenty of room to grow in 
terms of the development of your agency and the particular 
division of your agency. We were all shocked to hear a few 
weeks ago from Mr. Redmond, as we were pursuing our efforts to 
develop the Project BioShield legislation, to learn that you 
have only one analyst in the department that knows anything 
about the threat of bioterrorism and the vulnerabilities that 
we face.
    I would assume you are probably in a similar posture today. 
But I also know that your intent would clearly be to expand 
that manpower to ensure that we can deal with that effectively.
    So all of you have a very tremendous responsibility, one 
that I know all of you take very seriously, and all of you, I 
hope and am confident, carry out your task with the sensitivity 
to the issues that Mr. Berman raised today.
    So we want to be supportive of your effort. But we also 
want to know that you are accountable to the Congress, and that 
the intent of the Congress and the legislation that we have 
passed in the Department of Homeland Security Act will clearly 
be carried out and the full realization of its purpose will be 
achieved.
    But we thank you, and we appreciate the good work that all 
of you do. Thank you, Mr. Chairman.
    Chairman Cox. Thank you.
    I too want to join in thanking our witnesses, Mr. Brennan, 
Mr. Mefford, Mr. Parrish, Mr. Berman, you have been very 
patient and very helpful. I think the Committee has gained, our 
Members and our staff, a much better appreciation of the jobs 
that you are seeking to discharge, the responsibilities that 
you carry.
    And I think, just as there is a difference at this juncture 
between the Homeland Security Act, and the Department itself, 
because it is a work in progress, so too there is a difference 
between what on paper we have set out to do with TTIC and where 
we are finding ourselves at present.
    This is a people business. And the three of you, Mr. 
Berman, not being a member of this group for this purpose, the 
three of you sitting at this table have as much reason simply 
to talk to each other as to consult with your lawyers about 
how, allegedly, you are to interact.
    And I do hope that you will infer from the questions that 
we put to you some of Congress' aims, some of our aims in the 
House of Representatives, with respect to both the Department 
of Homeland Security and TTIC.
    TTIC, which is led by the CIA, most importantly, from the 
Chairman's standpoint, must not be allowed in any way to impair 
the development of the Department of Homeland Security. That is 
the Hippocratic Oath for homeland security; First, do no harm. 
Our aim, as it has been represented by the witnesses today, is 
far from doing any harm: to multiply our force, to make the 
Department of Homeland Security more effective at what it does, 
to make the FBI more effective at what it does, to make the 
CIA, likewise, more effective, and all of the participants 
within TTIC. I know that is your aim, and I hope that we can 
make that happen.
    Second, the Department of Homeland Security's information 
analysis responsibilities are global. I think it is vitally 
important for us to recognize going in--both going into the 
construction of that capability within the Department of 
Homeland Security and going into TTIC--that that is so.
    I will say that as a Member of Congress, my estimation of 
the scope that we have planned for the IA function within the 
Department of Homeland Security is modest. At 150 analysts, as 
compared, for example, to the 300 analysts already put in place 
over the last year at NORTHCOM, is not an overpowering 
ambition. I hope that the statutory--but it is not my job, and 
the statute certainly doesn't say how many numbers of analysts 
that we have to have to determine what that figure is.
    But I hope that we do focus on results and that we have 
enough people, enough resources, to do that job; and that we 
set out to accomplish it as rapidly as possible.
    And, lastly, I have inferred from this hearing that the 
Terrorist Threat Integration Center is a good thing. I am glad 
we have it because it works, because it is functioning in a way 
that even with the best of intentions and armed fully with 
congressional statutory language, the Department of Homeland 
Security cannot do this yet.
    But the Department of Homeland Security is beginning to do 
this, and I hope that whereas presently we don't have, 
therefore, too much redundancy, as that redundancy inevitably 
develops, that we do scale back what we are doing at TTIC, and 
that we not seek simply to morph it into something else. 
Because--after all, it is there, and the rule of bureaucracy is 
that things never go away--I think it would be vitally 
important for us to recognize that that, in the long run, would 
not contribute to homeland security, but actually contribute to 
a diffusion of responsibility.
    This is for the Congress, as well as for the executive 
branch, a work in progress. And I look very much forward to 
working with all of you.
    I want to end with a comment that I made earlier, in the 
middle of the hearing, which is that I and, I think, every one 
of us, has enormous respect for you gentlemen and for what you 
are doing--and in that group, Mr. Berman, you are included--
both within and without the Government.
    Homeland security more than any other function in the 
national security area is involving the private sector, and so 
we have got to do this together.
    We have kept you here very late tonight. You have been 
absolutely stalwart, and so we look forward to working with you 
in shorter bursts in the future. Thank you for being here 
today.
    The hearing is adjourned.
    [Whereupon, at 5:10 p.m., the joint Committees were 
adjourned.]
                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

Prepared Statement of the Honorable James R. Langevin, a Representative 
               in Congress From the State of Rhode Island
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

        Responses from John O. Brennan to Post-Hearing Questions
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

     Responses from Eleni P. Kalisch, on behalf of Larry Mefford, 
                       to Post-Hearing Questions
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Responses to post-hearing questions from the U.S. 
Department of Homeland Security had not been received by the 
Committee on the Judiciary at the time this hearing was 
submitted for printing.

                                   - 

</pre></body></html>
